<html>
<title> - GENERAL AVIATION SECURITY: ASSESSING RISKS AND THE ROAD AHEAD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



     GENERAL AVIATION SECURITY: ASSESSING RISKS AND THE ROAD AHEAD

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY
                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2009

                               __________

                           Serial No. 111-28

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
52-956 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 Sheila Jackson Lee, Texas, Chairwoman
Peter A. DeFazio, Oregon             Charles W. Dent, Pennsylvania
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Candice S. Miller, Michigan
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Emanuel Cleaver, Missouri            Peter T. King, New York (Ex 
James A. Himes, Connecticut              Officio)
Eric J.J. Massa, New York
Dina Titus, Nevada
Bennie G. Thompson, Mississippi (Ex 
    Officio)
                     Michael Beland, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
              Joseph Vealencis, Minority Subcommittee Lead











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     5

                               Witnesses

Mr. Carlton I. Mann, Assistant Inspector General for Inspections, 
  Office of the Inspector General, Department of Homeland 
  Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    11
Mr. John Sammon, Assistant Administrator, Transportation Sector 
  Network Management, Transportation Security Administration:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Dr. Charles R. Gallaway, Acting Director, Domestic Nuclear 
  Detection Office, Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Ms. Martha King, Pilot:
  Oral Statement.................................................    44
  Prepared Statement.............................................    45
Mr. Robert P. Olislagers, Executive Director, Centennial Airport:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50
Mr. Jeremy Rogalski, Investigative Reporter, KHOU-TV:
  Oral Statement.................................................    54
  Prepared Statement.............................................    55
Mr. Mark Van Tine, President and Chief Executive Officer, 
  Jeppessen, Incorporated:
  Oral Statement.................................................    56
  Prepared Statement.............................................    58

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Letter.........................................................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection:
  Letter From the Chamber of Commerce of the United States of 
    America......................................................    24
  Letter.........................................................    25

                                Appendix

Questions From Chairwoman Sheila Jackson Lee of Texas for Carlton 
  I. Mann, Assistant Inspector General for Inspections, Office of 
  the Inspector General, Department of Homeland Security.........    77
Questions From Chairwoman Sheila Jackson Lee of Texas for Mr. 
  John Sammon, Assistant Administrator, Transportation Sector 
  Network Management, Transportation Security Administration.....    78
Questions From Ranking Member Charles W. Dent of Pennsylvania for 
  Mr. John Sammon, Assistant Administrator, Transportation Sector 
  Network Management, Transportation Security Administration.....    79
Questions From Chairwoman Sheila Jackson Lee of Texas for Dr. 
  Charles R. Gallaway, Acting Director, Domestic Nuclear 
  Detection Office, Department of Homeland Security..............    79
Questions From Ranking Member Charles W. Dent of Pennsylvania for 
  Dr. Charles R. Gallaway, Acting Director, Domestic Nuclear 
  Detection Office, Department of Homeland Security..............    80
Questions From Chairwoman Sheila Jackson Lee of Texas for Martha 
  King, Pilot....................................................    80
Questions From Chairwoman Sheila Jackson Lee of Texas for Robert 
  P. Olislagers, Executive Director, Centennial Airport..........    81

 
     GENERAL AVIATION SECURITY: ASSESSING RISKS AND THE ROAD AHEAD

                              ----------                              


                        Wednesday, July 15, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, DeFazio, Norton, 
Kirkpatrick, Lujan, Massa, Titus, Dent, Lungren, Olson, and 
Austria.
    Ms. Jackson Lee [presiding]. The subcommittee will come to 
order. I am particularly pleased to be holding this hearing. I 
am pleased to acknowledge the presence of my Ranking Member, 
Mr. Dent, as well as Mr. Olson of Texas and Mr. Austria of 
Ohio.
    You know where I was going to put you? Hawaii. Would you 
like to be there now? Mr. Austria of Ohio, of course I know. 
Thank you, welcome.
    Likewise, Ms. Titus of Nevada and Mr. Massa, we are very 
delighted to have you here.
    He wants me to know, I know, Ohio. Thank you very much.
    I am pleased to hold this hearing, because this is a 
bipartisan effort. In one of our markups, I agreed with Mr. 
Olson of Texas that we should have this hearing. But 
interestingly enough, our committee has been working on these 
issues for quite a while. We frankly believe that, to secure 
this Nation in its entirety, the good fortune of the Homeland 
Security Committee is to be engaged in preventative medicine 
and to work diligently to overcome, if you will, some of the 
misconceptions.
    I also want to make note of the fact that we are pleased 
that, in the regulatory stage, as Mr. Sammon has indicated, the 
industry raised their voices and has had very substantial 
input. So, we look forward to making progress that does not 
diminish the high responsibility of securing the homeland; at 
the same time, however, being considerate of some important 
issues that have been raised.
    So, the subcommittee is meeting today to receive testimony 
on general aviation security, about risks and the road ahead. 
Our witnesses today will testify on security risks associated 
with general aviation and help Members assess TSA's existing 
and proposed security programs for general aviation. It will 
also address how effectively relevant DHS components are 
working together to secure this important arena.
    Today, we are here to discuss the critical issue of 
securing our general aviation system. We will consider the 
risks facing general aviation generally, whether a regulatory 
regime is required, whether we are doing enough to secure in-
bound general aviation aircraft from being utilized to 
transport or deploy WMD, and we will hear perspective from non-
governmental stakeholders.
    The general aviation industry is a vital component to our 
economy, having an economic impact of $100 billion annually, 
supporting 1.3 billion--million--1.3 million jobs. This tracks, 
of course, the commitment of our President, who wants to either 
create new jobs or save jobs.
    General aviation encompasses aircraft of virtually every 
size that perform a wide variety of missions, from crop-dusting 
to large passenger charters. Further, international in-bound 
general aviation accounts for about 400 flights per day. Most, 
about 75 percent, are from Canada and Mexico, and the remainder 
is from a variety of countries.
    Last year, TSA released its Large Aircraft Security Program 
rulemaking for general aviation security. While I think it is 
imperative that the Federal Government look at risks and 
address them, it is clear that this rulemaking process did not 
take into account some serious concerns raised by stakeholders. 
One in particular, of course, dealt with poundage or tonnage of 
the particular aircraft and what level of security should be 
placed depending on the size of the plane--a reasonable 
proposition that I think we have heard, and we will assess and 
address.
    Led by Chairman Thompson, this committee expressed its 
concern with TSA's Large Aircraft Security Program. Today, we 
will hear from TSA and industry about whether the process has 
been improved and what the final rule may look like. Under my 
leadership, the House recently approved H.R. 2200 with 
overwhelming support. The bill includes provisions to 
significantly improve stakeholder input into TSA programs and 
polices for general aviation.
    It is important for us to discuss the rule for general 
aviation security. But it is equally important for this hearing 
to also consider whether DHS as a whole is doing all that it 
should to secure general aviation.
    In his recent book, ``The Inheritance: The World Obama 
Confronts and the Challenges to American Power'', the chief 
Washington correspondent for the New York Times, David Sanger, 
interviews Vayl Oxford, the former director of the Domestic 
Nuclear Detection Office at DHS--in the book, Oxford considers 
the prospect of someone flying--and of course, just so that you 
know that we really read here, this book, I think, is quite 
good, to my Ranking Member--the prospect of someone flying a 
nuclear weapon into the United States on a private plane and 
then detonating it in the air over a major city. In the book, 
Oxford asserts: My worry is that you wouldn't even have to land 
the jet.
    Accordingly, staff has been looking into this hypothetical 
to determine what the Department is doing to mitigate such a 
risk. Regrettably, TSA and the rest of DHS do not seem to have 
a harmonious approach to this problem. One of the issues that 
really begs for my consternation is the report by the Office of 
Inspector General that frankly, I believe, does an overwhelming 
disservice to the importance of homeland security and alerting 
people to the dangers or the vulnerabilities of an unsecure 
general aviation system.
    To be able to write in a summary, ``We determine that 
general aviation presents only limited and mostly hypothetical 
threats to security,'' is irresponsible. To make light of a 
civilian report on various general aviation airports that were 
penetrated is, I believe, both disrespectful and certainly not 
encompassing of the thorough work that I would like to see from 
our governmental agencies.
    Entities such as TSA assume that other components, like 
CBP, are taking measures that they are, in fact, not taking. 
Today, we will try to learn from DNDO about the risks posed by 
in-bound general aviation, how the Department is attempting to 
mitigate such risks, and what we in the Congress can do to 
help. I think today's hearing will lay important markers about 
general aviation security and how DHS can more efficiently 
harness its resources. My subcommittee stands ready to provide 
DHS with the support it needs to keep the American people safe.
    Yes, I believe in partnership with the Ranking Member. We 
are concerned about the industry, the jobs, and ensuring that 
we can have a balanced approach to the security of general 
aviation. I welcome that input today.
    I thank the witnesses for their valuable testimony, 
especially our second panel, for making the effort to come to 
Washington, to enlighten us on this issue. Without objection, I 
submit for inclusion at an appropriate place in the record two 
news stories authored by one of our witnesses, Jeremy Rogalski, 
examining general aviation airports in the Houston area,* and 
the letter sent by Chairman Thompson to TSA earlier this year 
regarding its large aircraft security program. Hearing no 
objection, so ordered.
---------------------------------------------------------------------------
    * The information referred to has been retained in committee files.
---------------------------------------------------------------------------
    [The information follows:]
     Letter Submitted for the Record by Chairman Bennie G. Thompson
                                                     March 2, 2009.
Mr. Erik Jensen,
Assistant General Manager, Policy and Plans, Office of General 
        Aviation, TSNM, TSA-28, U.S. Transportation Security 
        Administration, 601 South 12th Street, Arlington, VA 22202-
        4220.
    Dear Mr. Jensen: The purpose of this letter is to submit comments 
on the Notice of Proposed Rulemaking (NPRM) issued by the 
Transportation Security Administration (TSA) regarding the Large 
Aircraft Security Program, Other Aircraft Operator Security Program, 
and Airport Operator Security Program (Large Aircraft Security Program 
NPRM), which appeared in the Federal Register on October 30, 2008 [TSA-
2008-0021].
    Based upon my concerns over the issues raised in the following 
discussion, I urge TSA to delay implementation of final rulemaking with 
regard to the Large Aircraft Security Program until the new TSA 
leadership has had an opportunity to review the NPRM and engage with 
Congress and industry stakeholders.
    Congress passed the Aviation and Transportation Security Act of 
2001 (ATSA) which requires a security program for charter aircraft 
weighing 12,500 pounds or more and a report from TSA detailing measures 
which would be necessary to improve general aviation security.\1\ The 
9/11 Commission expressed concerns regarding vulnerabilities in 
aviation security and found that ``[M]ajor vulnerabilities still exist 
in cargo and general aviation security. These, together with inadequate 
screening and access controls, continue to present aviation security 
challenges.''\2\
---------------------------------------------------------------------------
    \1\ Pub. L. 107-71, Sec 132.
    \2\ The 9/11 Commission Report: Final Report of the National 
Commission on Terrorist Attacks Upon the United States.
---------------------------------------------------------------------------
    The Committee on Homeland Security has worked diligently to ensure 
that the recommendations contained in the 9/11 Commission Report were 
passed into law. The Implementing Recommendations of the 9/11 
Commission Act of 2007 (9/11 Act directed TSA to develop a risk-based 
threat and vulnerability assessment for general aviation airports, 
study the establishment of a grant program for general aviation 
security, and require international in-bound general aviation aircraft 
operators to submit advanced passenger information to Customs and 
Border Protection (CBP) before entering the United States.\3\
---------------------------------------------------------------------------
    \3\ Pub. L. 110-53, Sec 1617.
---------------------------------------------------------------------------
    The Large Aircraft Security Program which would be established by 
the NPRM would require new security mandates for general aviation 
aircraft operators with aircraft of 12,500 pounds or greater. These 
mandates include conducting background and criminal history checks for 
flight crews, using a third-party watch list service provider to 
validate passengers against the Federal aviation watch lists, 
designating security coordinators at corporations and businesses 
operating the aircraft, and checking property on-board the aircraft for 
unauthorized persons and prohibited items. Although Congress has 
supported increased general aviation security protocols in the past, 
and will continue to do so, numerous concerns from industry 
stakeholders who would be impacted by the proposed protocols have been 
communicated to the committee. As such, the committee was pleased that 
TSA extended the initial comment period for the NPRM and conducted a 
series of five public meetings across the country to receive input from 
the general aviation community.
    While all of the concerns expressed by stakeholders have merit, 
several critical elements in the NPRM, in particular, appear to be 
problematic, infeasible, or overly burdensome to industry. The 
committee is also concerned that the formulation of the NPRM was not 
based on a threat and risk methodology process tailored to the general 
aviation environment. I encourage TSA to continue to work with 
stakeholders in crafting a sensible, risk-based approach to improving 
general aviation security and to do so in a timely fashion.
    The following comments outline the committee's concerns with the 
NPRM.
                   watch list matching of passengers
    The NPRM establishes a process whereby third-party watch list 
service providers would conduct watch list matching for passengers on 
large general aviation aircraft. This use of a third-party vendor would 
shift the responsibility away from individual aircraft operators.\4\ 
The NPRM states that this is an interim step until the Secure Flight 
system is fully operational. However, this proposed interim step raises 
several concerns. First, Congress has directed TSA to assume the 
aviation watch list matching function and TSA has subsequently 
developed the Secure Flight program. There is a question as to whether 
the use of third-party service providers to perform this function, as 
provided in the NPRM, in general aviation on a short-term basis would 
undermine Congressional intent to have TSA administer watch list 
matching. Moreover, it seems that the use of third-party vendors would 
require the release of confidential watch list information to the 
private sector. Additionally, it appears that this policy would 
indirectly impose a fee on general aviation operators for a service 
that commercial airlines receive without a fee. Since Secure Flight 
should be operational at some point in 2009, TSA should consider 
integrating general aviation watch list matching procedures into the 
Secure Flight system so that stakeholders will not be tasked with 
implementing a separate, interim watch list matching process.
---------------------------------------------------------------------------
    \4\ Certain large general aviation aircraft operators are already 
required to perform passenger watch list matching such as operators of 
private charter aircraft. Currently for these operators, TSA provides 
the No-Fly and Selectee lists to the operators.
---------------------------------------------------------------------------
    In addition, the unspecified time requirements for conducting watch 
list matching in advance of a flight are of considerable concern to the 
general aviation industry. As you may know, the general aviation 
industry routinely performs unscheduled flights, often with very short 
notice. This kind of advance matching in the general aviation context 
could have adverse economic consequences on the general aviation 
community. Further, the proposed rule does not provide a protocol for 
general aviation aircraft operators if a prospective passenger is 
selected for secondary screening. Industry stakeholders should be 
involved in the development of a feasible protocol to address this 
scenario.
    Finally, in addition to requiring the use of a third-party vendor 
for watch list matching services, the proposed rule would require 
general aircraft operators to contract with a third-party auditor to 
conduct biennial audits of watch list matching compliance. Not only 
does this requirement appear to be an additional unfunded mandate on 
aircraft operators, it would be a delegation of TSA's Federal 
responsibility to protect aviation security to the private sector. TSA 
should work with stakeholders to develop a process with a less costly 
impact on the general aviation industry, exerts stringent security 
controls over the personal data of private individuals who undergo 
watch list matching and supports the Federal Government's security 
interests in these sensitive areas.
  unauthorized persons and accessible weapons on-board large aircraft
    The NPRM tasks aircraft operators with adopting procedures to 
prevent passengers from carrying prohibited items onto the aircraft. 
While unauthorized weapons, explosives, incendiaries, and other 
destructive substances must be excluded from general aviation aircraft, 
this rule appears to apply a commercial passenger security checkpoint 
standard to general aviation. Given that general aviation aircraft are 
configured differently from commercial aircraft, with cargo hold access 
being generally available to passengers, the rules for prohibited items 
aboard general aviation aircraft should be tailored to a risk-based 
methodology and assessment specifically developed for general aviation 
aircraft and their passengers. This assessment should be completed 
before implementing inspection and seizure protocols that may not be 
feasible or warranted in a general aviation environment. Additionally, 
it should be noted that the risk assessment should include delineation 
between protocols for Part 91 operators who have greater knowledge and 
control over passengers and Part 135 operators who are available for 
hire and may have more limited knowledge of their passengers.
    The committee commends TSA for its efforts to strengthen 
vulnerabilities in general aviation as recommended and encouraged by 
the 9/11 Commission, and prescribed by statute. The committee has 
serious concerns, however, about several components in the NPRM as 
described above. Therefore, I urge TSA to postpone final implementation 
of general aviation security regulations until the new TSA leadership 
has had the opportunity to review the NPRM and engage in discussion 
with Congress and industry stakeholders.
    If you have further questions, please contact Rosaline Cohen, Chief 
Counsel of the Committee on Homeland Security.
            Sincerely,
                                        Bennie G. Thompson,
                          Chairman, Committee on Homeland Security.

    Ms. Jackson Lee. The Chairwoman now recognizes the Ranking 
Member, the gentleman from Pennsylvania, Mr. Dent, for an 
opening statement.
    Mr. Dent. Thank you, Madame Chairwoman, for conducting this 
hearing. We certainly appreciate the courtesies you have 
extended on this issue. Also, before we begin, I would like to 
say thanks to all of you here today for participating. Our 
subcommittee has been very, very busy thus far this Congress. 
So, I was very pleased to see the Chair make time for this 
important hearing.
    As Ranking Member of this subcommittee, and as a Member of 
the committee on transportation and infrastructure's 
subcommittee on aviation, I am deeply interested in general 
aviation and hope this hearing serves as an opportunity to 
inform others of the vital role general aviation plays in the 
United States. Although general aviation flights account for 
some 77 percent of all domestic flights in America, it is not 
well understood by most Americans.
    Supporters of general aviation come from all walks of life, 
not just corporate businesses who rely on these aircraft to 
meet client demands. In fact, some famous people like Harrison 
Ford and John Travolta are licensed pilots. Some less famous 
people, like my neighbor, Mark Kappas, fly corporate aviation. 
It is therefore truly unfortunate that recent events have 
painted all of general aviation with the same brush as a symbol 
of wealth and excess. This is absolutely not the case.
    General aviation supports over a million American jobs and 
adds about $150 billion to the American economy. In 2005, 
general aviation supported businesses totaling over $11 billion 
just in Texas and another $6 billion in my home State of 
Pennsylvania. We have a proud tradition of general aviation in 
my State.
    Furthermore, while commercial airlines reach only about 350 
major metropolitan areas, there are some 19,000 air fields, air 
strips, and general aviation airports that reach the rest of 
the United States. If it is not scheduled commercial service or 
military flight, it is general aviation. While I recognize that 
general aviation is so very important to our small rural 
communities and towns, it also poses certain risks that may 
require some mitigation.
    For example, few aircraft have keys. Aircraft can move much 
faster than cars and thus give our response capabilities less 
time to react. Finally, it gets a little dicey trying to pull 
over a general aviation aircraft with an F-16.
    I also understand that Dr. Gallaway of the DNDO, the 
Domestic Nuclear Detection Office, has some concerns for the 
possibility that a terrorist might charter general aviation 
aircraft and use it as a mechanism for the delivery of a weapon 
of mass destruction, a very real concern.
    As I also sit on this committee's intelligence 
subcommittee, I can say that I have never been briefed on such 
a plot, either real or hypothetical. Nevertheless, despite the 
exceptionally low probability of such an occurrence, as 
highlighted by the inspector general's report--the 
exceptionally high consequence certainly merits further review. 
So, I look forward to Dr. Gallaway's testimony on this subject.
    The threat of a terrorist attack through general aviation, 
of course, is a very real concern. I am pleased that the 
Chairwoman has shared with us David Sanger's book. A lot of 
factors weigh in here--you know, the weight of the plane, 
international flights, and a lot of things we probably ought 
not discuss in an open session. But nevertheless, it is 
important that we talk about this issue and also understand, in 
some respects, it is a separate and distinct issue from the 
LASP program that we are going to get into here in a little 
bit.
    Certainly, while general aviation could potentially provide 
opportunities to allow unauthorized persons and materials into 
the sterile area of an airport or airfield, I have strong 
reservations about the Department's attempt to address these 
potential vulnerabilities with a heavy-handed, one-sided 
approach. Of course, I am speaking of the Department's Large 
Aircraft Security Program proposal released in October of last 
year.
    I am very interested in learning how the Department 
developed its initial LASP rulemaking, especially since it 
appears it summarily rejected any input by the general aviation 
stakeholders during the development of the proposed rule. At 
first blush, it appears the Department took everything it knew 
about risk-based asset allocation and performance-based 
standards and tossed it out the window. It checked the box in 
terms of consulting with relevant stakeholders and then went on 
its own way. This was a case of Government heavy-handedness 
that I think that most of us do not embrace.
    However, since March, the TSA has reached out extensively 
to general aviation stakeholder groups in a very public and a 
very inclusive way. I understand that TSA may be close to 
drafting a new rulemaking for regulating the general aviation 
community--a rulemaking built on collaboration and not 
confrontation. I think this is absolutely the right approach. I 
want to thank Mr. Sammon publicly and right now for his 
leadership on this matter. I know he has taken this very 
seriously. I appreciate his help on this.
    Nevertheless, given the TSA's history in this particular 
area, I thought it important to introduce H.R. 3093, the 
General Aviation Security Enhancement Act of 2009, a bipartisan 
piece of legislation that requires the TSA to undergo a 
negotiated rulemaking to establish new general aviation 
security regulations.
    Again, I would like to also specifically acknowledge Ed 
Perlmutter, our friend and former Member of the committee, 
Homeland Security Committee alumnus, for cosponsoring this 
legislation.
    So, Madame Chairwoman, we have a lot to cover today. But I 
would beg your indulgence as I yield the balance of my time to 
my good friend and fellow supporter of this general aviation 
issue, to Mr. Olson of Texas.
    Ms. Jackson Lee. The gentleman is recognized.
    Mr. Olson. Well, thank you.
    Hey, hit the microphone. It helps. Thank you, my colleague, 
Mr. Dent, for yielding your time.
    Thank you, Madame Chairwoman for agreeing to hold this 
important hearing. This issue is of great importance to the 
Houston area. I am glad to see this subcommittee take an 
interest in it.
    General aviation is a vital component of our national 
economy and contributes over $11 billion to the Texas economy. 
By rough count, the 22nd District of Texas is home to a dozen 
small airports that serve the general aviation community, 
including Sugar Land Regional, Pearland Regional, and Ellington 
Field. The security of those airports, aircraft, pilots, and 
passengers is a great concern of mine.
    However, I believe we must ensure that Congress and 
Government agencies do not go overboard in legislating or 
rulemaking in a way that would make it difficult for them to do 
business. I was pleased to see some good, common-sense 
provisions included in the TSA Authorization Act regarding 
general aviation, including an amendment I offered during the 
full committee mark-up prohibiting the outsourcing of the 
terrorist watch list to third-party contractors.
    I will explore this issue further during my time for 
questions and will be interested on hearing the panel's 
thoughts on these issues.
    Thank you again, Madame Chairwoman, for agreeing to host 
this hearing. I look forward to working with the subcommittee 
on these important matters, today, and in the future. I yield 
back the balance of my time.
    Ms. Jackson Lee. Thank you. The gentleman has yielded back.
    Having consulted with the Ranking Member on the matter, the 
subcommittee will now view a video related to the issue being 
addressed at today's hearing.
    [Video played.]
    Ms. Jackson Lee. As we begin, I think it is clear that we 
are looking at several issues. Mr. Sammon, I think, we've 
captured in some previous conversations. We are looking at 
vulnerabilities. Vulnerabilities represent not only the 
existence of the craft, the aircraft, but also perimeter. So, 
we cannot look cross-eyed at the holistic concept of general 
aviation. We must look at it for all of its elements.
    Let me indicate that, to those Members who have come in, I 
want to welcome you. Mr. Lujan, Ms. Kirkpatrick, Ms. Norton, 
and Mr. DeFazio, welcome to the committee.
    Other Members of the subcommittee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    I welcome our first panel of witnesses. Our first witness 
is Carlton Mann. Mr. Mann has served as the Department of 
Homeland Security's assistant inspector general for inspections 
since 2006. In that position, Mr. Mann provides the inspector 
general with a means to analyze programs quickly and evaluate 
operational efficiency and vulnerability across the spectrum of 
DHS components. Mr. Mann was previously a senior program 
analyst with the Federal Emergency Management Agency's Office 
of Inspector General.
    Our second witness, John Sammon, is the assistant 
administrator for transportation sector network management. He 
leads a unified effort to protect and secure our Nation's 
transportation systems. Mr. Sammon brings more than 25 years of 
transportation experience to his position, including management 
of customer networks for railroads, motor carriers, ocean 
carriers, petrochemical manufacturers, ports, and other public 
agencies.
    Our third witness is Dr. Charles Gallaway. He is the deputy 
director of DNDO. Dr. Gallaway joined DNDO as a career SES with 
32 years of service in the U.S. Government.
    Prior to joining DNDO, Dr. Gallaway served the Defense 
Threat Reduction Agency as a director of the Chemical and 
Biological Technologies Directorate, responsible for 
transformational research and development to protect the 
warfighter from the threat posed by chemical and biological 
warfare agents. He has been involved with the development of a 
variety of close-in sensors to non-intrusively identify and 
characterize a nuclear weapon.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his statement for 5 minutes, beginning with Mr. Mann.
    First of all, allow me to thank all of you for your public 
service. We look forward to hearing from you this afternoon.
    Mr. Mann.

 STATEMENT OF CARLTON I. MANN, ASSISTANT INSPECTOR GENERAL FOR 
  INSPECTIONS, OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Mann. Good afternoon, Madame Chairwoman, Ranking Member 
and Members of the subcommittee. I am Carlton Mann, assistant 
inspector general for inspections, Office of the Inspector 
General at the Department of Homeland Security. I certainly 
thank you for this opportunity to discuss our report, TSA's 
Role in General Aviation Security.
    In early February 2007, a Houston-area television station 
broadcast a report that alleged that there were deficiencies in 
security at regional airports near the city, and that those 
deficiencies represented a serious homeland security threat. 
The broadcast was titled: ``Is Houston a Sitting Duck For 
Terrorism?'' The report described visits by reporters to some 
Houston area general aviation airports to test airport 
security. Three were mentioned specifically: Sugar Land 
Regional Airport, David Wayne Hooks Airport, and the Lone Star 
Executive Airport.
    Madame Chairwoman, you conveyed to us your concerns about 
the implications of this report and requested that we examine 
the issue. After meeting with you and your staff, we visited 
all three airports and a few general aviation facilities at 
other major metropolitan areas: Los Angeles, Chicago, and New 
York.
    General aviation is commonly defined as all aircraft 
operations other than military and scheduled commercial 
passenger service. The vast majority of flight operations in 
the United States, approximately 230,000 aircraft, are engaged 
in general aviation. As the Ranking Member mentioned, there are 
approximately 19,000 airfields at which no scheduled commercial 
passenger operations normally occur--only general aviation. 
Even at commercial airports, there is usually some type of a 
general aviation operation.
    We began our inspection. We defined the objectives to align 
with the interest expressed in the situation near Houston and 
the implications of general aviation activities occurring near 
major cities. We also focused on DHS's activities and 
responsibilities regarding general aviation. Our objectives 
were to identify TSA security requirements for general aviation 
airports and security measures taken, steps non-Federal 
stakeholders have taken to enhance security, and any incidents 
of concern with security at general aviation airports.
    Our team visited 11 airports, where we interviewed managers 
and security staff. At each site, we also met with the nearest 
TSA officials responsible for aviation security. We examined 
Government and public records, consulted with some industry 
stakeholders, and obtained information from TSA headquarters.
    We believe that the basic facts contained in the television 
report were accurate. However, we did not find those facts to 
be of significance from a homeland security perspective. For 
example, one of the incidents described the television crew 
driving up to a closed gate at Hooks Airport, ringing the 
callbox for admission and being admitted. The report stated: 
The gate slid open letting us past the barbed wire and onto the 
tarmac. No one asked us any questions.
    When we visited Hooks, we were told that that is exactly 
what is supposed to happen, since the system is not intended to 
interrogate visitors. Specifically, the purpose of the remote-
controlled gate with the intercom is to ensure that the 
airfield personnel will be aware of any vehicle coming onto the 
field. From that point, the vehicle and its passengers can be 
monitored or questioned as necessary to maintain safe 
operations.
    The television report also described fencing at Sugar Land 
Airport that does not completely encircle the perimeter of the 
field. Our inspectors examined that fence, as well as the 
unfenced property around the field, which borders a swamp and a 
prison. Managers at Sugar Land told us that the purpose for the 
fence is to direct normally occurring traffic off of the 
landscaped portions of the property onto the paved access 
passages.
    The airport property includes large unused acreage quite 
some distance from aircraft operations. Most important aspect 
of the facility's security program, managers told us, involved 
maintaining control over the flight line area, not distant 
unused grass.
    The third incident in the report involved the television 
reporter entering Lone Star Executive Airport and walking close 
to a parked aircraft. The managers at all three airfields told 
us it is routine for people on foot to approach parked aircraft 
at public airfields. Unlike commercial aviation, where airport 
passengers are sequestered and led down a ramp onto a plane, in 
general aviation facilities, airfield personnel, maintenance 
teams, pilots, and their passengers might be near aircraft or 
on the flight line all day.
    The important security issues are: Is the aircraft under 
the control of its owner? Is the flight system locked or 
otherwise inoperable by others? Is the person who is 
approaching the aircraft being observed from a security post or 
control tower? Is any suspicious activity occurring near the 
aircraft? Is all aircraft movement coordinated with the control 
tower or with base operations?
    It is possible to steal an aircraft. We certainly don't 
assert that a plane cannot be flown without its owner's 
permission. However, aircraft thefts are extremely rare. An 
attempted theft would almost certainly be noticed.
    At each of the airfields we visited, we asked for 
information about any incidents of concern relating to general 
aviation facilities or aircraft. There were none. We also 
requested information from TSA about incidents reported at 
general aviation, through the General Aviation Hotline. Most of 
the incidents were characterized simply as suspicious activity, 
though a few were for property theft, vandalism, unlocked 
gates, or anonymous tips about narcotics smuggling.
    As indicated earlier, one of our objectives for this 
inspection was to identify measures taken by TSA to secure 
general aviation. A list of those measures is contained in our 
report. We did not evaluate the cost benefit issues relating to 
those measures or make any judgments about them. We determined 
that TSA, even while it actively pursued all its other 
mandates, has also paid significant attention to general 
aviation.
    When one of our inspections reveals an opportunity for 
improving a DHS program, we normally address a recommendation 
to the component head to rectify the condition. In this 
instance, we did not identify problems with TSA's activities. 
We released the results of our inspection without making 
recommendations.
    Various Government industry studies have concluded that the 
risks associated with general aviation are relatively limited. 
Reports previously released by the General Accountability 
Office and the Congressional Research Service are consistent 
with this view. GAO concluded that the small size, lack of fuel 
capacity and minimal destructive power of most general aviation 
aircraft make them unattractive to terrorists, and thereby 
reduce the possibility of threat associated with their misuse.
    The Congressional Research Service reported that typical 
general aviation aircraft are too light to use as a platform 
for conventional explosives. Moreover, heightened vigilance 
among airport operators and pilots would make it difficult to 
load the necessary quantity of explosives without detection. 
The report concluded that, as a platform for conventional 
explosives, the threat posed by light general aviation aircraft 
is relatively small compared to the threat posed by trucks.
    We are aware that our report may be used by those who are 
arguing either for or against a particular piece of regulation. 
We don't believe that our report is extensive enough to support 
such a debate. One of the most frequently quoted sentences from 
our report is, ``General aviation presents only limited and 
mostly hypothetical threats to security.'' We believe this to 
be true. More importantly, it is consistent with the threat 
information we reviewed.
    We have been forthcoming about the scope of our field work 
and about the goals that we established for this inspection. We 
had no bureaucratic inclination to dismiss the concerns 
expressed by the KHOU broadcast. A cynic can always wonder 
whether the DHS inspector general report would go easy or 
whitewash a DHS program. But DHS managers will tell you 
otherwise.
    Madame Chairwoman, this concludes my prepared remarks. I 
would be happy to answer questions that you or the subcommittee 
have.
    [The statement of Mr. Mann follows:]
                 Prepared Statement of Carlton I. Mann
                             July 15, 2009
    Good afternoon, Madame Chairwoman, Ranking Member Dent, and Members 
of the subcommittee. I am Carlton Mann, Assistant Inspector General 
(AIG) for Inspections for the Office of Inspector General (OIG) at the 
Department of Homeland Security (DHS). Thank you for the opportunity to 
discuss our recent report TSA's Role in General Aviation Security.
                               background
    In early February 2007, a Houston-area television station broadcast 
a report that alleged there were deficiencies in security at regional 
airports near the city, and that those deficiencies represented a 
serious homeland security threat. The broadcast was titled ``Is Houston 
a Sitting Duck For Terrorism?''
    The report described visits by reporters to some of the area's 
general aviation airports to test airport security. Three were 
mentioned specifically: Sugar Land Regional Airport in the town of 
Sugar Land, about 25 miles southwest of Houston; David Wayne Hooks 
Airport in Spring, 30 miles northwest of the city; and Lone Star 
Executive Airport in Conroe, 45 miles to the north.
    Madame Chairwoman, you conveyed to us your concerns about the 
implications of this report and requested we examine the issue as it 
pertains to the Department of Homeland Security. After meeting with you 
and your staff, we undertook field visits to all three airports and to 
a few other general aviation facilities near other major metropolitan 
areas: Los Angeles, Chicago, and New York.
                               our review
    General aviation is commonly defined as all aircraft operations 
other than military and scheduled commercial passenger traffic. The 
vast majority of flight operations in the United States, approximately 
230,000 aircraft, are engaged in general aviation. There are 
approximately 20,000 airfields and helipads at which no scheduled 
commercial passenger operations normally occur--only general aviation. 
Even at commercial airports, there is usually some type of a general 
aviation operation.
    As is normal in our evaluation process, before we began, we defined 
our inspection objectives to align with the interest expressed in the 
situation near Houston, and the implications of general aviation 
activities occurring near major cities. We also focused, as we must, on 
DHS activities and responsibilities. This is significant because most 
aspects of aircrew, aircraft, and airfield operations are overseen by 
the Federal Aviation Administration within the Department of 
Transportation.
    Our team visited ten airports and interviewed managers and security 
staff. At each site, we also met with the nearest Transportation 
Security Administration (TSA) officials responsible for aviation 
security. We examined Government and public records, consulted with 
some industry stakeholders, and obtained information from TSA 
headquarters.
    It would not have been practical for our office to perform any kind 
of comprehensive assessment of the entire industry. Our objectives for 
this inspection were to identify TSA security requirements for general 
aviation airports, threats to general aviation, measures taken to 
secure general aviation, steps non-Federal stakeholders have taken to 
enhance the security of general aviation, and any ``incidents of 
concern'' with security at general aviation airports.
                              our findings
    We believe that the basic facts contained in the television report 
were accurate. However, we did not conclude that those facts were of 
significance from a homeland security perspective.
    For example, one of the incidents described the television crew 
driving up to a closed gate at David Wayne Hooks Airfield, ringing the 
callbox for admission, and being admitted. The report stated: ``A loud 
buzzing occurred and the gate slid open letting us past the barb wire 
and onto the tarmac. No one asked us any questions.''
    When our team visited Hooks, we were told that this is exactly what 
is supposed to happen. The purpose of the remote-controlled gate with 
the intercom is to ensure that airfield personnel will be aware of any 
vehicle coming onto that section of the field. From that point on, the 
vehicle and its passengers can be monitored or questioned as necessary 
to maintain safe operations. The system is not intended to provide an 
opportunity to interrogate the visitor, merely to establish oversight 
and control.
    The television report also described fencing at Sugar Land Regional 
Airport that does not completely encircle the perimeter of the field. 
Our inspectors examined this fence, and also the unfenced areas of the 
property, which border a prison and a swamp. Managers at Sugar Land 
told us that the purpose of the fencing is to direct normally occurring 
pedestrian and vehicle traffic off the landscaped portions of the 
property facing the main road and onto the paved passages intended for 
their access. The airport property includes large unused acreage quite 
some distance from aircraft operations. The most important aspects of 
the facility's security program, managers told us, involved maintaining 
control over the flight line area, not distant unused grass. Any fence, 
they added, could easily be scaled by an intruder. And whatever threat 
an intruder would pose on the perimeter of the property is no greater 
than the threat the same person would pose if he or she was 10 feet 
further away but on the other side of a fence.
    The third and final incident in the report involved the television 
reporter entering Lone Star Executive Airport and walking close to a 
parked aircraft. As managers at all three airfields told us, it is not 
uncommon for people on foot to approach parked aircraft at a public 
airfield. Unlike commercial aviation, where airport passengers are 
sequestered and then led down a ramp and onto the plane, at general 
aviation facilities individuals walk directly to the aircraft. An 
aircraft owner, who is frequently the pilot, usually does not wear a 
uniform and their passengers do not have tickets. Airfield personnel, 
maintenance teams, and pilots and their passengers might be near the 
flight line all day. We were told that security did not involve 
separating aircraft from people. The greater and more important 
security issues are:
  <bullet> Is the aircraft under the control of its owner?
  <bullet> Is its flight system (not necessarily its door) locked or 
        otherwise inoperable by others?
  <bullet> Is the person who is approaching the aircraft being observed 
        from a security post or control tower?
  <bullet> Is any suspicious activity occurring near the aircraft?
  <bullet> Is all aircraft movement coordinated with the control tower 
        or with base operations?
    It is possible, of course, to steal an aircraft. We do not assert 
that no one can fly a plane without the owner's permission. It is, 
however, extremely rare, and almost certain to be noticed.
    Our review also examined the several cases in which aircraft have 
for one reason or another struck buildings. We are of course forever 
mindful of the horrible events of September 11, 2001. Nevertheless, in 
most cases when an aircraft impacts a building, the damage to the 
building and its occupants has been limited.
    At each of the airfields we visited, we asked for information about 
any incidents of concern relating to general aviation facilities or 
aircraft. There were none. We also requested information from TSA about 
incidents reported to the General Aviation Hotline. TSA gave us 
detailed year-by-year lists, which showed that the number of reports 
had declined since 2004 (the first year for which we collected data) 
and that in 2007, the last full year before our fieldwork, the total 
was 66 reports, Nation-wide. Most of these were characterized simply as 
``suspicious activity,'' though a few were for property theft, 
vandalism, unlocked gates, or an anonymous tip about narcotics 
smuggling.
                        what has dhs been doing?
    As I indicated earlier, one of our objectives for this inspection 
was to identify TSA security requirements for general aviation 
airports, and to identify measures taken by TSA to secure general 
aviation. A list of those measures is contained in our report. We did 
not evaluate cost-benefit issues relating to those measures or make any 
judgments about them.
    We determined that TSA, even while it actively pursued all its 
other mandates, had also paid significant attention to general 
aviation. This was true both in the Office for Transportation Sector 
Network Management and in the Office of Intelligence.
    When one of our inspections reveals deficiencies or inefficiencies 
in a DHS program we normally address a recommendation to the component 
head to rectify the condition. In this instance, we did not identify 
problems with TSA's activities and we therefore released the results of 
our inspection without making recommendations to TSA.
                            risk and threat
    Various Government and industry studies have concluded that the 
risks associated with general aviation are relatively limited. Reports 
previously released by the General Accountability Office (GAO) and the 
Congressional Research Service (CRS) are consistent with this view. In 
a November 2004 review, GAO concluded that ``the small size, lack of 
fuel capacity, and minimal destructive power of most general aviation 
aircraft make them unattractive to terrorists, and thereby, reduce the 
possibility of threat associated with their misuse.'' GAO recommended 
that TSA develop a plan for implementing a risk management approach to 
strengthen general aviation security, and that the Federal Aviation 
Administration (FAA) establish a documented process to review and 
revalidate flight restrictions. TSA and FAA generally concurred with 
GAO's recommendations.
    In January 2008, the Congressional Research Service reported that 
typical general aviation aircraft are too light to use as a platform 
for conventional explosives. Moreover, heightened vigilance among 
airport operators and pilots would make it difficult to load the 
necessary quantity of explosives without detection. The report 
concluded that as a platform for conventional explosives, the threat 
posed by light general aviation aircraft is relatively small compared 
to the threat posed by trucks.
    In March 2008, the Aircraft Owners and Pilots Association (AOPA) 
report, General Aviation Security, noted that GAO had observed that 
although nuclear power facilities were not designed specifically to 
withstand a terrorist aviation attack, they are among the most hardened 
industrial facilities in the United States, as they were designed to 
withstand tornadoes, hurricanes, fires, floods, and earthquakes. The 
study concluded that most general aviation aircraft could not penetrate 
the concrete containment vessel of a nuclear power plant, release 
radiation through an explosion, or otherwise severely damage nuclear 
power plants.
    We reviewed details of several well-publicized incidents involving 
general aviation accidents involving municipal areas--the Tampa and New 
York City incidents we mentioned in our report, and a third incident we 
did not include involving an ultra-light aircraft in Germany. None of 
these incidents had consequences of national security significance--in 
the New York City and Tampa cases there was damage to, but no 
fatalities within, the buildings. The German case seems to have been a 
suicide.
    Many risk scenarios describe the hypothetical delivery of a 
destructive device to a population center. For such a purpose, a large 
truck is probably a superior vehicle. Aircraft in flight are highly 
visible by large audiences, and most airspace particularly airspace 
near major metropolitan areas is well monitored by civil and military 
authorities.
    An intelligence analyst at TSA explained the distinction that is 
usually made between risk and threat. Risk is sometimes defined as the 
intent and the capability of the hostile actor; threat is the 
vulnerability of the target and the consequence if the attack succeeds. 
If it is easier to steal a small private plane than a commercial 
airliner, there is a general aviation risk. If a small private plane 
cannot do much damage on impact, there is not a general aviation 
threat.
                               conclusion
    We are aware that the results of our report may be used by those 
involved in arguing for or against some particular piece of regulation. 
We do not believe that our report is extensive enough support such a 
debate. On the Internet, one of the most-frequently quoted sentences 
from our report: `` . . . general aviation presents only limited and 
mostly hypothetical threats to security.'' We believe this to be true, 
and more importantly, it is consistent with threat information we 
reviewed.
    At the same time, we acknowledge the limited scope of our work on 
this inspection. In an informal communication we received from TSA 
after sharing our draft with them, they pointed out to us that all of 
our airport visits were arranged in advance, that we made no 
independent efforts to verify security measures, and that we visited 
very few sites. This is true. Our inspection techniques were tailored 
to the objectives of our review, not to an exhaustive evaluation of the 
general aviation industry.
    Madame Chairwoman, this concludes my prepared remarks. I would be 
happy to answer any questions that you or the subcommittee Members may 
have.

    Ms. Jackson Lee. Thank you for your testimony.
    I now recognize Mr. Sammon to summarize his statement for 5 
minutes.

      STATEMENT OF JOHN SAMMON, ASSISTANT ADMINISTRATOR, 
   TRANSPORTATION SECTOR NETWORK MANAGEMENT, TRANSPORTATION 
                    SECURITY ADMINISTRATION

    Mr. Sammon. Good afternoon, Madame Chairwoman Jackson Lee, 
Ranking Member Dent, and distinguished Members of the 
subcommittee. It is my pleasure to appear here to discuss 
general aviation security. Today, I would like to discuss TSA's 
engagement with key industry stakeholders to develop 
appropriate security measures that minimize general aviation 
risk and our process going forward.
    General aviation includes all operations outside of 
scheduled commercial air carrier flights and military 
operations. More than 600,000 pilots, 200,000 aircraft and 
19,000 airports and landing facilities are included in general 
aviation. General aviation aircraft range in size from Cessnas 
to privately owned jumbo jets, such as Boeing 747s.
    The vast majority of the general aviation community is 
responsible and concerned about security. Much of the input we 
received during our industry discussion reflects best practice 
security procedures. We would like to thank the industry 
representatives who have contributed considerable time and 
effort to provide valuable input to this process.
    There has been long-standing Federal regulation of parts of 
general aviation security. For-hire passengers and crew on 
general aviation aircraft greater than 12,500 pounds have been 
vetted for many years. International passengers and crew are 
vetted prior to departure overseas. The airspace over the 
national Capitol region is permanently restricted to general 
aviation. There are temporary airspace restrictions over 
Presidential travel locations, major sporting events and 
special events, such as national political party conventions or 
G8 summits, for example.
    There is no specific threat in GA, although there have been 
past incidents involving the use of GA aircraft. Yet, as with 
other transportation modes, where there is no specific threat, 
but there is risk, such as toxic chemicals transported by rail 
in urban areas, or hazardous trucking, TSA takes prudent 
measures to minimize potential vulnerabilities and having those 
vulnerabilities exploited in high-consequence situations.
    The risk for domestic general aviation is in the potential 
consequence of a large aircraft being used as a weapon, as in 
9/11, or to introduce dangerous articles into the air side of 
commercial airports. In order to reduce GA vulnerabilities, TSA 
began a rulemaking process in 2008. The TSA rulemaking process 
is working as designed.
    TSA proposed a Notice of Proposed Rulemaking in October 
2008, held five public hearings throughout the United States, 
received thousands of public comments and extended the public 
comment period through February 2009. The day following the 
close of the public comment period, TSA invited general 
aviation stakeholders and other interested partners to 
workshops held in April, May, and June.
    Industry groups included were the Aircraft Owners and 
Pilots Association, the National Business Aviation Association, 
the General Aviation Manufacturers Association, the National 
Air Transportation Association, the Experimental Aircraft 
Association, the American Association of Airport Executives, 
the Airport Council International, the National Association of 
State Aviation Officials, the U.S. Chamber of Commerce and 
specific operators, such as the Gulf Stream Corporation, 
Limited Brands, NetJets, Flexjets, Centennial Airport, White 
Plains Airport and Flight Safety among others.
    At these workshops, which I personally led, general 
aviation security issues were discussed at length. As a result 
of this valuable input from stakeholders, TSA is developing 
appropriate protocols to restrict the ability for terrorists to 
pilot large aircraft, purchase or lease large aircraft, steal 
large GA aircraft, overtake control of large GA aircraft, or 
bring dangerous articles into the air side of a commercial 
airport on a GA aircraft.
    These protocols reflect many best-of-industry security 
practices used by corporations world-wide. We expect that the 
measures developed from the industry workshop comments will be 
incorporated into a revised NPRM, which will be available for 
public comment in coming months. We will continue our dialogue 
with the industry until the regulatory process is reopened for 
general public comment.
    Our new general manager for aviation, Brian Delauter, 
brings extensive general aviation and commercial aviation 
experience with him to craft this next edition of the NPRM.
    In summary, we recognize there is general aviation risk. 
Through close stakeholder collaboration, we are developing a 
series of sensible security measures to minimize risk. We 
expect to release those measures for public comment in the 
upcoming months. Thank you, and I will be happy to answer any 
questions.
    [The statement of Mr. Sammon follows:]
                   Prepared Statement of John Sammon
                             July 15, 2009
    Good afternoon Chairwoman Jackson Lee, Ranking Member Dent, and 
distinguished Members of the subcommittee. It is my pleasure to appear 
today to discuss the security of general aviation (GA), a vital part of 
our Nation's aviation system, an important economic engine, and an 
essential link to larger communities for many small communities. As 
always, we appreciate the subcommittee's support as we continue to 
explore optimal security measures for this industry.
    The Transportation Security Administration (TSA) and the Department 
of Homeland Security (DHS) are committed to ensuring that GA is 
appropriately protected from exploitation by terrorists and other 
security risks while ensuring the free flow of commerce. Following 
specific directions from Congress, we already have instituted a few 
targeted security measures tailored to the risk posed by certain GA 
operations. Our approach to the task of addressing GA security mirrors 
our approach to our overall mission of securing the Nation's 
transportation systems--we begin by assessing the risks and then we 
work closely with our stakeholders to fashion programs to address those 
risks.
    General aviation encompasses diverse aircraft, airports, 
facilities, operators, and operations. GA operators and their aircraft 
include recreational pilots, corporations that operate business jets 
for executive and employee use, and companies that lease small and 
large aircraft to individuals and corporations or manage aircraft on 
their behalf. Nation-wide, there are more than 19,000 GA facilities 
(including helipads) at some of our largest commercial airports, at 
small exclusively GA airports in remote areas, and at airports of all 
sizes in between. Aircraft that are used in GA include, among others, 
small aircraft with minimal payload capacity, business jets, and jets 
often used by commercial airlines, such as the Boeing 747.
    Added to this structural diversity is a diversity of risk facing 
the industry. The level of risk does not necessarily correlate to the 
size or sophistication of a given aircraft or airport. As a result, 
general aviation presents unique challenges that preclude a ``one size 
fits all'' security program. Prevailing circumstances and risks--
vulnerabilities, threats, and potential consequences--all factor into 
the formulation of our security approach. Accordingly, each of the 
elements of TSA's security agenda--whether initiated by TSA or 
specifically directed by Congress--has been or is being developed to 
address a specific risk associated with the GA system--its aircraft, 
airports, facilities, operators, and its operations.
       dhs's current general aviation security rules and programs
    Currently, there is a range of security measures protecting GA 
operations. Some take the form of guidance that airports or airport 
operators may voluntarily implement, while other requirements are 
implemented pursuant to mandatory regulations and security directives. 
All are intended to meet the dual goals of protecting GA from terrorism 
and other security risks without unduly impacting the free flow of 
commerce. The following represent some of the major security 
initiatives.
    Restricted Air Space Over the Nation's Capital.--Soon after the 9/
11 attacks, the Federal Aviation Administration (FAA) issued a rule 
defining the restricted airspace over the Washington, DC Metropolitan 
Area and established rules for all pilots operating aircraft to or from 
any of the three Maryland GA airports located closest to the National 
Capital Region (College Park Airport, Potomac Airfield and Hyde 
Executive Field, known as the ``Maryland Three Airports''). This rule 
established regulatory requirements for operating aircraft within the 
defined areas, known as the Special Flight Rules Area and the Flight 
Restricted Zone.
    Temporary Flight Restrictions (TFR).--TFRs are employed to mitigate 
the threat of an airborne attack against key assets and critical 
infrastructure on the ground; they affect the general aviation 
community by prohibiting flight in areas of concern, for example, near 
sporting arenas for major events such as the Super Bowl. TSA evaluates 
requests for security-related TFRs based on several criteria, including 
specific and credible threat and intelligence information, the number 
of people in attendance at a particular venue, and the number of 
allocated defense assets. Additionally, the FAA-issued Notices to 
Airmen prohibiting many general aviation aircraft from operating within 
a specified distance above ground level of any stadium with a seating 
capacity of 30,000 or more people where major sporting events are being 
held, or of the Disney theme parks in California and Florida, have been 
made permanent by Congress, pursuant to the Consolidated Appropriations 
Act, 2004, Pub. L. 108-199.
    Additionally, the United States Secret Service in coordination with 
FAA, TSA, and the Department of Defense establish restricted airspace 
for specified Presidential and Vice Presidential movements, the United 
Nations General Assembly, as well as National Special Security Events 
such as the G-20 Summit and Democratic and Republican National 
Conventions.
    DCA Access Standard Security Program (DASSP).--Recognizing the need 
to normalize GA commerce while continuing to protect the National 
Capital Region, Congress directed DHS to develop a security plan to 
permit general aviation aircraft to resume operations into and out of 
Ronald Reagan Washington National Airport (DCA), where GA operations 
had been prohibited after 9/11. In coordination with other DHS 
agencies, the Department of Transportation, and the Department of 
Defense, TSA issued a rule, effective August 18, 2005, requiring TSA 
inspection of crews, passengers, property, and aircraft; TSA 
identification checks of passengers; submission of passenger and crew 
information 24 hours in advance of the flight; Security Threat 
Assessments (STAs) for all passengers; fingerprint-based criminal 
history records checks (CHRCs) for flight crew; and armed security 
officers on board each flight. On average, 20 flights per month into 
and out of DCA utilize this program.
    Twelve-Five Standard Security Program (TFSSP).--TSA currently 
requires aircraft operators that are air carriers or commercial 
operators with a maximum certificated take-off weight (MTOW) of more 
than 12,500 pounds (5,670 kg) to implement the TFSSP, which establishes 
mandatory vetting procedures of crew and passengers against the FBI 
Terrorist Screening Center's No-Fly and Selectee Lists.
    Private Charter Standard Security Program (PCSSP).--The PCSSP is 
similar to the TFSSP, but for aircraft operators using aircraft with a 
MTOW of greater than 100,309.3 pounds (45,500 kg) or with a seating 
configuration of 61 or more, adds a requirement to physically screen 
passengers and their accessible property.
    Maryland Three Airports.--The Maryland Three Airports program was 
originally instituted by the FAA in order to reopen these airports, 
which, like DCA, had been closed to operations after the 9/11 attacks. 
The program was transferred to TSA in February 2005. In addition to 
defining the restricted airspace and establishing rules for all pilots 
using the Maryland Three airports (discussed above), the rule provides 
that in order to be approved to fly into or serve as a security 
coordinator for any of these airports an individual is required to 
submit certain information and successfully complete a STA.
    General Aviation Airport Vulnerability Assessment Tool.--Section 
44901(k) of title 49, as amended by the Implementing Recommendations of 
the 9/11 Commission Act of 2007, Pub. L. 110-53, requires TSA to 
develop and implement a standardized threat and vulnerability 
assessment program for GA airports, to evaluate the feasibility of a 
program to provide grants to GA airport operators to upgrade security, 
and to establish such a program, if feasible. The assessment tool 
contemplated by this provision is currently under review by the Office 
of Management and Budget. When released, this program will assist our 
stakeholders in performing self-assessments to determine their security 
needs. Their planners will be able to identify security needs and seek 
funding from appropriate sources.
    Automatic Detection and Processing Terminal (ADAPT).--The ADAPT 
system was developed by FAA to allow real-time vetting of air traffic 
operating in the National Airspace System (NAS) and neighboring 
airspace, in order to distinguish between legitimate flights and those 
that might pose a security risk to the United States. TSA identified 
the need to prevent the misuse of aircraft as weapons against critical 
infrastructure and to provide senior leadership with a common real-time 
picture of aviation activities in the NAS. TSA requires a single 
integrated solution that can incorporate all segments of aviation, with 
a primary focus on GA, and potential expansion to other modes of 
transportation.
    ADAPT is particularly important to the GA community. By providing 
advance warning of potential threats within the NAS and allowing the 
monitoring of GA security anomalies before they arrive in the United 
States, ADAPT assists in mitigating two critical risks specific to GA: 
The use of GA aircraft as a kinetic weapon and the use of GA aircraft 
as a conveyance to transport dangerous materials (including chemical, 
biological, radiological, and nuclear weapons) or malevolent people.
    Electronic Advance Passenger Information System (eAPIS).--U.S. 
Customs and Border Protection (CBP) issued a final rule, effective May 
2009, that requires more detailed information about GA aircraft 
arriving and departing the United States and persons on-board. As part 
of a comprehensive effort to strengthen GA security, the rule expands 
existing regulations governing these aircraft. Pilots must submit the 
following information 1 hour prior to departure for flights arriving 
into or departing from the United States: Departure information; 
arrival information; information identifying the aircraft; and complete 
passenger and crew manifest data, identifying who is aboard the 
aircraft.
    DHS Domestic Nuclear Detection Office (DNDO) and TSA.--DNDO has led 
an effort to identify key vulnerabilities and threats associated with 
weapons of mass destruction, specifically with regard to radioactive 
and nuclear items. DNDO, together with CBP and TSA, is working to 
facilitate international general aviation operations, while enhancing 
security for these operations and for the Nation as a whole.
    In April 2007, then-Secretary Chertoff directed CBP and DNDO to 
implement full radiological and nuclear scanning of all arriving 
international general aviation aircraft. DHS achieved this goal at the 
end of 2007. Today, all international general aviation aircraft are 
scanned upon arrival in the United States by CBP officers using 
handheld Radiation Isotope Identification Devices (RIIDs). Earlier last 
year, DNDO and CBP also conducted a testing program at Andrews Air 
Force Base to identify improved operating procedures using these 
handheld detectors and to determine requirements for improved next-
generation technologies. These measures are part of a much larger 
initiative to create a Global Nuclear Detection Architecture to protect 
our country from radiological and nuclear threats whether they come by 
land, air, or sea.
    public, consultative process is the key to effective regulation
    A critical aspect of TSA's regulatory approach is the process-
oriented nature of devising mandatory security measures. DHS believes 
it is important to consult with stakeholders to better inform the 
Department about the feasibility, benefits, and costs of these security 
options.
    The Large Aircraft Security Program Proposed Rulemaking.--As risk 
associated with air carriers and commercial operators has been reduced 
or mitigated, terrorists may view general aviation aircraft as more 
vulnerable and thus attractive targets. If hijacked and used as a 
missile, many of these aircraft would be capable of inflicting 
significant damage. In June 2006 TSA initiated a rulemaking process to 
address the risk associated with large GA aircraft. The Large Aircraft 
Security Program (LASP) demonstrates our on-going commitment to 
government/stakeholder consultation. After engaging in outreach to the 
GA community, on October 30, 2008, TSA published a Notice of Proposed 
Rulemaking (NPRM) seeking comments on the proposed LASP. This NPRM 
marked the beginning of the process established by the Administrative 
Procedure Act for engaging the stakeholder community and the public at 
large in formulating new regulatory requirements.
    TSA extended the formal comment period for the NPRM by 60 days from 
December 29, 2008, to February 27, 2009, to further facilitate industry 
input and encourage additional comments. During that time, TSA also 
conducted five public meetings throughout the country to solicit input 
from the GA community and other members of the public.
    In the process of evaluating over 7,000 written comments received, 
TSA also actively engaged industry stakeholders and entities indirectly 
affected by the NPRM in comment sessions to discuss key issues of 
concerns raised during the formal comment period and public meetings. 
These comment sessions have featured positive discussions focused on 
developing a security solution tailored to GA and have provided TSA 
with additional insight on potential alternative solutions that may be 
more feasible for industry to implement, while still maintaining an 
effective level of security.
    TSA appreciates the participation of the many stakeholders who have 
contributed to this process, including the Aircraft Owners and Pilots 
Association (AOPA), the National Business Aviation Association (NBAA), 
the National Air Transportation Association (NATA), the General 
Aviation Manufacturers Association (GAMA), the Experimental Aircraft 
Association (EAA), the American Association of Airport Executives 
(AAAE), the National Association of State Aviation Officials (NASAO), 
the Airports Council International (ACI), and other valued 
stakeholders. TSA and DHS are now determining the path forward, based 
upon the feedback received from industry and the public. There will be 
additional opportunities for stakeholders and interested members of the 
public to review and comment on any modified proposal.
    Security Directives (SD) 1542-04-08F and -08G.--The productive 
interplay between TSA and the stakeholder community also is exemplified 
in the issuance and amendment of security directives (SD). Congress 
provided TSA authority to implement security measures without prior 
notice or opportunity for comment when deemed necessary to protect the 
transportation system. SDs are issued in response to emergent 
situations and may be amended to adjust requirements to evolving 
circumstances. The authority to issue SDs is not new--it had been 
exercised routinely by FAA for decades prior to the creation of TSA.
    Whenever possible, TSA engages in a collaborative process with 
stakeholders when formulating these directives. The recent issuance of 
SDs relating to Security Threat Assessments and credentialing of 
individuals with unescorted access to secure areas of airports is 
illustrative. In the course of preparing the SDs, TSA consulted with 
key stakeholders, made changes in response to their feedback, and 
conducted several conference calls afterward to ensure they understood 
the contents of the revised directives. TSA also extended the deadlines 
to give airports significant time to comply.
    The SDs, issued in December 2008 and June 2009, apply to 
Federalized commercial airports with full TSA security programs in 
accordance with 49 CFR Part 1542. The SDs improve identification/work 
authorization verification procedures and expand biographic information 
collected for processing STAs to improve turn-around time and redress 
procedures. The SDs also establish minimum audit procedures for 
identification media and require identification media for unescorted 
access to areas of the airport for which identification was not 
previously required. Although the SDs do not apply directly to GA 
operations, they do affect GA pilots who use these regulated airports.
    It is important to note that the need for these SDs followed 
several special emphasis inspections of airports across the country 
during which TSA found an unacceptable level of compliance with 
existing credentialing programs. Even with effective stakeholder 
outreach in the preparation of SD 1542-04-08-0F, some in the GA 
community later raised concerns about potential impacts on GA pilots. 
TSA responded to those concerns, on May 28, 2009, by issuing a 
revision, SD 1542-04-08G, that clarifies certain issues in SD-08F. The 
most significant for the GA community is a clarification that transient 
pilots need not obtain an ID at each airport they visit, only at their 
home airports.
  the inspector general's report validates our approach to ga security
    We are pleased that the DHS Inspector General's (IG) May 2009 
assessment of TSA's role in GA security concluded that TSA's risk 
reduction regime has been appropriate. We do not disagree with the 
report's assessment of the level of threat to GA airports; we would 
emphasize that risk is composed of more than specific threats and it is 
our obligation to address the other risk components: vulnerability and 
consequence. We must address the risk associated with larger GA 
aircraft. We are gratified that the IG recognizes the effectiveness of 
our measured, collaborative approach toward further regulation of this 
industry. The IG's report reflected TSA's current efforts to promulgate 
new GA security regulations through the Large Aircraft Security Program 
rulemaking process.
            meeting the challenges of securing the ga system
    While we have made progress in meeting the challenges of securing 
the GA system, we continue to consult with stakeholders to improve our 
efforts. Our goal remains clear: Protecting GA from terrorist and other 
security risks while advancing the free flow of commerce. The GA 
security programs currently in place have diligently endeavored to meet 
those dual objectives. Our success is dependent in large part upon the 
collaborative relationships we maintain with stakeholders, which will 
continue as we consider new regulations.
    Thank you, again, for the opportunity to address the security of 
this important sector of our aviation system. I will be happy to answer 
any questions you may have.

    Ms. Jackson Lee. Let me thank you very much for your 
testimony.
    Dr. Gallaway, you are now recognized for 5 minutes.

  STATEMENT OF CHARLES R. GALLAWAY, ACTING DIRECTOR, DOMESTIC 
   NUCLEAR DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Gallaway. Good afternoon Chairwoman Jackson Lee, 
Ranking Member Dent and distinguished Members of the 
subcommittee. As acting director of the Domestic Nuclear 
Detection Office at the Department of Homeland Security, I 
would like to thank you for the opportunity to discuss the work 
we are doing with regards to general aviation. I would also 
like to thank the committee for its support of DNDO's mission 
to reduce the risk of radiological and nuclear terrorism to the 
Nation.
    DNDO was established to improve the Nation's capability to 
detect and report attempts to import, possess, store, develop, 
or transport nuclear or radiological material for use against 
the Nation and to further enhance this capability over time. To 
that end, our work is guided by the development of a global 
nuclear detection architecture or GNDA.
    DNDO has developed a time-phased, multi-layered, defense-
in-depth GNDA that is predicated on the understanding that no 
single layer of defense can detect all rad/nuc threats. For 
this reason, the GNDA provides multiple detection and 
interdiction opportunities overseas, at our borders, and within 
the United States to effectively increase the overall 
probability of system success.
    My testimony today is focused on DNDO's efforts to address 
one aspect of the GNDA--international general aviation. While 
no current known terrorist threat exists that pinpoints general 
aviation as a vehicle for a specific plot, DNDO's initial 
architecture study highlighted several exploitable gaps that 
exist in the current rad/nuc detection architecture, including 
the use of GA aircraft to move or deliver rad/nuc weapons.
    GA may be an attractive alternative for an adversary to 
exploit, because it offers speed, physical control of the 
weapon, and the relative lack of inspection, detection, and 
regulation.
    For in-bound international general aviation, DNDO is 
working closely with CBP to facilitate detection and 
interdiction of illicit rad/nuc weapons or materials entering 
the United States through international general aviation. By 
the end of 2007, CBP was using handheld radiation detectors to 
scan all international general aviation aircraft upon arrival 
in the United States. Once these detection processes were 
established, we worked with CBP to characterize the current 
radiological scanning capability and identify methods to 
improve effectiveness by enhancing equipment and operational 
techniques at Andrews Air Force Base.
    Beyond scanning of international general aviation arrivals 
in the United States, we are working with our partners to 
address some of the unique challenges of detection and 
interdiction of international general aviation. Unlike the 
other pathways, once an aircraft is in transit, opportunities 
for determining the contents of the aircraft or the intent of 
the operators are extremely limited. Challenges include the 
general aviation direct-to-target scenario, which describes the 
ability of an aircraft to deliver a weapon directly from 
overseas, non-stop to a target within the United States.
    Further analysis of the GA pathway led to consideration of 
a concept for gateway airports to provide rad/nuc scanning of 
all in-bound international GA aircraft. International gateway 
airports are airports outside the United States where GA 
aircraft would be scanned for the presence of rad/nuc material 
before they enter the United States.
    We are exploring the option that rad/nuc scanning could be 
done concurrently with other required U.S. entry screening and 
inspection activities at these gateway airports. This option 
would allow international general aviation aircraft to proceed 
to any destination within United States, rather than having to 
stop at a CBP air port of entry and might allow for increased 
efficiency and reduced costs to GA operators.
    To minimize flight deviations for international GA traffic 
originating from Canada and Mexico, our proposed concept would 
pair the international gateway airports with a complementary 
network of domestic gateway airports. Domestic gateway airports 
would be current CBP air ports of entry within the United 
States, near southern and northern borders, but located away 
from densely populated urban centers.
    I would like to point out that this gateway airport concept 
is still under development. Our gateway airport concept would 
require international and domestic participation and address 
mainly those aircraft that are compliant with the system.
    To effectively secure the GA pathways, there must also be a 
capability to detect and interdict any noncompliant aircraft. 
With our Federal partners, we are exploring ways to increase 
air domain awareness and use available information to quickly 
and accurately determine if an aircraft present a threat.
    In conclusion, this on-going analysis of general aviation 
is part of DNDO's work to enhance the global nuclear detection 
architecture and to evaluate programs to effectively fill gaps 
in our national capability. We will continue to work with our 
Government and aviation community partners to improve the 
Nation's ability to detect radiological and nuclear threats. 
DHS will balance maintaining the flexibility and mobility of 
general aviation and the needs to sufficiently protect the 
Nation from nuclear terrorism.
    Thank you for your attention. I would be happy to answer 
any questions.
    [The statement of Mr. Gallaway follows:]
               Prepared Statement of Charles R. Gallaway
                             July 15, 2009
                              introduction
    Good afternoon Chairwoman Jackson Lee, Ranking Member Dent, and 
distinguished Members of the subcommittee. As Acting Director of the 
Domestic Nuclear Detection Office (DNDO) at the Department of Homeland 
Security (DHS), I would like to thank you for the opportunity to 
discuss the work we are doing with regard to general aviation (GA). I 
would also like to thank the committee for its support of DNDO's 
mission to reduce the risk of radiological and nuclear terrorism to the 
Nation.
    DNDO was established to improve the Nation's capability to detect 
and report attempts to import, possess, store, develop, or transport 
nuclear or radiological material for use against the Nation, and to 
further enhance this capability over time. To that end, our work is 
guided by our development of a global nuclear detection architecture 
(GNDA). DNDO has developed a time-phased, multi-layered, defense-in-
depth GNDA that is predicated on the understanding that no single layer 
of defense can detect all radiological and nuclear (rad/nuc) threats. 
For this reason, the GNDA provides multiple detection and interdiction 
opportunities overseas, at our borders, and within the United States to 
effectively increase the overall probability of system success. DNDO 
has worked with intra- and inter-agency partners to develop time-phased 
strategies and plans for improving the probability of detecting and 
interdicting nuclear threats. DNDO will continue to enhance the GNDA 
over time by developing better detection technologies, working with our 
operational partners to improve concepts of operations (CONOPs), 
enabling real-time reporting of detection events, and supporting 
effective response to real threats.
    My testimony today will focus on DNDO's efforts to address one 
aspect of the GNDA--international GA. Specifically, I will speak about 
our on-going work to secure the international GA threat pathway.
                    general aviation pathway studies
    The United States border is the first layer within the GNDA where 
the United States has full control over detection and interdiction. For 
this reason, considerable effort and resources have been placed at this 
layer to provide robust radiological and nuclear detection 
capabilities, particularly at ports of entry (POEs). While no current, 
known terrorist threat exists that pinpoints general aviation as a 
vehicle for a specific plot, DNDO's initial architecture study 
highlighted several exploitable gaps that existed in the current rad/
nuc detection architecture, including the use of GA aircraft to move or 
deliver rad/nuc weapons. Further, the study concluded that GA was an 
attractive option for adversary exploitation because it offered a 
number of operational advantages--including speed, control of the 
weapon, and the relative lack of inspection, detection, and 
regulation--when compared to scheduled passenger and cargo operations.
    Initiatives for GA security include several interrelated activities 
that are considerably broader in scope than radiation detection. DNDO 
has approached the solution to the GA threat through a four-phase 
series of architecture studies:
    In Phase I DNDO developed an end-to-end architecture and identified 
gaps by various pathways, including the use of GA as a pathway for the 
movement and delivery of weapons. The Air Pathways Phase II study 
explored measures to mitigate the vulnerabilities presented by GA and 
concluded that the most difficult scenario to counter was the use of GA 
aircraft delivering a weapon from outside the borders of the United 
States directly to a target. The study identified that once a weapon-
carrying aircraft is airborne, detection and interdiction of rad/nuc 
threats are unlikely. A primary Phase II recommendation was to consider 
a concept that would provide for screening of all international GA 
aircraft for nuclear weapons prior to takeoff for a flight into the 
United States. The Phase III study followed with specific 
recommendations: (1) Pre-departure screening of most GA aircraft 
entering the United States, and (2) requiring all near-border GA 
traffic to land only at a small number of specific GA airfields in the 
United States for screening. The Phase III study established an 
architecture, a CONOPS and rough order of magnitude (ROM) cost 
estimates for establishing and operating a system of foreign and 
domestic airfields that could perform rad/nuc screening for in-bound 
international GA traffic. Phase III recommendations were subsequently 
followed up with variants that included screening at U.S. airfields and 
screening at U.S.-Canadian airfields. Phase IV seeks to expand the GA 
work and address additional elements within civil aviation.
                     international general aviation
    DNDO is working closely with U.S. Customs and Border Protection 
(CBP) to facilitate detection and interdiction of illicit rad/nuc 
weapons or materials entering the United States via the international 
GA pathway. For rad/nuc detection with regard to international GA 
arrivals, CBP uses handheld Radiation Isotope Identification Devices 
(RIIDs). By the end of 2007, CBP was scanning all international GA 
aircraft upon arrival in the United States. Once these detection 
processes were established, we worked with CBP to characterize the 
current radiological scanning capability and identify methods to 
improve effectiveness by enhancing equipment and operational 
techniques. In Spring 2008, DNDO, in partnership with CBP, began 
testing detection equipment in the GA environment and in controlled 
laboratory tests using next generation human portable devices. Focusing 
on international GA applications, the testing was conducted at Andrews 
Air Force Base (AFB) in March-June 2008. Five test sessions were 
conducted at Andrews AFB to baseline the performance of currently-
deployed systems for scanning of small, medium, and large international 
GA aircraft, to determine if any CBP operational procedure changes are 
necessary and to evaluate performance of other human-portable scanning 
equipment. Test results validated the effectiveness of the current 
technologies for use during a majority of State-side scanning 
operations. These test results will be used to guide subsequent 
research and development efforts, including improvements to 
identification capabilities of current technologies through the use of 
alternate systems that are being assessed through our Human Portable 
Radiation Detection Systems (HPRDS) program. The evaluation of 
operational systems also resulted in recommendations to enhance 
scanning Standard Operating Procedures for this type of rad/nuc 
detection.
    Scanning of international GA arrivals in the United States is one 
step towards mitigating the rad/nuc threat, but the international GA 
pathway presents other unique challenges that we are working with our 
partners to address. Unlike other pathways, once an aircraft is in 
transit, opportunities for determining the contents of the aircraft or 
the intention of the operators are extremely limited. Challenges 
include the GA ``direct-to-target'' scenario, which describes the 
ability of a GA aircraft to deliver a weapon directly from overseas, 
non-stop to a target in the United States. GA aircraft originating from 
overseas and flying to a target would enable an adversary to bypass the 
multiple detection and interdiction opportunities that are part of a 
defense-in-depth architecture. To effectively secure the GA pathways 
there must be a capability to detect any non-compliant aircraft 
(aircraft that do not submit a flight plan or otherwise attempt to 
enter the country illegally and aircraft that divert from their legal 
flight plans) and options to mitigate the threat.
                            gateway airports
    Additionally, the Gateway Airports concept was developed as a way 
to defend against the international GA threat. Gateway Airports are 
airports at which GA aircraft are screened for the presence of rad/nuc 
material: (a) Before they enter the United States, or (b) before they 
approach major population centers or high-value targets. International 
Gateways are airports outside the contiguous United States. Some 
international GA aircraft flights may originate from International 
Gateways and others may choose to pass through them for rad/nuc 
screening en route to the United States. In either case, rad/nuc 
screening is accomplished as the last act prior to takeoff for the 
flight into the United States. We recommend exploring the option that 
all other U.S. entry screening and inspection activity (e.g., Customs, 
Agriculture, and Health) be conducted concurrently with rad/nuc 
screening at the Pre-Clearance Gateway. This option would allow 
international GA aircraft to proceed onward to any destination in the 
United States, rather than having to stop at a CBP Aerial Port of Entry 
(APOE) and might allow for increased efficiency and reduced costs to GA 
operators. In fact, the Gateway Airport system might be presented as a 
convenience for GA operators--as part of a ``one-stop'' service that 
would consolidate disparate activities and provide for more efficient 
flight operations.
    The United States already operates border preclearance facilities 
at a number of ports and airports in foreign countries. They are 
staffed and operated by CBP officers. Travelers pass through 
Immigration and Customs, Public Health, and Department of Agriculture 
inspections before boarding their aircraft, ship, or train. This 
process is intended to streamline border procedures, to reduce 
congestion at ports of entry, and to facilitate travel between the 
preclearance location and some U.S. airports that may not be equipped 
to handle international travelers. Preclearance exists at most major 
Canadian airports, providing convenience to travelers from those cities 
to the Unites States. Arrangements also exist with some airports in 
Bermuda, Aruba, and at two airports in Ireland. The proposed Gateway 
Airport plans could leverage some of these existing foreign pre-
clearance sites and would require some additional locations for rad/nuc 
detection. Based upon the priorities identified in the GNDA, DHS, and 
the Department of State are working to increase international awareness 
and participation in our general aviation pre-clearance programs.
    In order to properly serve international GA traffic with minimal 
flight deviations, our proposed plan would pair the international 
Gateways with a complementary network of Domestic Gateway airports, to 
serve short flights originating from Canada and Mexico. Domestic 
Gateways would be current CBP APOEs spaced around the U.S. southern and 
northern borders. These would be inside the United States but at least 
100 miles away from major urban areas designated by the 2006 Urban Area 
Security Initiative (UASI). The 100-mile standoff range is arbitrary, 
but it provides increased reaction time for identification and 
interception of non-complying aircraft when compared to the 30-mile 
distance commonly used for the largest temporary flight restricted 
(TFR) areas.
    I would like to note that while the Gateway Airport concept is a 
proposal for rad/nuc detection for international GA, it is only a piece 
of the viable solution. The Gateway Airports plan as proposed would 
require international and domestic participation and addresses mainly 
those aircraft that are compliant with the system. We are still faced 
with the challenge of identifying and dealing with noncompliant 
aircraft. With our partners, we are exploring options to increase air 
domain awareness and use available information to quickly and 
accurately determine if aircraft present a threat. This on-going 
analysis of GA is part of DNDO's work to enhance the GNDA and ascertain 
appropriate programs to effectively fill gaps.
                              path forward
    In the near term, we will work with partners and stakeholders to 
support programs to produce widespread awareness of rad/nuc scenarios 
at airports of all sizes across the United States. Detection 
capabilities will become more available at air POEs with improved 
detection capability over current assets. Initial deployments of rad/
nuc detection technology for GA outside the United States will begin 
the process of scanning international GA traffic and introduce the 
concept of gateway airports, beyond what already is in place.
    The long-term structure of the GA architecture will expand to 
include a network of gateway airports, including overseas pre-clearance 
airports. GA traffic will be tracked more closely, providing increased 
air domain awareness and an enhanced ability to interdict rad/nuc 
materials or devices. The end result will be integrated security 
programs that provide a high degree of protection against GA transport 
of radiological/nuclear materials, including direct-to-target 
scenarios.
                               conclusion
    DNDO will continue to work with TSA, CBP, and other partners and 
stakeholders within and beyond DHS to improve the Nation's ability to 
detect radiological and nuclear threats at our ports and borders. DHS 
intends to balance facilitating the flexibility and mobility of general 
aviation and the need to sufficiently scan in-bound flights for 
radiological or nuclear threats.
    I welcome and appreciate the committee's active engagement with 
this program, and look forward to continuing our cooperation as we move 
forward together. Chairwoman Jackson-Lee, Ranking Member Dent, and 
Members of the subcommittee, I thank you for your attention and will be 
happy to answer any questions that you may have.

    Ms. Jackson Lee. Again, let me thank all the witnesses for 
their testimony. I would remind each Member that he or she will 
be recognized for 5 minutes to question the panel. I will now 
recognize myself for 5 minutes.
    Let me thank you, Mr. Sammon. As I proceed with my 
questions, let me, first of all, ask unanimous consent to 
introduce into the record letter dated June 18, 2009 addressed 
to John from the Chamber of Commerce, United States of America, 
that in part thanks you once again. Your keen understanding of 
the vital role that the private sector plays in securing our 
homeland is evident to all. Much is appreciated by the Chamber 
and its members.
    But it really recounts your meeting with them and 
reflecting on the insight necessary. I would ask unanimous 
consent to submit that in the record. Hearing no objection, so 
ordered.
    [The information follows:]
  Letter From the Chamber of Commerce of the United States of America 
               Submitted by Chairwoman Sheila Jackson Lee
                                     Washington, DC, June 18, 2009.
Mr. John Sammon,
Assistant Administrator, Transport Security Administration, U.S. 
        Department of Homeland Security, 601 S. 12th Street, Arlington, 
        VA 20598.
    Dear John: Thank you for meeting with Ann Beauchesne, Kevin 
Schmiegel, and me last month. The Chamber is looking forward to working 
with you and your team on a wide array of homeland security issues over 
the coming months.
    I appreciate you updating us on the issues surrounding the Large 
Aircraft Security Program (LASP). As you know, the LASP is an important 
issue for the Chamber, and your comments have assured me that the 
Chamber's voice, and the voice of its members, is being heard. Ann told 
me that your stakeholders' meeting this week was very productive, and 
that all of the points that we agreed during our meeting were well-
received. We look forward to seeing the details of the next Notice of 
Proposed Rulemaking and are hopeful that things continue to move in the 
right direction.
    Thank you once again for your time. Your keen understanding of the 
vital role that the private sector plays in securing our homeland is 
evident to all--and much appreciated by the U.S. Chamber and its 
members. I look forward to working together and please call if I can be 
of help.
    Best wishes!
            Sincerely,
                                                       Tom.

    Ms. Jackson Lee. I also introduce into the record a letter 
that comes from an organization of general aviation 
representatives dated April 15, 2009. Each of them have signed 
it to indicate their appreciation for your coordinating an 
April 6 meeting.
    [The information follows:]
           Letter Submitted by Chairwoman Sheila Jackson Lee
                                                    April 15, 2009.
Mr. John Sammon,
Assistant Administrator, Transportation Sector Network Management, 
        Transportation Security Administration, East Building, 601 
        South 12th Street, Arlington, VA 22202-4220.
    Dear Mr. Sammon: We would like to thank you for coordinating the 
April 6 meeting with representatives from the general aviation industry 
to discuss the proposed rulemaking on the Large Aircraft Security 
Program. This collaborative effort between the Transportation Security 
Administration (TSA) and the general aviation industry clearly 
demonstrates how common ground can be achieved when addressing 
America's aviation security needs.
    As we prepare for our next meeting on May 6, 2009, we ask that TSA 
provide us with its summary of the April 6 meeting discussion within 
the next week. Providing this summary in a timely manner will allow 
representatives from the general aviation industry to better prepare 
for the May 6 meeting so that we may continue this productive effort.
    Continued dialogue on this important issue is critical to a 
successful resolution. We also encourage you to utilize this 
collaborative process on other critical security issues affecting the 
general aviation industry.
    Thank you again for your commitment and support to address the 
general aviation industry's concern on this important rulemaking.
            Sincerely,
                                              Craig Spence,
      Vice President, Regulatory Affairs, Aircraft Owners & Pilots 
                                                       Association.
                                       Christopher Bidwell,
       Vice President--Security and Facilitation, Airports Council 
                                      International--North America.
                                             Carter Morris,
Senior Vice President, Trans. Security Policy, American Association 
                                             of Airport Executives.
                                              Doug Macnair,
       Vice President, Government Relations, Experimental Aircraft 
                                                       Association.
                                               Jens Hennig,
      Vice President of Operations, General Aviation Manufacturers 
                                                       Association.
                                              Eric R. Byer,
       Vice President, Government & Industry Affairs, National Air 
                                        Transportation Association.
                                      Henry M. Ogrodzinski,
         President and CEO, National Association of State Aviation 
                                                         Officials.
                                                 Doug Carr,
            Vice President, National Business Aviation Association.

    Ms. Jackson Lee. I assume now we can go forward unshackled 
by any thought that the Congress and/or the administration has 
any interest in undermining the 1.3 million jobs and not 
recognizing the vital economic role and the important role that 
general aviation plays.
    My first logistical question to you is when do you foresee 
moving forward on the next step of rulemaking, having proceeded 
in the initial rulemaking? I consider this fine reading that 
you gave me, the old rules. What will we expect with the new 
rules? When will that proceed?
    Mr. Sammon. We have a very firm outline of where we want to 
proceed from the workshops. We expect to begin writing that 
next week. We expect to sit down with folks in TSA and begin 
putting that to pen. The subject matter and the content, I 
think, we are fairly clear on. We expect to start----
    Ms. Jackson Lee. So you begin next week.
    Mr. Sammon. Yes, ma'am.
    Ms. Jackson Lee. You are also aware of the inspector 
general's report that was dated May 2009.
    Mr. Sammon. Yes, ma'am.
    Ms. Jackson Lee. You are also aware of the language that 
indicates, in a cavalier manner, that general aviation has 
nothing to worry about, and it is insignificant. Do you agree 
with that?
    Mr. Sammon. Not----
    Ms. Jackson Lee. In terms of its vulnerabilities.
    Mr. Sammon. I believe the report indicated there was no 
threat. We don't believe there is a specific threat. But we 
believe there are vulnerabilities, as was mentioned in the 
film, and you have mentioned, particularly larger aircraft have 
no keys. They need to be secured, among other things.
    Ms. Jackson Lee. Well, let me just suggest for our memory 
there was no perceived threat with commercial airlines driving 
into the World Towers on 9/11.
    Mr. Sammon. Correct.
    Ms. Jackson Lee. So, can I ask you the question again? Is 
perceived threat the basis upon which we make a report that, in 
essence, deadens our ears, deadens our sensitivities to being 
more secure or being more responsible about security in general 
aviation?
    Mr. Sammon. We agree that threat is one part of risk. We 
think there is a risk for general aviation. The vulnerabilities 
must be addressed.
    Ms. Jackson Lee. I thank you very much.
    Mr. Mann, there is no doubt that we respect the public 
service that the IG's office has given.
    Mr. Mann. Thank you.
    Ms. Jackson Lee. But for the life of me, I am not sure why 
there couldn't have been a broader understanding of the 
question as relates to Houston, which is only an example. I am 
hoping that we could have looked at that as an example of the 
question of general aviation security.
    The statement that Houston is not a sitting duck--and might 
I just say, again, this is generic for any city that has 
general aviation--because I guess you focused only on the 
framework of the question. Because as Dr. Gallaway has 
indicated, the potential of some aircraft coming in with 
radioactive materials and coming into general aviation, that 
poses a threat.
    If, for example, a general aviation aircraft took off and 
had untoward intentions, are you suggesting that it is an 
impossible thought to have the vulnerability of our refineries 
being the eye of the storm? Did you not look at that, which is 
part of the question--certainly should have been part of the 
question that should have been answered in this IG report?
    Mr. Mann. It is a good question.
    Ms. Jackson Lee. To me, it looks as if you made complete 
light of some very real and serious issues. I am just appalled.
    Mr. Mann. Well, I can assure you, Madame Chairwoman, that 
we did not make light of the very serious issues that you have 
indicated. Certainly none of us can forget the horrible events 
of 9/11/2001. I think you make a very good point with regard to 
perception. There was not a perceived threat at that time 
either.
    But I think that a lot of general aviation depends on how 
risk is defined. If it is easier to steal a small airplane, 
then there is certainly a risk in general aviation. However, if 
the damage that a small airplane can do by running into a 
building or running into a chemical plant is minimal, then we 
have to consider whether or not there is a serious threat.
    Ms. Jackson Lee. The only question I would say to you, Mr. 
Mann, is I am not sure if you are doing a risk analysis in this 
report, or the IG's office is just speculating; because again, 
I emphasize that no one would have speculated on 9/10 that 
there would be terrorists that manipulate their documents, that 
would have been trained to fly a plane and not land, that will 
have taken a major commercial aircraft and gone into the 
towers.
    Our job at homeland security is to be preventative. Your 
report kills any intention or effort by anyone to believe, 
well, we should be a little careful here; because you mention 
that, in a general statement, is there a concern? Absolutely 
not. I don't understand how you made a report without expanding 
it to perceive potential threats, so that we could at least 
have a framework to work from.
    Let me just quickly, and I will finish with you and move to 
the next question. That will be my last question. The perimeter 
issue is an issue. You made a point of suggesting that someone 
entering on the grounds was not a problem. And certainly coming 
back after the fact, all of the potential heads of these 
aviation airports, general aviation airports, were on notice. 
So their answers certainly were going to be ones that you 
wanted to hear.
    But, from my perspective, the entrance onto the grounds was 
similar to the terrorists getting on the airplane. So, I don't 
know why that is not a potential vulnerability or threat, 
because it could have been someone wanting to do something 
untoward. The first act could have left a bomb on site. Maybe 
it would have done nothing but blow up a number of unoccupied 
airplanes, but it would have been an action.
    Why wasn't the intrusion on the perimeter something of 
concern?
    Mr. Mann. Well, Madame Chairwoman, we can speculate on 
numerous possibilities of things that could have happened. Yes, 
it could have been a vulnerability, or it could have been a 
very serious incident if an individual enters onto an airport 
unchallenged. I mean, it is--that undeniable.
    But the mere fact that we have not had an incident of 
significant proportions certainly doesn't mean that we won't 
have one. But it doesn't appear that there is a clear threat 
for that sort of activity to happen.
    Ms. Jackson Lee. All right, Mr. Mann. It seems as if, in 
conclusion, that probably further assessment might have shown 
that there were vulnerabilities. I thank you for your 
testimony.
    Let me just quickly ask Dr. Gallaway, you quickly indicate 
something that I think is very, very important in your 
testimony. That is the seeming coordination necessary with DNDO 
on this potential radioactive/nuclear component. I want to know 
how we can help you.
    It seems as if there is not the coordination. TSA, CBP, 
DNDO do not appear to be working cohesively for the potential 
of a large aircraft, general aviation, coming from overseas, 
equipped to create havoc with nuclear materials. How can we be 
of help, Dr. Gallaway?
    Mr. Gallaway. Ma'am, we work as a result of our global 
nuclear detection architecture, working across the spectrum of 
opportunities to mitigate the risk. Many of our resources in 
the past have gone into containerized cargo. We are scanning 98 
percent of the cargo coming into the United States every day, 
for example.
    We, as a Nation, have started turning our attention to 
these other pathways. But we have not done it as aggressively 
as we probably should to try to mitigate the threat across the 
board.
    I think we are working quite well with CBP and TSA. It is a 
matter of the amount of resources that are available. So right 
now----
    Ms. Jackson Lee. Do you need more funding?
    Mr. Gallaway. Yes, ma'am.
    Ms. Jackson Lee. I think you have just answered how we can 
be of help. We will pursue that with you.
    Let me now recognize the gentleman from Texas for 5 
minutes.
    Mr. Olson. Well, thank you, Madame Chairwoman. I appreciate 
the time to ask the witnesses some questions.
    I am going to start out with you, Mr. Mann. You know, your 
report says that TSA is using a threat-based approach to assess 
some of the things we saw in the report from KHOU. I don't want 
to confuse some of the large aircraft with the general aviation 
aircraft.
    As we remember the attacks of September 11, those were 
large passenger liners loaded with over 20,000 pounds of 
aviation fuel at the time they hit those buildings. Now, as we 
know, one of the factors that brought those buildings down was 
that excessive fuel burning and heating the steel that 
ultimately resulted in the collapse.
    So, I am concerned that we are confusing some of the 
threats from a large aircraft with threats from a small 
aircraft, like a Cessna 182, which holds 92 gallons of aviation 
fuel. So I just wanted to give you the opportunity to explain 
some of the differences in your study between the threat 
assessment from a large aircraft, as opposed to the threat 
assessment from a small general aviation aircraft.
    Mr. Mann. Well, as we mentioned small general aviation 
aircraft makes up the majority of the fleet. Larger 747s are 
privately owned. 747s are larger airplanes, have a, in our 
experience, what we are able to determine, are secured 
differently, most always in hangars. They are not just 
generally available; would certainly require a higher level of 
expertise, not only to gain access to the plane, but be able to 
move it, navigate it, take off, do all the things that it would 
take in order to use that aircraft as a weapon of mass 
destruction.
    So, quite honestly, sir, the bulk of our concern was with 
regard to smaller aircraft, less than 12,500 pounds. As the 
GAO, the CRS and as we have indicated, they do not appear to 
have a significant threat to homeland security.
    Mr. Olson. Yes, sir. Thanks for the answer. Very different 
threat, largely because of the size of the aircraft----
    Mr. Mann. Yes.
    Mr. Olson. Mr. Sammon, I would just like to also ask you 
about the public comment period. The LASP ended in February. 
Your office has engaged with the stakeholders, who had serious 
concerns with the mandate in the Notice of Public Rulemaking. I 
want to commend you for the effort you have undertaken to hear 
their concerns. I just wanted to let you know that I am pleased 
today to hear you are going to put out an NPRM. Is this going 
to be a new NRPM or a revised NRPM?
    Mr. Sammon. Our attorneys are looking at the best vehicle. 
It may be easier to take where we are going from and start from 
a clean sheet of paper. The attorneys are wrestling with that 
right now. But they will work out the specifics of that 
shortly.
    Mr. Olson. Okay. We will get out of the business if the 
attorneys are wrestling with it. Don't want to get involved in 
that. Anyway, my final question for you, Mr. Sammon, is just 
how are DHS and TSA going to deal with the terrorist watch list 
and its possible outsourcing in future, large aircraft security 
program rules?
    Mr. Sammon. Through our discussions in the workshop, when 
the rule was originally proposed, Secure Flight, which you may 
be aware of, was quite some far off in the distance. Secure 
Flight is now a reality. We started with a number of carriers. 
So a variant to Secure Flight is something called eSecure 
Flight, which would be available directly to the operators. We 
do not envision using third-party auditors or third-party watch 
list services.
    Mr. Olson. Thank you very much. I appreciate my time. I 
yield back my time, Madame Chairwoman.
    Ms. Jackson Lee. Mr. Olson, thank you so very much. It is a 
delight to recognize the gentleman from Ohio, who is a pilot. I 
hope will continue his oversight of this regulatory process. 
His input early on, I believe, helped this committee and the 
Chairman look to TSA for their visions as relates to the 
aircraft and a distinctive weights of the aircraft. So I thank 
you very much.
    Mr. Massa is recognized for 5 minutes.
    Mr. Massa. Thank you, Madame Chairwoman. I will be--for me 
to offer a correction. But my constituents in New York would 
hold me accountable should I----
    Ms. Jackson Lee. You let me get away with that twice. I am 
sorry.
    Mr. Massa. Yes, ma'am. Out of respect. But in self-defense, 
I must----
    Ms. Jackson Lee. You must defend yourself. Thank you very 
much.
    Mr. Massa. It is the proud heritage of western New York 
that brings me here today.
    Ms. Jackson Lee. There might be some connection. I am not 
sure if there is a border. But I will proudly say that this 
gentleman is from New York.
    Mr. Massa. Thank you. I do hail from one of the cradles of 
general aviation, the home of Glenn Curtiss, the home of 
Schweizer Aircraft Corporation. So, I come at this, not only 
from personal experience, but also from a very strong interest 
in seeing general aviation in all of its categories flourish in 
this country.
    A couple specific questions if I may. I would ask the 
appropriate witness to comment. I saw in the beginning of the 
rulemaking process, the potential of embarking air marshals on 
corporate aviation jets. Is that still a provision that is 
under consideration?
    Mr. Sammon. No. It originally was in there really under 
exigent or extreme circumstances that the administrator would 
do that. But it is not envisioned that you would have air 
marshals flying on general aviation planes, no.
    Mr. Massa. Well, I commend TSA for removing that provision, 
and that I believe that most individuals who use corporate 
aviation are the CEOs of some of our most important companies 
who probably have a good idea of who is supposed to be on the 
airplane with them. I envision that they would be able to 
identify any interlopers with relative speed and ease.
    I also would like to comment for the record that I 
recognize general aviation embodies a wide swath of flying 
aircraft. In fact, by the rules discussed today here, also in 
company up to our largest aircraft, if they are non-scheduled 
commercial aircraft, including passenger and cargo-carrying 
Boeing 747s. So, it is very important to get the rules right on 
this as far as access to those aircraft.
    I also agree with the gentleman from Texas that a Cessna 
152/182, a King Air or Queen Air, does not possess the same 
kinetic energy threats as those larger multi-engine commercial 
jets. As a pilot, I understand very clearly, and I believe here 
in the audience today we have a representative from a company 
who has done its very best to take a large number of dollars 
out of my back pocket, Jefferson, Incorporated, without whom 
general aviation would suffer greatly.
    But, as a community of pilots that adds a great deal, not 
only to the transportation, but just to the outright fun of 
flying, I really would like to be very deeply involved in 
ensuring we get this right. It is very, very important that we 
do not overpenalize general aviation and act in a heavy-handed 
draconian manner that will destroy a large industry that brings 
so much to this country. I would like your comment on how we 
are going to balance that please.
    Mr. Sammon. Good. We, again, have had lengthy discussions. 
The meetings we had lasted up to 8 hours. In those months, it 
wasn't an hour meeting coming in and brushing things off. They 
were significant dialogue back and forth. I have briefed Joe 
Lombardo, the president of Gulfstream in Savannah 2 or 3 weeks 
ago, and understanding where we are.
    Craig Fuller, I attribute Craig Fuller's leadership to the 
process in terms of where we have gotten and how far we have 
come along. So we have, in addition to Tom Donohue in the 
Chamber of Commerce, we have engaged folks, outlined what we 
see coming out of the process. I think that they are 
comfortable we are hitting the right way.
    I would be happy to offer a brief to you, or any Members of 
the subcommittee, on the details of what we are thinking right 
now. Also, any of the studies we have that support where we are 
going. I would be happy to do that.
    Mr. Gallaway. I would like to also add one comment--that 
one of the things that makes general aviation so appealing from 
a corporate point of view is the access and speed of 
transportation of those executives, where time definitively is 
money. So, I hope that, as we move forward, we do not place 
irrational or unnecessary barriers to that very essence that 
makes those aircraft such an important part of American 
business.
    Mr. Sammon. Again, that is why we have made specific--in 
addition to other folks, the folks from Gulfstream, obviously, 
that is what they do. That is their business. That is what they 
are selling is speed and flexibility. We wanted to make sure 
that they were aware. Also the folks from Gulfstream offered us 
quite a bit in terms of securing aircraft, simply, easily, 
inexpensively, but securely. We appreciate their input.
    They attended our working sessions. So, I think that, if 
you look at the folks whose ultimate--the end of chain, we have 
got to sell these things for that particular purpose, I think 
we have had very good dialogue with them. I think if you called 
Mr. Lombardo, you would find out where we are.
    Mr. Massa. Well, thank you very much for your attention to 
this. I look forward to being available to you in any manner 
possible to be of assistance.
    Ms. Jackson Lee. I want to thank the gentleman of New York, 
Mr. Massa, for his questioning and his insight into these 
areas.
    I am now pleased to recognize the gentleman from 
California, Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Madame Chairwoman. I 
sometimes wonder what is the greater threat to general 
aviation, over-regulation or comments out of the White House 
condemning executive jet service and private aircraft. 
Hopefully, we are getting away from that sort of thing. That is 
an industry that the United States is involved in. When we 
condemn it, we create an atmosphere in which we lose jobs.
    I am also reminded, when I hear some of the questions asked 
of Mr. Sammon and Mr. Mann, that you two are sort of in a 
damned-if-you-do-and-damned-if-you-don't situation.
    I have noticed some of the comments that have been coming 
out lately about the CIA, an agency of the Federal Government 
that appears to have done a pretty good job in keeping us from 
being attacked by terrorists. As a result, CIA employees get 
threatened with prosecution. They get threatened with 
investigation.
    Sometimes I just have to shake my head, because we haven't 
had an attack on U.S. soil since 9/11. It hasn't happened by 
accident. So I would actually like to take my hat off to those 
of you in the Federal Government, in the Executive Branch, who 
have been doing a good job of attempting to ensure that we 
don't have another attack.
    Having said that, obviously I, as others, am concerned 
about the risk as it exists with respect to general aviation.
    So, Mr. Sammon, I would like to ask you this question. Have 
we moved away from the risk-based approach? Have we moved away 
from the layered defense approach that we have embarked on with 
respect to the Department of Homeland Security in all other 
areas, particularly other areas of aviation, as we have tried 
to deal with the potential threat in the area of general 
aviation?
    Mr. Sammon. No. I think if you look at risk, obviously, 
many people have had the conversation. But we look at risk in 
terms from DHS's perspective is made of three parts: The 
threat, the vulnerability, and the consequence. As we focused 
our discussion, in my oral testimony, it said that there is not 
a specific intel-based threat on general aviation.
    But, in terms of the vulnerability of unsecure aircraft and 
other issues that we talked about, and the consequence that a 
large GA aircraft could cause, we need to address those two 
other portions of risk. So, just as other areas where we don't 
have specific threats, but we do take prudent measures that are 
reasonable, sensible to reduce the risk, that is our 
responsibility to do that.
    Mr. Lungren. What I hear from some of my constituents who 
are private aircraft owners or operators, particularly those in 
the agricultural industry, and some in the business industry, 
what they are concerned about is this. They say, look, we may 
get up in the morning and not know where we are going to fly 
that day. We may not know who is on our plane until we make a 
decision a half-hour ahead of time.
    For legitimate business reasons, particularly in the area 
of agriculture, where you have got large expanses of property, 
or for example, farmland in California and farmland in Arizona, 
maybe farmland in Nevada, their concern is--and I would ask you 
if it is justified or not--that the Department, in its effort 
to try and respond to the legitimate issues that we have talked 
about here, may impose obligations on them that don't make 
sense from their perspective.
    Can you give me an idea of how you deal with that issue, 
because they have been worried about, gee, do we have to give 
prior notice of who we have on board? Do we know who is going 
to be on our plane 12 hours from now? I may not know that.
    Mr. Sammon. Yes. That was one of the subjects of 
considerable discussion during our workshops. I think we have 
worked out with the industry associations reasonable protocols 
from the group. I have reviewed these personally with most of 
the folks who participated in the workshops in terms of how we 
deal with that and how to pilot and command the discretions 
they have or wouldn't have to do address some of the issues you 
are concerned about.
    I think when we publish these--and again, I would be happy 
to brief you separately--I think you will see that they seem 
reasonable.
    Mr. Lungren. Dr. Gallaway, I would just like to ask you 
about the gateway airport situation, can you give us a little 
more detail on how that is shaping up, and how you see that as 
an effective means of dealing with this issue that you brought 
up?
    Mr. Gallaway. Right now, it is still in a conceptual phase. 
We are working out the details, because there are a lot of 
different options that we can work. Of course, the amount of 
money that is spent to implement those options can vary 
considerably.
    But ultimately, we are trying to balance the inconvenience 
to the flying public or to the general aviation public with 
increasing the security. So costs will ultimately be a large 
driver in whatever solutions start gelling. Then we would take 
it to the aviation community to see how they would----
    Mr. Lungren. Cost to the aviation community, cost to the 
individual operator, or cost to the Government?
    Mr. Gallaway. We are looking at costs across the board, 
because it would increase the cost, depending on which of these 
solutions we are talking about, it could potentially increase 
the cost to the operator as well as the Government.
    Mr. Lungren. Thank you very much.
    Thank you, Madame Chairwoman.
    Ms. Jackson Lee. Let me thank the gentleman for his 
question.
    My pleasure to recognize Ms. Norton of the District of 
Columbia for 5 minutes.
    Ms. Norton. Madame Chairwoman, I can't thank you enough for 
putting the focus on the Homeland Security Committee on general 
aviation. For the first time, I think, most of the work on 
general aviation has been done in the aviation subcommittee. It 
is very frustrating, particularly considering we are talking 
about a major industry, 50 percent of all aviation in the 
United States.
    I listened to all of you for evidence of the risk analysis 
that you say--I agree is the way to approach this has been 
done. I thought it was a disgrace to contrast what we saw, 
which is virtually none of what I would take to be the 
appropriate guidance that you would want to give, regardless of 
vulnerability in Houston with what can only be described as 
nuclear overregulation.
    Here, in the Nation's capitol, it is shameful. It makes us, 
what is it, 8 or 9 years after 9/11 look like we haven't even 
learned how to protect our own Nation's capitol, New York 
airports, New York--far greater risk and consequences analysis. 
Density, if you are looking to do damage there----
    Shortly after 9/11, they did the right thing. Major 
commercial center, general aviation was up, up and going. Let 
us contrast that to the District of Columbia where, for 
example, we get what even looks to be arbitrary actions--South 
Capitol Street Heliport, deliberately kept open for 2 years. It 
is a heliport now--2 years after 9/11, abruptly shut down, no 
explanation to the public or anybody else, including this 
committee.
    General aviation in the District of Columbia, you, Mr. 
Sammon, lay out the shameful picture. You have destroyed the 
entire industry in the Nation's capitol. You have 240 you say. 
Our information is 200 flights per year.
    Guess what, sir? It was 2,000. You just wiped it out in the 
Nation's capitol. Indeed, you, TSA, wouldn't even open national 
or general aviation in this airport until the chair of the 
Transportation Infrastructure Committee, when I was in the 
minority, said that he was going to hold the agency in 
contempt.
    Then you opened it in a way that was in the face--it was a 
kind of in-your-face opening, because you said, okay. You can 
fly into the Nation's capitol. But you have got to do a 
security threat assessment for all passengers coming in, 
including fingerprints and criminal histories. Don't mind it 
for the flight crew, of course; but all the passengers.
    Guess what? Those air marshals, you have got to have them 
on every flight. That means that you opened it all right with a 
destroyed industry that still can't come into your Nation's 
capitol.
    I am trying to reconcile how you have treated civil 
aviation here with the testimony of Mr. Mann, the assistant IG. 
Now, here is what he said--and he says the GAO and CRS agree. 
The small size lack of fuel capacity and minimal destructive 
power of most general aviation aircraft make them unattractive 
for terrorists and thereby reduce the possibility of threat 
associated with their misuse.
    A light use of a--that too light an aircraft to use for 
conventional explosives, Mr. Gallaway. Let me just ask you 
point blank, because this gets to be very tiresome, given the 
resistance of an agency that is supposed to know how to keep us 
safe and open at the same time.
    We understand there is already a plan to open general 
aviation at national airports. Is there a plan? When do you 
intend to issue it, so that general aviation is available here 
the way it is in New York City and every other part of the 
United States?
    Mr. Gallaway. In terms of the national capitol region and 
the airspace, TSA does not control the airspace security. We 
are one member of an airspace working group, including the 
Department of Defense, the FAA----
    Ms. Norton. I asked you a point-blank question.
    Mr. Gallaway. We don't have a----
    Ms. Norton. Is there a plan?
    Mr. Gallaway. There isn't. There is not a plan.
    Ms. Norton. We were told in a hearing that there was a 
hearing of the Aviation Subcommittee. Now, you say there is no 
plan. Has there ever been a plan?
    Mr. Gallaway. I don't know----
    Ms. Norton. Do you intend to do a plan?
    Mr. Gallaway. I don't have a plan. I think that----
    Ms. Norton. So, you believe that it is justifiable to 
essentially close down general aviation and a major commercial 
and government center of the United States--what is it? How 
many years after 9/11, when you believe that is acceptable and 
that that is necessary?
    Mr. Gallaway. I think if we get our rule out and in the in 
force----
    Ms. Norton. Will the rule make it possible?
    Mr. Gallaway. I think it will be helpful with the other 
members who control the airspace----
    Ms. Norton. We are the stakeholders, our people who use----
    Mr. Gallaway. Yes, we agree.
    Ms. Norton [continuing]. The--who in fact have used general 
aviation services in the Nation's capitol and are the people 
who own helicopter services----
    Mr. Gallaway. Yes.
    Ms. Norton [continuing]. Who routinely flew into Merseley 
among the stakeholders with whom you are meeting?
    Mr. Gallaway. Yes. Again, I think when the rule comes out 
and talks about plane size and other issues associated with 
that, I think that discussion becomes easier to have with the 
members of the people who control the overall----
    Ms. Norton. Mr. Sammon, we are going to demand equality 
with New York. You have not, in this testimony, nor has anyone 
from the Department ever made the case that is more necessary 
to reduce general aviation here than it is in New York City, 
where your own assessments show the risks, the threats, and the 
consequences to be far greater than in the Nation's capitol.
    Therefore, that is what I am looking for--that, and nothing 
less. You can tell that to the other people at the table that 
you are trying to point the finger at as the reason; because 
that is what we want here, equal treatment.
    Thank you very much, Madame Chairwoman.
    Ms. Jackson Lee. Let me thank the gentle lady from the 
District of Columbia. Frankly, let me say to the gentle lady 
that she has this Chairwoman's support for the issue of general 
aviation in Washington, DC, so that we recognize that the 
balanced perspective that I utilize is that what we do have 
should be secure. But it does not mean that we cannot look in 
an open-minded manner at how we can restore general aviation in 
this area.
    So, Mr. Sammon, I knew you are just one part of it. This 
committee will take up the issue. We would like you gentlemen 
to remain. We understand the challenges. But we have votes. We 
will then recess, and we will restart this panel, so that Mr. 
Dent, the Ranking Member, will be able to pose questions to the 
panel. We thank you very much for your time and courtesy. The 
committee stands at recess.
    [Recess.]
    Ms. Jackson Lee. This hearing will be resumed; thank you 
for your patience. It is my pleasure to yield 5 minutes to the 
distinguished Ranking Member from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Madame Chairwoman.
    Thank you to the panel for sticking around here. I 
apologize for the interruption.
    Mr. Sammon, thanks for being here too, and also for your 
work on this issue, and also for meeting me separately from 
this meeting.
    Why do you think that, in hindsight, TSA issued such a 
broad sweeping rule that, in the opinion of many was pretty far 
off the mark with respect to the LASP program?
    Mr. Sammon. I think the approach there was just to bring 
something back down once you get the comments, rather than 
trying to broaden if you find out you have missed the mark 
somewhere. So, it was probably more broadly based. I think 
where we are going, as we have discussed, is a much more narrow 
focus based upon considerable industry input.
    Mr. Dent. Thank you. Did you guys consult with any 
stakeholders prior to the release of the original NPRM?
    Mr. Sammon. Yes. In fact, Administrator Hawley on numerous 
occasion had meetings with stakeholders and attempted to come 
to some process. But, he had met personally, as I did, and 
other staff met, with stakeholders beforehand.
    Mr. Dent. How does TSA document any consultations with 
outside groups or industry groups or stakeholders, while 
developing a potential rule?
    Mr. Sammon. The documentation of those meetings, I would 
have to check and get back to you and let you know. On the 
working sessions, we have documented them. I think they are 
being cleared to be put on a public format.
    Mr. Dent. Also, and finally, in your written testimony, you 
mentioned the automatic detention and processing terminal, or 
ADAPT----
    Mr. Sammon. Yes.
    Mr. Dent [continuing]. As a system designed to mitigate the 
use of a GA aircraft as a conveyance to transport dangerous 
persons, materials in the country. How does that work? How does 
it distinguish between a scheduled legitimate flight and a 
flight that may be deviating from its flight path?
    Mr. Sammon. Yes. ADAPT is a program developed by FAA. They 
track tail numbers. Essentially ADAPT is just a--if you think 
about it as a data management system. So, with that tail 
number, for instance, if the particular aircraft is part of the 
security plan, and ADAPT recognizes that. If people who do not 
have security plans and are applying to come into the country, 
for instance, apply for waivers, if they have a waiver, ADAPT 
will recognize that. If they don't, ADAPT will recognize the 
aircraft, highlight it to FAA and ground-stop at that aircraft.
    We have had a considerable number of aircraft, say from 
Venezuela, to have come up without a waiver is ground-stopped 
in Ft. Lauderdale, stopped. But essentially, what kind of 
information that you want to tag onto that particular tail 
number, ADAPT is simply a--that is what it does.
    Mr. Dent. Thank you.
    Dr. Gallaway, thank you too for being here as well. I have 
been out to the DNDO facilities out there in Nevada and I got 
quite an education out there. As you know, DNDO's responsible 
for developing a global nuclear detection architecture 
predicated on the understanding that ``no single layer of 
defense can detect all radiological and nuclear threats.''
    How does the radiation, nuclear detection on general 
aviation aircraft play into DNDO's global nuclear detection 
architecture?
    Mr. Gallaway. We look at all the pathways coming into the 
United States in the border layer. We look at the maritime 
coming across land and also air. So, we looked at the entire 
aviation pathway and found, obviously, a variety of flights 
that come into the country. So, we are trying to work across 
the board.
    Our analysis, however, shows that international general 
aviation is particularly attractive, because it allows somebody 
a lot of autonomy. They can maintain control of the weapon, 
because they can travel with it if they chose. The speed, 
obviously, is attractive. But then finally, that they could fly 
it, in fact, directly to the target without ever encountering 
officials here in the United States.
    Mr. Dent. My next question is this. I understand that 
concern. Do you agree with the TSA and the inspector general's 
conclusion that general aviation provides a possible method for 
terrorist attack. But it is not a probable method for an 
attack. Do you agree with that contention?
    Mr. Gallaway. We have no specific intelligence information 
that suggests that this is a threat vector, that the adversary 
is pursuing.
    Mr. Dent. How would DNDO, working with TSA and CBP, address 
this high-consequence, but low-probability, method of attack?
    Mr. Gallaway. We would work with both those agencies. But 
CBP would probably be the more natural one that we would have 
overseas pre-clearance airports, where we would go out and do 
radiation scanning of the aircraft to assure that there is not 
a nuclear device on board the aircraft before it departs 
foreign soil. Then, we would have confidence that, as it enters 
U.S. airspace, that it is okay.
    Mr. Dent. Can I ask one more question?
    I am sorry. Mr. Sammon, one other series of little 
questions here. In your testimony you mentioned that a critical 
aspect of TSA's regulatory approach is the process-oriented 
nature of devising mandatory security measures. By process-
oriented nature, are you referring to the rulemaking process?
    Mr. Sammon. I am sorry, the process-oriented nature is 
what----
    Mr. Dent. Yes.
    Mr. Sammon. I think----
    Mr. Dent. Are you referring to the rulemaking process when 
you say that?
    Mr. Sammon. Yes.
    Mr. Dent. Okay. If so, then why does the TSA have literally 
dozens of security directives issued without any opportunity 
for public notice or comment?
    Mr. Sammon. I think there were two security directives 
which were issues recently: One called 8F, another 8G. The 
regulated parties in both cases, the directly regulated 
parties, were the airports. 8F was designed specifically to 
address vulnerabilities for people with unescorted access in 
commercial airports. They do not apply to general aviation 
airports.
    We consulted specifically with both AAAE and ACI, the two 
major airport associations who also brought airports in to 
comment both on the security directive. As we got closer to the 
deadlines, we also consulted with other affected stakeholders. 
But you must also be aware that the other people who were 
affected by this would be Coca-Cola vendors, plant maintainers, 
anybody who is wandering around airports, with unescorted 
access, who has not been issued an airport clearing security 
badge.
    So, there is a wide variety of folks that we--most of our 
consultation was with the regulated party and the airports.
    Mr. Dent. Finally, what is the process for issuing these 
security directives? Are they ever reviewed to identify if an 
actual rulemaking would be possible?
    Mr. Sammon. In the case when the security directive, 
particularly the 8F, was issued because of security 
vulnerabilities that were identified by ICE and other parties 
at O'Hare, where parties were using unauthorized badges. 
Illegal people were basically taking badges out of a box, using 
those as their airport credentials. We wanted to move forward 
as expeditiously as possible to close that vulnerability. 
Rulemaking would have taken us much longer.
    Mr. Dent. Thank you.
    Thank you for your indulgence. I yield back.
    Ms. Jackson Lee. Thank you very much, Mr. Dent. Before I 
move to the next panel, I have just a few questions that I 
wanted to make sure that we were clear, and that I had a full 
understanding.
    Mr. Sammon, as we go forward in the rulemaking process, I 
am going to ask you and your team--and I know that your team is 
being rebuilt as it moves forward under this new 
administration--to keep this committee, this Chairwoman and the 
full committee apprised of the progress of the rulemaking. In 
fact, as Chairwoman of this subcommittee, I would like to have, 
along with the staff, specific briefings as you make your way 
through this process.
    The other question is, as you watched the video--and I do 
agree with much of the comments that have been made by my 
colleagues. Particularly Mr. Lungren, I think, made some points 
about farmers and the question of a manifest, and some of the 
challenges in general aviation, when you ask for the 
preciseness of a manifest and a time frame.
    I might add that I also recognize that general aviation has 
much different topography, when we talk about where small 
planes may land. Coming from Texas, they may land on an 
airstrip on a farm.
    But my question to you is, in the view that you have just 
been able to look at, we do have reasonable need to be 
concerned about perimeter invasion or entry. Let me not use the 
term invasion as much as perimeter entry.
    Will you look at that in your rulemaking? Particularly as 
it relates, as we discussed previously, Teterboro, I believe, 
in New Jersey, in a congested area, and the airports in 
Houston; because there was a clear, if you will, violation of 
the perimeter--an un-ID'd, uninvited, nonrelevant, meaning that 
the person had no purpose, and I won't even call them a 
visitor--got on the grounds with no bar or no security check 
whatsoever.
    So, that is a problem, is it not? If you could turn your 
mic on, so I could hear you. I think that is a problem, is it 
not?
    Mr. Sammon. Yes. In May, in 2004, we issued a series of 
security guidelines.
    Ms. Jackson Lee. Right, I understand that.
    Mr. Sammon. The guidelines, for instance, at airports as 
you were speaking of would include fencing, hangar security, 
CCTV, intrusion detection, access controls, lighting, personal 
ID and so on, so forth. Our struggle there has been to issue 
those as a mandate without a funding source.
    That has been the thing we have been struggling with is--in 
terms of we are--the assessment of vulnerabilities, the 
riskiness of the airport, the grass strip, for instance, 
compared to Teterboro. The requirements are clearly laid out.
    But the question is, if we issue a rule, how will it be 
paid for? We don't know that yet. That is our new struggle.
    Ms. Jackson Lee. Well, we have established that there is a 
threat. We established that there is a vulnerability. I think 
we established on this record that 9/11 was not predicted, per 
se. I assume there were many security experts that probably 
have written or wrote articles pre-9/11 saying America's 
vulnerable. But it had not reached the American psyche, or 
unfortunately the policy makers, many of whom are here today, 
including myself if you will, on this whole question of 
terrorism.
    So, we now have a different look at terrorism. We know that 
we may not all be able to predict what might happen. Even 
though we have not had a terrorist act on our soil, which we 
are very grateful for, the combination of the Executive and 
Congress working together to ensure that not happen, we cannot 
predict the future.
    So, my point to you would be that we want to work with you. 
There needs to be a balance in the struggle that you have. 
Frankly, I believe there can be a balance. Teterboro, there can 
be established parameters and regulations that would be very 
helpful. I believe in Houston, there can be a balance. Although 
smaller airports, but as you noted in the video, large 
airplanes seemingly were housed there.
    So, I want to pose the question--and I would like to work 
on the response with you--that we look at perimeter security as 
it relates to risk-based analysis, small and large, but also as 
it relates to just the penetration and vulnerability aspects of 
it; because you can have a small airport with large aircraft 
that is, in essence, housed there. Can we work on this issue? 
Do you see the necessity of ensuring perimeter security?
    Mr. Sammon. I would be happy to come up and sit down with 
staff and with you to discuss this and discuss the procedures 
that are in place; and then discuss how we would go forward, 
particularly if it were made part of a rule and without the 
funding. I think that is really the issue. I would be----
    Ms. Jackson Lee. I understand.
    Mr. Sammon [continuing]. Happy to spend as much as time as 
possible.
    Ms. Jackson Lee. You see the need for perimeter security.
    Mr. Sammon. It is in part of our guidelines. We just have 
no means. It is just the resource to make it happen.
    Ms. Jackson Lee. Mr. Mann, let me just raise this one 
question with you. I would appreciate it if you convey this to 
the IG, Mr. Skinner. I do believe that you worked in good 
faith. But I do believe you did a disservice in the summary and 
the conclusions that came about.
    I assume you responded to what was an interesting and 
provocative headline as to whether or not Houston was a sitting 
duck. I don't believe the answer needed to be as provocative--
no, it is not a sitting duck. Do you have any scientific 
evidence that, if a small plane was either loaded or non-
loaded, and penetrated one of our refineries, one of the tanks 
in our refineries, one of the areas that are holding chemicals, 
that there wouldn't be a potential catastrophic event?
    Mr. Mann. Well, there is certainly the potential for that. 
But----
    Ms. Jackson Lee. Let me have you answer the question. A 
small plane could cause damage in a catastrophic event. Could 
it not?
    Mr. Mann. It could.
    Ms. Jackson Lee. It could. So even if you want to hang your 
hat on the question of risk and whether it ever happens, again 
I emphasize to you that I am not trying to, in essence, cry 
fire in a crowded theater. I am not trying to re-elevate the 
horror of 9/11. We all went through that. Those in New York 
most of all.
    But I am trying to capture the unpredictability of 
terrorism. Therefore, the concern I have with the IG's report 
is that you gave no credence to the unpredictability of 
terrorism. You gave you credence to the particular area that 
you are in. You have just heard me say that I supported Ms. 
Norton. I am not against general aviation. I frankly believe it 
should be open here in this region, and we should find ways to 
secure it.
    But then, in Houston, it is just laissez-faire. It is okay. 
You seem to not look at the region that we were in. Those 
airports were minutes away from our refinery corridor, with all 
kinds of potential. We have had catastrophic incidences, and 
that we are not, in essence--it didn't take a major loss of 
life. But we had loss of life, 15 at one particular incident. 
That was, of course, an accident that occurred. But it has 
great potential.
    So, my simple question is do you concede the point that, 
even if it is a question of how you assess the risk, that a 
small plane in the region that we are speaking of could cause 
major damage?
    Mr. Mann. I think that is correct, yes.
    Ms. Jackson Lee. And could cause loss of life.
    Mr. Mann. That is correct.
    Ms. Jackson Lee. If it was not an accident, meaning some 
unfortunate pilot that lost their way, but in fact someone who 
intended to do so, the perimeter entry that you witnessed by 
video, and the easy access to airplanes, could contribute to 
that.
    Mr. Mann. That is correct.
    Ms. Jackson Lee. All right. I want to thank you for that.
    Let me just go to Dr. Gallaway. I think, Dr. Gallaway, that 
people are not understanding--I shouldn't say understanding--
but capturing the essence of what you are saying; because I 
think it is major. You really focused us on international 
general aviation. Many times, those are large planes. It could 
be that they could be carrying radioactive material. They are 
unscreened overseas. Is that my understanding?
    Mr. Gallaway. That is correct.
    Ms. Jackson Lee. So you have come here today. Let me just 
read into the record again your testimony that says: We 
recommend exploring the option that all other U.S. entry 
screening and inspection activity, i.e., customs, agriculture, 
and health, be conducted concurrently for radioactive nuclear 
screening at the pre-clearance gateway.
    What you are saying is that you would like to have a 
scheme, a structure in place, that would put in place the 
international general aviation structure that would screen for 
potential radioactive or nuclear material, that is not at this 
point happening, and therefore making them a potential deadly 
target heading towards the United States, if that was their 
destination.
    Mr. Gallaway. That is correct.
    Ms. Jackson Lee. Did I understand you to say that you are 
working on such a structure, and funding would be the asset 
that you would need to carry through with this?
    Mr. Gallaway. We are still in the planning phase for this. 
I will call it more that it is a sophisticated concept at this 
point. But there would be a lot of things to actually require 
to implement this. Funding would certainly be the backbone for 
it. But we would have to negotiate with our international 
partners. We would have to figure out, in fact, how to set up 
the gateway airports and the scanning processes, and then to 
operationalize all those. So, it would be a challenge, but a 
doable challenge.
    The other component of that problem would be to deal with 
the aircraft that come across on relatively short flights from 
Canada and Mexico, that we would set up airports along the U.S. 
border, but away from population centers, where they could land 
safety in the United States and then be scanned once they are 
on the ground. But the key to that is keep them away from 
population centers.
    Ms. Jackson Lee. Do you think maybe we could work with this 
proposal and utilize pilot programs initially to see how this 
structure would work?
    Mr. Gallaway. Yes. In fact, customs and border protection 
has gateway airports in Aruba, Canada, and Bermuda, and which 
we are trying to negotiate the rights overseas with the foreign 
countries to allow us to do rad/nuc screening. I think we are 
doing pretty well in those negotiations. Then we would 
implement them as pilot programs.
    Ms. Jackson Lee. Well, I think most Americans would be 
grateful, Dr. Gallaway, for your work. I would think most 
Americans wouldn't be aware of the potential threat of rad/
nuclear materials coming in on an international general 
aviation flight. Again, we are not attempting to create 
hysteria. But we are attempting to be good stewards of the 
American people and their need of security.
    I would like to ensure that we have an opportunity to be 
briefed as you move forward. Particularly, I would like to get 
a status report on the cooperative efforts that you are 
attempting with our neighbors. I would also like to hear on the 
progress we are making with our extended neighbors, and that is 
our allies and friends and various countries that are, of 
course, in Europe and other parts of the world, because our 
general aviation flights come from all over the world, which 
leaves us vulnerable to any precipitous incident that might 
occur.
    So, I would appreciate that. I would appreciate us engaging 
on this concept of beginning with a pilot program. As you have 
indicated, funding is not the only part of your need. We need 
to have an effective structure. I think it is both insightful 
and needed. I will look forward to meeting with you as you make 
progress on this particular effort.
    I would like to thank the witnesses and appreciate, again, 
very much, your----
    Ms. Norton. Madame Chairwoman, Madame Chairwoman, could I 
say a word?
    Ms. Jackson Lee. Oh, I am sorry. I didn't see you come in.
    Let me yield for a moment to the gentle lady from the 
District of Columbia, which I have already gone on record 
saying that I support her proposition with respect to the 
District of Columbia and general aviation. The gentle lady from 
the District of Columbia, Ms. Norton.
    Ms. Norton. I appreciate your support, Madame Chairwoman. I 
particularly appreciate this hearing, because it has given us a 
study in contrast without evidence that has been an underlying 
risk/consequences analysis. Everyone knew, particularly after 
9/11--but they would know in any case--that New York was a 
particularly vulnerable jurisdiction to planes of every kind, 
yes, even of course general aviation with its skyscrapers, with 
its enormous, indeed, its magnificently unique density.
    Indeed, Department of Homeland Security knows it, because 
it places New York City as the highest-risk jurisdiction in the 
United States. Yet, the Homeland Security Department, it tells 
us it isn't us, it is the Secret Service, approved within days 
of 9/11 general security aviation in the Big Apple. You know, 
they did a risk and consequences analysis of the kind they gave 
lip service to here, when it came to Houston and to the 
District of Columbia.
    Now, as a result of this hearing, Madame Chairwoman, I must 
say I believe that Houston is more vulnerable than the Nation's 
capitol. We don't have any manufacturing facilities, nuclear 
facilities, fuel storage facilities anywhere close to the 
Nation's capitol. There is plenty of perimeter control here. In 
Houston, I saw no evidence, either of perimeter control, or of 
control by TSA in the air.
    Yet, if I am a terrorist, and all I have got is a small 
plane, I am not likely to try the Nation's capitol. For one 
thing, we got the Air Force, as all of you know, who since 9/11 
we have seen go in the air if they see anybody who even looks 
like they are penetrating the airspace of the Nation's 
capitol--false alarms, but all of us were put out in the street 
several times.
    There is no question that the only thing that you have not 
given sufficient attention to is commercial aviation in a 
country that prides itself on keeping commerce in place.
    Frankly, we have had to--in this city, Madame Chairwoman--
beat Federal officials around the head and shoulders, just to 
keep the city open until finally people understood that this is 
the United States. This is America. We are capable of 
protecting our country.
    I wanted to say to all three of you gentlemen, it is a 
matter of some embarrassment to me that we created a whole 
Department of Homeland Security, and you all haven't figured 
out how to get ordinary commerce into the Nation's capitol. It 
is not only the Nation's capitol, it serves one of the real 
growth regions of the country. So, it is a matter of 
embarrassment. It should be a matter of shame to you.
    Even without general aviation up in the air, you have had 
precautions here of the kind we don't have in New York and the 
kind we don't have in Houston. I think you have got to get your 
cities straight. I think an appropriate risk analysis must be 
done here in the Nation's capitol.
    There are all kinds of layers. I didn't see any in that 
film. I haven't heard you speak in any layers. So, while I 
would agree with you that, on any Nation-wide risk analysis, 
general aviation doesn't come up very high, but a 
particularized risk analysis needs to be done.
    It looks like you have done it only for the Nation's 
capitol. You got it all wrong--all wrong. You have never been 
able to justify what you have done here. But I haven't seen 
comparable attention paid to jurisdictions near nuclear 
facilities, near fuel storage facilities. It does seem to me 
you have got some work to be done.
    By the way, I still think general aviation does not pose a 
major threat, even to those jurisdictions. But this testimony 
today, Madame Chairwoman, has convinced me that no risk 
analysis, major area of the country by major area of the 
country, has been done; and that they are dealing with Nation-
wide assessment that I think you and I would agree with. I 
think we are entitled to more than that, given vast 
differences.
    Sometimes they don't have the same population. But 
terrorists are smart enough to know that we have guarded places 
like New York and the District of Columbia and have a lot of 
chatter going on there. They may be smart enough to look for 
places where if you just do a big blow-out, and where maybe you 
want to take extra precautions there, instead of spending all 
your time looking at the navel of the Nation's capitol and 
stopping all general aviation for all intents and purposes 
here.
    Shame on you. That has simply got to be corrected. You have 
got to get all the players at the table and show that you know 
how to meet your dual responsibility to, in fact, keep this 
Nation safe and to keep us economically and commercially strong 
at the same time. You have got two missions, not one.
    Thank you very much, Madame Chairwoman.
    Ms. Jackson Lee. We thank the gentle lady.
    I think, gentlemen, you have just recognized the great 
interest of this issue of general aviation probably more so 
than you might have expected. I think we have had an 
opportunity to strike a balance in recognizing that general 
aviation is valuable. But it has its vulnerabilities.
    Maybe we now need to look across the Nation, Mr. Sammon, as 
you look at your regulations. Of course, the issue of the 
District of Columbia is more than you and a major policy 
decision, which we, as Members of Congress, will join with the 
congresswoman.
    But as you look at this issue of general aviation and the 
regulations, I think there is merit to looking at perimeter 
security, looking at where airports are located. Certainly you 
have already worked with the industry as relates to manifests, 
protection of vehicles, size of vehicles. We are making 
progress. But I want to be able to see a holistic approach to 
this issue.
    As I indicated, I want to thank Mr. Mann, Mr. Sammon, and 
Dr. Gallaway. There being no further questions for this first 
panel, I would like to thank the witnesses for appearing before 
the subcommittee today. The Members of the subcommittee may 
have additional questions for you. We ask that you respond to 
them expeditiously in writing.
    We now welcome our second panel to the witness table.
    I welcome our second panel of witnesses. Our first witness 
is Martha King. Since the early 1970s, Ms. King and her 
husband, John, have been teaching pilots. Their company, King 
Schools, operates out of a dedicated complex in San Diego, 
California, that includes a television and software production 
facility. For more than 34 years, King Schools has delivered 
millions of videotapes, CD-ROMs, DVDs and on-line courses to 
pilots and mechanics.
    Ms. King is the first and only woman to hold every category 
and class of FAA rating on her pilot's certificate, as well as 
every flight and ground instructor certificate offered by the 
FAA.
    Our second witness is Mr. Olislagers, who is the executive 
director of Centennial Airport in Denver, Colorado, one of the 
busiest general aviation airports in the United States, and 
among the 30 busiest U.S. airports of any kind.
    Our third witness is Mr. Jeremy Rogalski. He is an 
investigative reporter for KHOU-TV, the CBS affiliate in 
Houston. In February 2007, he aired a report exposing security 
lapses at three general aviation airports in the greater 
Houston area. Specifically KHOU-TV acquired entry to those 
facilities and, in many cases, the aircraft doors were wide 
open, and nobody questioned KHOU-TV's activities. This 
important reporting helped to galvanize a national conversation 
of general aviation security and was among the reasons for the 
IG report we discussed during our first panel.
    Our fourth witness is Mr. Mark Van Tine. Mr. Van Tine is 
the president and chief executive officer of Jeppessen. 
Jeppessen is a subsidiary of the Boeing Company. He has spent 
his career working in a variety of different areas within 
Jeppessen's businesses, including flight operations, customer 
service, charting, and information technology.
    Without objection, the witnesses' full statement shall be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes, beginning with Ms. King.
    Ms. King, you are recognized.

                STATEMENT OF MARTHA KING, PILOT

    Ms. King. Chairwoman Jackson Lee, Ranking Member Dent, 
Members of the subcommittee, good afternoon. It is a privilege 
to be here before you today. My name is Martha King. I am co-
owner of King Schools, a family-owned business located in San 
Diego, California. Our company produces DVD and Web-based 
training courses for pilots.
    Nearly half the pilots in America, who learned to fly in 
the last 30 years, have taken one of our courses. In addition 
to being type rated in our small company airplane, as 
Chairwoman Jackson Lee indicated, I also hold every category 
and class of FAA rating on my pilot and instructor 
certificates.
    My husband and I wouldn't have been able to build our 
business without the use of a general aviation business 
aircraft. Our airplane is critical to the survival of our 
company and to the customers we serve.
    For example, King Schools provides the computer-based pilot 
training materials for some 300 flight schools throughout the 
United States that are Cessna pilot centers. These small 
independent businesses are located on small airports at some 
distance from airports served by the airlines. We visit these 
flight schools regularly to give marketing and business 
development talks to their owners and employees. We bring along 
software engineers and technical support staff to solve our 
customers' computer issues.
    Because of our relationship with these Cessna pilot 
centers, we visit often with Cessna Aircraft Company in 
Wichita, Kansas. By using our company airplane, we can take 
eight members of our small management team from San Diego to 
Wichita in the morning and return to San Diego that same night. 
The airplane helps us turn travel time into work time and 
limits our employees' time out of the office. This productivity 
just wouldn't be possible using the airlines.
    You don't often hear about companies like King Schools when 
you hear discussions about business aviation. But for every 
large company that operates a business airplane, there are 
eight or nine companies, just like mine--small and medium-sized 
companies that provide jobs and bring commerce to communities 
across the United States.
    I want to thank you for having me here today as part of 
your hearing to discuss the Large Aircraft Security proposal or 
LASP, as put forward by the Transportation Security 
Administration. From an overall perspective, the proposal does 
not recognize the significant differences between commercial 
airline operations and non-commercial operations which do not 
carry members of the general public.
    The primary difference is that we general aviation 
operators know personally everyone on our aircraft. As a GA 
operator, I am concerned about several provisions in the 
proposal. I would like to briefly mention three of them.
    A first concern is the prohibition of more than 80 items 
from being carried on board. This plan would dramatically 
restrict the productivity of many businesses. Some wouldn't be 
able to carry their own necessary equipment or their own 
products.
    A second major concern is the proposal to establish a 
third-party compliance audit program. Some business airplane 
operators have told me this proposal would actually decrease 
security, since businesses would now be required to reveal 
internal security procedures to outside parties. I am also 
concerned with the requirement to constantly vet our passengers 
against a no-fly list that, at times, has proven to be 
inaccurate or incomplete. We know our passengers. They are our 
employees and our customers.
    I believe that general aviation security would be best 
enhanced by the TSA establishing a rulemaking committee to 
address the questions and concerns raised by industry and the 
public on the LASP. This type of forum, often used by the FAA 
and other Government agencies, has proven benefits.
    Since the events of 9/11, the general aviation community 
has been very proactive in developing and implementing a large 
number of workable and effective security measures. What 
general aviation operators seek, and America needs, are 
measures that do not represent a needless sacrifice in liberty 
without a benefit to society.
    The freedom of movement of private citizens has always been 
one of our great American ideals. We are confident that we can 
ensure security without sacrificing that ideal.
    Thank you, and I am happy to address any questions you may 
have.
    [The statement of Ms. King follows:]
                   Prepared Statement of Martha King
                             July 15, 2009
    Chairwoman Jackson Lee, Ranking Member Dent, Members of the 
subcommittee, good afternoon. This is the first time I have testified 
before a Congressional subcommittee and it is a privilege to be here 
before you today.
    My name is Martha King, and I am co-owner and co-chairman along 
with my husband John--of King Schools, Inc. which is a family-owned 
business located in San Diego, CA. Our company produces CD-ROM, DVD and 
web-based training courses for pilots in training. I say with some 
pride that it has been estimated that nearly every pilot has taken one 
of our courses during their flying career. We launched our pilot 
training business out of our home more than 30 years ago.
    In addition to being type rated in our company airplane, a Dassault 
Falcon 10, I also hold every category and class of FAA rating on my 
pilot and instructor certificates. I regularly fly everything from jet 
and piston airplanes and helicopters to weight-shift trikes and powered 
parachutes. I also pilot blimps from time to time.
    Since 1996, King Schools has been a member of the National Business 
Aviation Association (NBAA). I am pleased to appear today on behalf of 
the Association which represents over 8,000 diverse companies with only 
one thing in common--they all depend on general aviation aircraft to 
help them address some of their business travel challenges.
    My husband and I would not have been able to build our business, or 
conduct our now world-wide small business enterprise, without the use 
of a general aviation airplane for business. Our plane is critical to 
the survival of our company and the customers we serve.
    For example, King Schools provides the computer-based pilot 
training materials for some 300 flight schools throughout the United 
States that serve as Cessna Pilot Centers. These small independent 
businesses prefer to be located on small general aviation airports at 
some distance from airports served by the airlines, because that is the 
best location to conduct flight training. We visit these flight schools 
regularly in order to give marketing and business development talks to 
the flight school owners and employees, and occasionally take software 
engineers and technical support staff to solve our customers' computer 
and networking issues.
    As an additional example, because of our relationship with these 
approximately 300 Cessna Pilot Centers we have the need to visit often 
with the Cessna Aircraft Company in Wichita, Kansas. By using our 
company airplane, we can take eight members of our small management 
team from San Diego to Wichita in the morning, and return our staff to 
San Diego that same night. In a small company like ours, it is 
important that we minimize the duration of time our management team is 
out of the office. The airplane helps us turn travel time into work 
time and limit our employees' time out of the office. This productivity 
would not be possible using the airlines.
    My story is a familiar one--every Member of this subcommittee has 
businesses in your State with a story similar to ours.
    You don't often hear about companies like King Schools when you 
hear discussions about business aviation. People tend to exclusively 
focus on large companies when in reality large companies represent only 
a small portion of business aviation operators. For every large company 
that operates a business airplane, there are 8 or 9 companies like 
mine--small and mid-size companies that provide jobs and bring commerce 
to communities all across the United States.
    I know that you invited me to be here today to talk not only about 
the benefits of business aviation, but also about the important issue 
of general aviation security and the pending TSA rulemaking known as 
the Large Aircraft Security Program or ``LASP.'' My long experience as 
a businesswoman, aviator, and flight instructor gives me additional 
insight into some of the challenges general aviation faces in today's 
economic, political, and regulatory environment. So I am pleased to 
have the opportunity to be with you today to be part of this discussion 
on general aviation security.
    Let me be clear. The general aviation community is committed to the 
security of our national transportation system. We want to be a partner 
with the Federal Government on reasonable, workable, and effective 
regulations that simultaneously ensure security and facilitate general 
aviation operations.
    Since the events of 9/11, NBAA and indeed the entire general 
aviation community has been very proactive in enhancing security by 
developing and implementing a large number of workable and effective 
security measures. We have worked closely with several Government 
agencies including the Department of Homeland Security (DHS) and the 
Transportation Security Administration (TSA) and this partnership 
approach has produced tangible results. The security measures we have 
implemented include an AOPA Airport Watch program, the monitoring of 
aircraft financing transactions, a new requirement for government-
issued, tamper-proof photo-IDs for pilots, and guidelines for security 
at general aviation airports. In addition, 5 years ago, NBAA members in 
the NY area voluntarily initiated a pilot program to design a security 
program specifically for operations in that area.
    We believed that these collaborative efforts would set the 
foundation for a reasonable and effective Large Aircraft Security 
Program, which we all understood the TSA to be developing. 
Unfortunately, that turned out not to be the case. The community was 
not only disappointed but alarmed when TSA issued its Notice of 
Proposed Rulemaking (NPRM) known as the ``Large Aircraft Security 
Program'' (LASP) in October, 2008. Their proposed rule clearly 
reflected a lack of basic understanding of general aviation.
    Let me give you two clear examples: First, it appeared to ``cut-
and-paste'' security measures specifically designed for commercial 
operations onto non-commercial general aviation operations. The 
proposed rule did not demonstrate even a basic understanding of the 
vast differences between commercial operations, and non-commercial 
general aviation operations which, among other things, do not carry 
unknown members of the public. The failure to understand and recognize 
these fundamental differences can lead to absurd results. For example 
can you imagine a company that makes tools not being able to take the 
tools they make on the plane they own? Secondly, the Large Aircraft 
Security Program as it has been proposed would apply to very small 
airplanes--airplanes that are one-twentieth the size of the smallest 
airplane used in the 9/11 attacks.
    I do want to point to one area of agreement--for over 2 years, the 
TSA has repeatedly indicated that pilot identification has been the 
agency's primary focus in the development of a general aviation 
security protocol. NBAA members recognize the value and endorse the 
concept of pilot background checks. We stand ready to work with TSA to 
further define and implement this proposal.
    As a general aviation operator, I am most concerned about several 
of the proposed mandates contained in the current LASP proposal. These 
include:
  <bullet> The proposal to include a list of more than 80 ``prohibited 
        items'' which could no longer be carried on-board GA aircraft. 
        Many of these items are routinely carried aboard because they 
        are central to the business needs of the operator. As I 
        mentioned before it makes little sense for a company sending a 
        team of employees to fix a problem with a customer's assembly 
        line to be unable to access their tools during a flight--or a 
        company to not be able to use their own products during flight 
        as they prepare for a sales presentation.
  <bullet> The LASP would also require owners/operators of some 
        airplanes to develop procedures to carry a Federal air marshal 
        when told to do so by the TSA. Here again, this proposal shows 
        a lack of understanding of the general aviation community since 
        every business operator knows who is on-board their aircraft at 
        all times.
  <bullet> The proposed LASP rule proposes to establish an external 
        third-party audit program to measure compliance with the rule. 
        We believe that ``contracting out'' such security functions to 
        oversee the application of TSA's No-Fly and Selectee list and 
        to conduct compliance audits is contrary to our national 
        homeland security goals.
  <bullet> The requirement to constantly vet our passengers against a 
        no-fly list that at times has proven to be inaccurate or 
        incomplete. We know our passengers. They are our employees and 
        our customers.
    In response to the proposed LASP rulemaking, the TSA received over 
7,000 public comments including a letter from Committee Chairman 
Thompson as well as other letters from many House and Senate Members 
expressing concern with the proposal.
    Following release of the LASP NPRM and in recognition that the TSA 
proposal was seriously flawed and needed to be modified, NBAA joined 
with other general aviation associations in requesting that the TSA 
establish a rule-making committee to address questions and concerns 
raised by industry and the public on the LASP.
    We greatly appreciate the support which we received from Members of 
Congress for such a working group. We continue to believe that this 
type of forum--often used by the FAA and other Government agencies--
would be beneficial for the development of the LASP, and we hope that 
the TSA will consider the proven benefits of utilizing the ``rulemaking 
committee'' mechanism going forward.
    As the subcommittee is aware, the TSA also held a series of 
listening meetings across the United States to receive additional 
public testimony from hundreds of other concerned parties.
    My husband John attended the TSA listening session in Burbank, CA 
last January, and provided comments for the record. I believe his 
comments on our commitment to aviation security are shared by the 
general aviation community at large when he stated that:

``My wife and I operate an airplane that weighs more than 12,500 
pounds--still it weighs less than 10% of the weight of a Boeing 737. 
When applied to private operators like us, these proposed regulations 
are pointless. You asked earlier about what security procedures are in 
place. Our airplane is located at a secondary airport, but it is fenced 
and gated and has 24-hour security. The airplane is in a locked hangar. 
The airplane itself is locked and the steering system is disabled. But 
what is more important, we already have in place the best security 
system possible--we personally know every one of our passengers. And we 
are not going to allow an unknown person into our airplane, even at the 
point of a gun. You see, we have all learned from 9/11 that the days of 
complying with hijackers, and living through the experience, are 
over.''

    We appreciate that TSA made those additional forums available for 
the public to ask questions and express concerns with the LASP 
proposal. Following those meetings, the TSA and the general aviation 
stakeholders have held three additional listening sessions to further 
discuss our outstanding concerns with the current proposed LASP rule. 
These meetings were insightful, deliberative, and valuable to both 
industry and I believe the TSA. I'm encouraged by reports of the 
progress made since February and by Mr. Sammon's comments today.
    It is regrettable that these types of open exchanges didn't occur 
prior to the release of the LASP as I believe that the proposal would 
have looked significantly different. I am hopeful that TSA's commitment 
to releasing a revised LASP proposal for another round of public 
comment shows renewed commitment to developing a reasonable, effective, 
and implementable security program.
    I'm looking forward to reviewing TSA's revised proposal as part of 
the next public comment period and hopefully we'll all see a more 
rational approach to general aviation security. Adoption of TSA's 
current LASP proposal would most surely create significant economic and 
operational burdens for general aviation operators and to many American 
businesses--like mine--that rely on general aviation aircraft to 
support their businesses and the economic base that is so vital in 
today's difficult economic environment.
    I would also like to express our congratulations and appreciation 
to the Members of the Homeland Security Committee for your hard work 
and efforts in crafting HR 2200, the TSA Authorization bill. We are 
pleased that this important legislation creates an Aviation Security 
Advisory Committee (ASAC) for aviation stakeholders and a ``General 
Aviation Working Group'' within the ASAC to give the GA community a 
forum to formulate recommendations on GA security proposals for TSA 
consideration.
    Chairwoman Jackson Lee, in closing, I want to reiterate the general 
aviation community's commitment to ensuring that we continue to operate 
in a secure environment. We were pleased that the recent Department of 
Homeland Security report by the Office of the Inspector General--which 
you requested--effectively summarized the current state of general 
aviation security. It reports that general aviation ``presents only 
limited and mostly hypothetical threats to security'' and, that actions 
taken by GA airports and operators are ``positive and effective.'' We 
are especially mindful of the responsibility that we as a community 
have to maintain and improve those efforts.
    I also want to express my appreciation and that of all the members 
of the National Business Aviation Association (NBAA), to you, 
Chairwoman Jackson Lee, Ranking Member Dent and the Members of House 
Homeland Security Committee for your on-going support for general 
aviation. You have been most helpful in working with us on the LASP and 
other issues of concern to general aviation.
    Please be assured that the general aviation community is committed 
to working in partnership with this subcommittee, the Congress and the 
administration in developing and supporting reasonable and effective 
aviation security measures.
    The freedom of movement of private citizens has always been one of 
our great American ideals. We are confident that we can ensure security 
without sacrificing that ideal.
    I look forward to responding to any questions you might have. Thank 
you.

    Ms. Jackson Lee. Thank you, Ms. King. We appreciate your 
testimony.
    I now recognize Mr. Olislagers to summarize his statement 
for 5 minutes. Thank you.

    STATEMENT OF ROBERT P. OLISLAGERS, EXECUTIVE DIRECTOR, 
                       CENTENNIAL AIRPORT

    Mr. Olislagers. Good afternoon, Madame Chairwoman, Ranking 
Member and Members of the committee. My name is Robert 
Olislagers, and I am executive director at Centennial Airport, 
which is located in the metropolitan area of Denver. I wish to 
thank you for the opportunity to appear before you here today 
regarding the general aviation security program, as well as the 
Large Aircraft Security Program.
    Before I begin my testimony, I would like to thank the 
committee and the committee Members for your continued support 
on this issue. The provisions in H.R. 2200 could foster the 
kind of cooperative relationship that we are seeking with TSA. 
We also appreciate the security grant program as part of H.R. 
2200. It is equally important and very much appreciated.
    I would also like to thank Mr. Sammon for his personally 
leading the stakeholder meetings following the closure comment 
period of the NPRM. His open and pragmatic approach certainly 
was refreshing. We hope that that will carry forward in the 
revised NPRM when issued.
    By way of background, I served on the working group of the 
Aviation Security Advisory Committee, which drafted the 
Security Guidelines for General Aviation Airports. I have also 
managed General Aviation airports for the last 25 years. At 
present, I manage one of the busiest GA airports in the 
country. I also studied national and international security at 
the Air War College and at Harvard University.
    I believe that progress has been made with respect to 
general aviation airport security, including the recommendation 
that the TSA reconvene the working group to update the Security 
Guidelines for General Aviation Airports. It appears that that 
suggestion is resonating with the TSA.
    That said, while the industry does not question that 
potential threats exist, I remain concerned with the over-
emphasis on the threat and the threat posed by general aviation 
aircraft. I am also concerned about associated program costs, 
irrespective of the state of the current economy, as well as 
the erosion of civil liberties.
    Specifically, the NPRM-stated reason for the proposed rule 
contradicts TSA's own intelligence evaluation and conclusions. 
The TSA states that the reason for the NPRM is that the TSA is 
aware that, as vulnerabilities within the air carrier and 
commercial industry are reduced, GA operations become more 
attractive targets. However, this is in direct contradiction 
with the assessment by the TSA Office of Intelligence and the 
recent 2009 report by the IG makes the same finding.
    Another point I would like to make is that the NPRM 
constitutes, in our opinion, an unfunded mandate pursuant to 
the Unfunded Mandate Act of 1995. Just at Centennial Airport 
alone, we estimate the law enforcement cost--nothing else, just 
the law enforcement cost--to run between $300,000 at the very 
low end, up to $1.3 million per year. That would amount to a 
current operating level somewhere around $60 to $80 per landing 
or takeoff for each aircraft coming into Centennial Airport. It 
basically amounts to double taxation.
    The NPRM ignores privacy laws and private property rights. 
We are very concerned, and this is one of the more complex 
aspects of the NPRM. But it touches on both conflicts with 
other laws as well as Federalism issues. I am not an attorney. 
However, extensive case law suggests that citizens enjoy 
extraordinary legal protections related to private property, 
privacy rights, as well as due process. For this reason, we 
recommend that the privately owned aircraft be exempt, and that 
the NPRM focus only on publicly operated aircraft for the most 
stringent initiatives.
    The NPRM also may inadvertently force some airports that 
are unable to comply with the NPRM as proposed to violate 
Federal Aviation Administration grant assurances, and also be 
in noncompliance with Federal commerce law relating to 
interstate access, possibly resulting in becoming ineligible 
for airport improvement program funding or becoming subject to 
other punitive actions.
    The NPRM also proposes an aircraft weight threshold not 
supported by the facts. The proposed weight threshold of 12,500 
pounds is at least 50 percent below TSA's own classified throw 
weight analysis and well below the industry recommended weight 
thresholds. Industry recommends that the threshold be at least 
100,000 pounds or more. I can go into greater detail if you 
would like.
    In conclusion, regarding the NPRM, we do not question that 
potential threats exist, but these must be weighed against 
mitigations already in place, including voluntary as well as 
mandatory, the threat to national security, and their likely 
probability. If the TSA is indeed serious about taking a more 
pragmatic approach to managing who flies the aircraft, who is 
on-board the aircraft and what is on-board the aircraft--as 
Administrator Sammon said, a more aircraft-centric approach--
then the industry sees no need for costly airport security 
measures that do not demonstrably improve security.
    However, the effectiveness of a layered approach to 
security compels general aviation airports to play a value-
added role in security. For this reason, we reiterate the 
recommendation that TSA reinstate the working group and update 
the Security Guidelines for General Aviation Airports in lieu 
of the airport security requirements proposed in the NPRM.
    This concludes my prepared remarks. Thank you very much for 
your time.
    [The statement of Mr. Olislagers follows:]
               Prepared Statement of Robert P. Olislagers
                             July 15, 2009
    Good afternoon, Madame Chairwoman, Ranking Member, and Members of 
the committee, my name is Robert Olislagers and I am Executive Director 
of Centennial Airport, located in the Denver metropolitan area. I wish 
to thank you for the opportunity to appear before you today regarding 
General Aviation Security.
    Before I begin my testimony, I would like to thank the committee 
and committee Members for your continued interest in this issue. As 
many of you have pointed out over the past several months, the lack of 
collaboration with general aviation airports and the general aviation 
industry has brought us to this point. As was illustrated very clearly, 
effective security requires TSA and industry to work closely together 
toward common goals. The provisions you have constructed as part of 
H.R. 2200 to establish stakeholder working groups to address general 
aviation security and other important security issues could foster the 
kind of cooperative approach that was initially missing as TSA 
developed the NPRM. Your efforts to create a general aviation security 
grant program as part of H.R. 2200 is equally important and much 
appreciated.
    I would also like to express my appreciation to TSA Assistant 
Administrator John Sammon for personally leading several stakeholder 
meetings following the conclusion of the NPRM public comment period. I 
participated in two of the three meetings and his open and pragmatic 
approach was particularly refreshing. The general aviation industry, 
including the airport community, look forward to seeing this pragmatism 
carried forward in the much-anticipated reissue of the NPRM.
    By way of background, I served on the Working Group of the Aviation 
Security Advisory Committee (``ASAC'') and assisted the TSA in drafting 
the ``Security Guidelines for General Aviation Airports''. I have 
managed General Aviation (``GA'') airports for 25 years and at present, 
I manage one of the largest and busiest GA Reliever airports in the 
United States. I also studied national and international security at 
the Air War College and Harvard University, and I am a published author 
on the subject of GA airport security. I served as the Principal 
Investigator for the only GA security research grant ever issued by the 
TSA and previously chaired two aviation security research projects on 
behalf of the National Academy of Sciences, Transportation Research 
Board. I currently chair the General Aviation Security Working Group 
for the American Association of Airport Executives (AAAE).
    I believe that progress has been made with respect to general 
aviation airport security, including the recommendation that the TSA 
reconvene the ASAC Working Group and update the Security Guidelines for 
General Aviation Airports in lieu of the NPRM recommendations related 
to airports--a suggestion that appears to resonate with TSA. However, 
while the industry does not question that potential threats exist, I 
remain concerned with the over-emphasis on ``the threat'', and the 
threat posed by general aviation aircraft. I am also concerned about 
associated program costs, irrespective of the state of the current 
economy, as well as the erosion of civil liberties. Specifically;
    (1) The NPRM stated Reason For The Proposed Rule (145) contradicts 
        TSA's own intelligence evaluation and conclusions;
      (i) Specifically, on page 181, the TSA states that the reason for 
            the NPRM is that; the ``TSA is aware that, as 
            vulnerabilities within the air carrier and commercial 
            aviation industry are reduced, GA operations become more 
            attractive targets.''\1\ However, this is in direct 
            contradiction with an assessment by the TSA Office of 
            Intelligence (``OI''), which concluded that there is little 
            evidence that terrorists have turned their attention to 
            general aviation in the United States.\2\ The recent May 
            2009 report by the Department of Homeland Security, 
            Inspector General makes the same finding.\3\
---------------------------------------------------------------------------
    \1\ Large Aircraft Security Program, Other Aircraft Operator 
Security Program, and Airport Operator Program, Federal Register TSA 
Docket 2008-0021. P. 145
    \2\ Civil Aviation Threat Assessment. Transportation Security 
Administration, Office of Intelligence. December 30, 2008 (U/FOUO), 
Appendix A, P. 2.
    \3\ TSA's Role in General Aviation Security. Department of Homeland 
Security, Office of the Inspector General. OIG-09-69, May 2009. P. 28, 
29.
---------------------------------------------------------------------------
      (ii) General aviation is an asymmetric business and unlike 
            commercial airlines with very predictable time schedules 
            and routines, general aviation behavior is random and too 
            unpredictable for terrorists to conduct training exercises 
            that lead to well-planned attacks with a high degree of 
            success.
      (iii) Unlike the commercial aviation sector, the vast majority of 
            pilots and passengers flying on general aviation aircraft 
            are known to aircraft and airport operators. Therefore, the 
            focus should be on the small number of unknown travelers, 
            including any unusual situations, transactions, or 
            behavior.
    (2) The NPRM proposes to make mandatory what is already in place 
        without demonstrating the efficacy [or lack thereof] of the 
        existing combination of mandatory and voluntary initiatives, 
        including a cost benefit analysis;
      (i) Specifically, the NPRM suggests that the GA industry is 
            mostly unregulated, and that this presents a risk (145). We 
            know in fact that GA is highly regulated, including 
            security. I will not repeat all the mandatory and voluntary 
            security initiatives that have been implemented since 9/11; 
            however, it appears that the TSA issued this NPRM without a 
            comprehensive vulnerability assessment of the GA industry 
            that takes into account the effectiveness of all mandatory 
            and voluntary initiatives implemented to date.\4\ We 
            believe therefore that it is premature to conclude that 
            this proposal is in fact, needed.
---------------------------------------------------------------------------
    \4\ For example, the TSA is just now in the process of reviewing 
data of vulnerability assessments at 100 GA airports through a pilot 
program.
---------------------------------------------------------------------------
      (ii) Ancillary, the TSA did not provide a cost/benefit analysis 
            in the NPRM that justifies the cost of implementing the 
            NPRM against the efficacy of the existing mandatory and 
            voluntary initiatives.\5\
---------------------------------------------------------------------------
    \5\ It should be noted that former DHS Secretary Chertoff often 
spoke about ``measurable programs'' and therefore this standard should 
apply to this DHS/TSA-crafted NPRM.
---------------------------------------------------------------------------
    (3) The NPRM constitutes an Unfunded Mandate pursuant to the 
        Unfunded Mandate Act of 1995 (182);
      (i) Specifically, the TSA estimates that it will cost affected GA 
            airports $5.5 million over 10 years, while estimating its 
            own costs to implement the program at $136.6 million.
      (ii) In spite of having access to data at all U.S. reliever 
            airports, TSA relied instead on very general data to 
            conduct its fiscal impact analysis. The results are not 
            only deeply flawed but even the TSA questions its own data 
            in the NPRM (174, 175) Even more troubling is the fact that 
            the TSA did not verify its data against even one airport. 
            For this reason, AAAE conducted a survey of member airports 
            and 45 (or 18%) of the 273 Reliever Airports responded. The 
            resulting data confirmed that the TSA substantially 
            underestimated NPRM implementation costs while 
            overestimating airport revenues and, the TSA completely 
            omitted Law Enforcement Officer (``LEO'') costs.
  <bullet> 24% of Reliever Airports (``RA'') that operate 24/7 have 
        full time staff on hand, therefore,
  <bullet> 64% of RAs report having to add staff to meet ASC 
        requirements.
    Individual cost analyses are on file with AAAE for TSA's review but 
below are some of the findings of the survey:
  <bullet> 72% of airports reported ASC training costs to be no more 
        than $5,000;
  <bullet> 28% of airports reported ASC training costs to be more than 
        $10,000, with most of the larger airports reporting costs in 
        excess of $20,000, including Centennial Airport.
    But this is only part of the story:
      (iii) The TSA completely omitted from the NPRM cost analysis what 
            every airport reported would be the largest cost center, 
            which is Law Enforcement Officer (LEO) training and 
            deployment. One-third of airports surveyed indicated having 
            to enter into a reimbursement agreement with local law 
            enforcement and another 24% are uncertain of whether they 
            have to negotiate such agreements. Most Alaska airports and 
            many of the larger Reliever Airports reported estimated 
            annual LEO costs in excess of $200,000 and smaller Reliever 
            Airports estimated costs between $50,000 and $100,000. 
            Centennial Airport for example handles some 130,000 
            itinerant operations per year with aircraft weighing more 
            than 12,500 lbs. Assuming half are departures with 20% 
            deadheading, the airport would have to accommodate an 
            average of 142 aircraft per day, operating from four 
            separate Fixed Base Operators (``FBO'') The timely 
            emplaning of GA passengers is the bane of existence for GA 
            and with multiple departures from multiple locations, we 
            would need multiple LEOs in order to satisfy customer 
            throughput. We are just one example. All told,
  <bullet> 60% of airports estimated the annual NPRM cost at more than 
        $40,000, with the larger airports report costs over $200,000. 
        Centennial Airport estimates costs at more than $300,000 at a 
        minimum and as high as $1.3 million per year depending on 
        traffic volume.
  <bullet> 88% of airports told AAAE that they would pass the cost on 
        to aircraft operators;
  <bullet> 22% of RAs may have to consider giving up RA status or ban 
        large aircraft; and,
  <bullet> 15% of RAs will either close or consider closing if they 
        cannot meet the NPRM;
      (iv) The TSA also grossly overestimated revenues earned by 
            airports, with only the very largest of airports reaching 
            or exceeding the estimate cited in the NPRM. Most Reliever 
            Airports, however, report less than $500,000 in annual 
            revenues, a significant discrepancy from the $3.8 million 
            NPRM estimate.
      (v) Finally, for the record, unlike the commercial air carrier 
            sector, TSA does not propose to reimburse any costs to GA 
            airport operators to implement the NPRM, nor will TSA 
            provide screeners or other logistics support.
    (4) The NPRM ignores privacy laws and private property rights (181, 
        183); this is one of the more complex aspects of the NPRM and 
        touches both on conflicts with other laws and Federalism 
        issues. I am not an attorney; however, extensive case law 
        suggests that citizens enjoy extraordinary legal protections 
        related to private property and privacy rights. For this 
        reason, we recommend that privately owned aircraft be exempt 
        and that the NPRM focus only on publicly operated aircraft for 
        the most stringent initiatives:
      (i) Specifically, the Fourth Amendment guarantees ``the right of 
            the people to be secure in their persons, houses, papers 
            and effects'', which includes vehicles and aircraft. 
            Private aircraft do not operate with the benefit of a 
            ``Contract of Carriage'' as is the case with commercial air 
            carriers, and passengers on private aircraft therefore do 
            not waive any rights as such. Warrantless searches are not 
            automatic with respect to private aircraft; however, 
            although there is no case law at this time that would deny 
            or uphold the right of law enforcement to conduct 
            warrantless searches involving private aircraft without 
            probable cause, the issue nevertheless requires substantial 
            justification.
    While the United States Constitution does not use the word 
``privacy,'' our courts have identified the interests of Americans in 
their individual privacy as flowing from a number of constitutional 
provisions. Most importantly, the Fourth Amendment protects Americans 
from ``unreasonable search and seizure'' by the Government of their 
``persons, homes, and effects,'' including many types of personal 
information. To be sure, the Fourth Amendment does not prohibit 
entirely Government collection and use of individuals' protected 
information. It does, however, require that any such intrusion be 
justified by a valid governmental interest in having and using the 
collected information, that such collection only be as intrusive as 
necessary to accomplish the Government's legitimate interest, and that 
the information be handled, protected, used, and destroyed reasonably.
    Historically, constitutional justification for intrusive airport 
security measures, notwithstanding the Fourth Amendment's warrant 
requirement has rested in significant degree on the so-called ``special 
needs'' exception. Beginning in the 1970s, our courts recognized the 
need for warrantless searches and seizures at commercial airports in 
the wake of a wave of aircraft hijackings. However, courts were only 
willing to recognize such an exception--and permit new warrantless 
searches and seizures at airports--based on evidence of a real and 
substantial threat to human life, public safety, and U.S. national 
security and foreign relations. Even after September 11, 2001, our 
courts have consistently held that, for the ``special needs'' exception 
to apply, in addition to other conditions being met, there must be some 
showing of a distinct or definite threat, although, for air threats, 
specific intelligence concerning a threat to any particular flight is 
not necessary for generalized security measures.
    Further, to pass constitutional muster under the ``special needs'' 
exception, a security program must intrude on Americans' privacy and 
civil liberties interests to the minimal extent necessary to protect 
against the threat and the program must be expected to be effective. In 
other words, the Government's interest in preventing the potential 
harm, and the reasonable expectation of effectiveness of the proposed 
measures must be balanced against the intrusion on Americans' privacy 
and liberty likely to result.
    In light of these requirements for ``special needs''-justified 
searches and seizures, the lack of a valid threat assessment and 
seemingly little consideration of relevant privacy and civil liberties 
interest, balance, or effectiveness in the NPRM, is troubling.
    (5) The NPRM may inadvertently force some airports to violate 
        Federal law (181);
      (i) Specifically, the NPRM may force GA airports unable to comply 
            with the NPRM to violate Federal Aviation Administration 
            Grant Assurances and be in non-compliance with Federal 
            commerce law relating to Interstate access, possibly 
            resulting in becoming ineligible for AIP funding or 
            becoming subject to other punitive actions.
    (6) The NPRM proposes an aircraft weight threshold not supported by 
        the facts;
      (i) Specifically, the proposed weight threshold of 12,500 lbs is 
            at least 50% below TSA's own classified throw weight 
            analysis and well below industry recommended weight 
            thresholds.\6\ Industry has concluded that 100,000 lbs is 
            more appropriate.
---------------------------------------------------------------------------
    \6\ Although the TSA throw weight analysis remains classified, TSA 
nevertheless concluded that a threshold weight of 25,000 lbs was more 
appropriate, acknowledging that the lightest of aircraft do not have 
the kinetic energy to cause much damage. However, TSA also concluded 
that 10,000 gallons of fuel (approx. 1,500 lbs of fuel) had sufficient 
kinetic energy to cause significant damage. Applying both thresholds it 
would appear that a higher weight threshold is warranted. In a national 
security assessment I prepared for the TSA, I concluded that a throw 
weight threshold of 100,000 lbs was more appropriate.
---------------------------------------------------------------------------
                   in conclusion (regarding the nprm)
    Many individuals and entities have provided separate verbal and 
written responses that provide greater detail than was possible here 
today. That said, I believe that it has been demonstrated that this 
NPRM as written, is seriously flawed because of the numerous 
discrepancies noted in this response. It is flawed not only by virtue 
of the fact that the NPRM contained an overwhelming 44 unresolved 
questions posed by the TSA; its use of highly questionable data, faulty 
and incomplete financial analyses without the benefit of verification, 
is very disturbing. Most disturbing is the fact that the NPRM appears 
to contradict TSA's own intelligence assessment, which, coupled with 
the lack of sound threat assessment in view of existing security 
mandates and initiatives, makes this NPRM a leap of faith rather than a 
well-executed plan to improve security. We do not question that 
potential threats exist, but these must be weighed against mitigations 
already in place; the threat to national security; and, their likely 
probability.
    If the TSA is indeed serious about taking a more pragmatic approach 
to managing who flies the aircraft; who is on-board the aircraft; and, 
what is on-board the aircraft, the industry sees no need for costly 
airport security measures that do not demonstrably improve security. 
However, the effectiveness of a ``layered approach'' to security 
compels general aviation airports to play a value added role in 
security. For this reason, we reiterate the recommendation that TSA 
reinstate the Aviation Security Advisory Committee Working Group and 
update the Security Guidelines for General Aviation Airports in lieu of 
the airport security requirements proposed in the NPRM.
         supplemental comments regarding security directive 08g
    The general aviation industry continues to have concerns with the 
use of Security Directives (``SDs'') for the purpose of issuing new 
rules. The recent release of SD 08G and the numerous questions it has 
raised within the general aviation community is a case in point. 
Specifically, the SD has raised a host of issues concerning the 
potential need for multiple badges, the treatment of pilots who fly 
into regulated airports for after-hours fueling, and the like. While 
TSA is said to be addressing some of the concerns raised by the general 
aviation community, there remains a startling lack of communication and 
collaboration concerning the implementation of this SD.
    Beyond the specifics of this particular SD, there is a broader 
policy question regarding the use of Security Directives as a means of 
implementing policy by TSA. Through the utilization of SDs, TSA can 
effectively bypass collaborative efforts and limit the ability of 
industry to comment on such changes. As our experience with the Large 
Aircraft Security Program NPRM has illustrated so vividly, effective 
policy and results are best achieved when TSA and industry work 
together toward common goals.
    This concludes my prepared remarks.
    Thank you for your time.

    Ms. Jackson Lee. Mr. Olislagers, we do thank you for your 
testimony.
    I now recognize Mr. Rogalski to summarize his statement for 
5 minutes.

 STATEMENT OF JEREMY ROGALSKI, INVESTIGATIVE REPORTER, KHOU-TV

    Mr. Rogalski. Thank you, Madame Chairwoman, for the 
opportunity to discuss our investigative report which aired in 
February 2007. KHOU-TV's initial approach was quite simple: Go 
to general aviation airports and see if you can get in. If so, 
how far in could you get? As you have seen, the result was some 
GA airports were practically wide open to someone potentially 
stealing an executive-sized jet, taking off, and turning it 
into a lethal weapon.
    Acting on a tip from inside the aviation industry, KHOU-TV 
investigative photojournalist, Keith Tomshe, and I visited 
three GA airports in the Houston area. Using undercover 
cameras, we captured how easy it was to gain access into these 
facilities and to aircraft with doors left wide open--aircraft, 
I should mention, with auxiliary power units plugged in; 
aircraft with unobstructed pathways to the tarmac and the 
runway.
    At one airport, we walked right through an unlocked door 
and walked right up to an unlocked executive jet. At another, 
we parked just yards away from a regional commercial jet and 
walked right up to it--no fences, no security, no questions. At 
another, it had a security gate and call box. But both proved 
seemingly worthless on our visits, as evidenced by 
Photojournalist Tomshe's comments to gain access.
    Can you open her up for me? I am here to see the plane. I 
was here last week. In both cases, the gate opened, and we were 
next to a hangar and those aircraft with doors wide open.
    But KHOU-TV also uncovered the one thing that no one seemed 
to want to talk about in Houston, and that the DHS Office of 
Inspector General failed to address as well in its recent 
study. That is our area is a target-rich environment that 
potentially makes us particularly vulnerable for a particular 
type of terrorism.
    Why crash a plane into a building when the Houston area, 
the Houston ship channel to be specific, is littered with 
million-gallon containers of toxic chemicals right next to a 
vulnerable population center--containers that chemical plant 
engineers say could easily be ruptured by a small jet, a jet 
under 12,500 pounds; containers that often are no more than a 
half-inch thick; containers that, in the words of one veteran 
chemical engineer, would ``tear like tin foil from the kinetic 
energy alone, irrespective of fuel or weight-carrying 
capacity.''
    In fact, we discovered deadly chlorine gas, a certain type 
of nerve gas and many other dangerous chemicals stored all 
around Houston. To quote a 2004 Homeland Security Council 
study, that study showed at least 17,000 people could die in 
such a strike from the ensuing toxic vapor cloud.
    Also, as we stated in our report, Mohamed Atta, the 
purported ringleader of the 9/11 hijackings had been 
considering a similar sort of attack for years. We have 
attached a verbatim transcript of our original report as well 
as a follow-up report we did 3 weeks later in 2007.
    In that, I should mention, a corporate tenant at one of the 
airports we featured was quickly in the process of taking 
action--installing $100,000 in security upgrades, including a 
barbed wire chain link fence, cameras, infrared and motion 
sensors. In that follow-up report, I should add, then-DHS 
secretary, Michael Chertoff, promised to ``turn up the 
temperature on the general aviation industry.''
    Thank you for your time. I will be happy to answer any 
questions.
    [The statement of Mr. Rogalski follows:]
                 Prepared Statement of Jeremy Rogalski
                             July 15, 2009
    Madame Chairwoman and Members of the committee: Thank you for the 
opportunity to discuss our investigative report, ``Airport Insecurity'' 
which first aired February 2, 2007.
    KHOU-TV discovered while commercial airports all over the country 
had been forced to make millions of dollars in security upgrades since 
9/11, smaller general aviation airports remained unchanged. In fact, we 
found they were practically wide open to someone stealing a corporate 
to mid-size jet, lifting off, and turning it into a weapon.
    Acting on a tip from inside the aviation industry, KHOU-TV 
Investigative Photographer Keith Tomshe and I visited three general 
aviation airports in the Houston area. Using undercover cameras, we 
captured how easy it was to gain access into these facilities and to 
aircraft with doors left wide open and an unobstructed pathway to the 
tarmac.
    At Hooks Airport in Northwest Harris County, we walked right 
through an unlocked door and into a hangar containing an unlocked 
executive jet. At Lone Star Executive Airport, about an hour north of 
Houston, we parked just yards away from a regional commercial jet and 
walked right up to it--no doors, no fences, no security, no questions. 
At Sugarland Regional Airport southwest of the city, it had a security 
gate and call box. But both proved worthless on our visits, as 
evidenced by our comments to gain access:
    First visit: ``Can you open 'er up?'' (Gate Opens).
    Second visit: ``I'm here to see the plane I was here last week'' 
(Gate Opens).
    In addition, we consulted with numerous security experts so as to 
ascertain was this scenario a real threat? Indeed terrorism experts, a 
former Inspector General for the FAA, structural engineers, industrial 
chemists, and others all confirmed that in these situations, one could 
indeed take these planes and do effective terrorism with them.
    Part of the reason for that was something else KHOU-TV uncovered: 
That our area was a target-rich environment that made us ``a sitting 
duck'' for a particular kind of terrorism. Why crash a plane into a 
building when the Houston area is littered with million-gallon 
containers of toxic chemicals right next to a vulnerable population 
center? In fact, we found deadly chlorine, a certain type of nerve gas, 
and many other dangerous fluids stored all around Houston, and 
uncovered a Government study showing at least 17,000 people could die 
in such a strike. Again, we confirmed with chemical plant security 
experts that nearly all such plants were vulnerable to a plane crash 
attack. We also interviewed structural engineers specializing in these 
types of plants, who agreed that a general aviation plane could easily 
pierce and explode one of the many huge containers lining the Houston 
Ship Channel. Finally we also brought in one of the leading national 
experts on such scenarios, Dr. Jay P. Boris of the Naval Research 
Laboratory, to examine our local landscape. Using computer-modeling 
programs to assess the possibilities and outcomes of an attack in our 
city, Boris concluded such an attack would be ``far worse than 9/11.''
    And one more thing: Mohammad Atta, the self-proclaimed ringleader 
of 9/11, and his cohorts had been considering a similar sort of attack 
in the years leading up to that tragic day. Various news reports, 
security reports, and counter-terrorism experts we consulted confirmed 
this.
    Attached is the verbatim transcript of our February 2, 2007 report 
as well as a follow-up report which aired February 22, 2007.* In that, 
Wing Aviation, a corporate tenant at Lone Star Executive Airport, was 
in the process of installing $100,000 in security upgrades. 
Additionally, DHS Secretary Michael Chertoff promised to ``turn up the 
temperature'' on the general aviation industry.
---------------------------------------------------------------------------
    * Attachments have been retained in committee files.
---------------------------------------------------------------------------
    I will be happy to answer any questions you may have.

    Ms. Jackson Lee. Mr. Rogalski, thank you for your 
testimony.
    I now recognize Mr. Van Tine to summarize his statement for 
5 minutes.
    Mr. Van Tine.

   STATEMENT OF MARK VAN TINE, PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, JEPPESSEN, INCORPORATED

    Mr. Van Tine. Thank you. Chairwoman Jackson Lee, Ms. 
Norton, distinguished Members of the subcommittee, my name is 
Mark Van Tine. I am president and chief executive officer of 
Jeppessen and chairman of the General Aviation Manufacturers 
Association for 2009.
    Jeppessen is a wholly owned subsidiary of the Boeing 
Company and is based in Englewood, Colorado. For more than 75 
years, my company has provided navigation charts, electronic 
databases, and other information services to general aviation 
and commercial airlines around the world. We serve more than 1 
million pilots globally. I am also an active general aviation 
pilot.
    That said, I appear here today primarily in my capacity as 
the current chairman of GAMA. General aviation is an important 
contributor to the U.S. economy, supporting over 1.2 million 
jobs, and providing more than $150 billion in economic activity 
annually.
    In 2008, general aviation generated over $5.9 billion in 
exports of domestically manufactured airplanes. We are one of 
the few manufacturing industries that still provides a 
significant trade surplus for the United States.
    Madame Chairwoman, I appreciate you for convening this 
hearing and to discuss general aviation security issues. GAMA 
has long been an advocate for general aviation security to be 
based on risk analysis, measuring threats, vulnerability, and 
consequences. When higher risks are identified, the appropriate 
countermeasures and security postures absolutely should be 
deployed in order to mitigate those risks.
    Since the events of 9/11, the general aviation community 
has worked diligently to increase security and raise the 
awareness of potential threats to the aviation system. A number 
of voluntary and regulatory initiatives have been put in place 
by both Government and industry, which have substantially 
increased aviation security. I included a list of these 
numerous initiatives in my written testimony.
    These initiatives have been implemented to help prevent 
terrorists from using a general aviation airplane to attack the 
United States. It is in this light that we should review the 
development of the TSA's Large Aircraft Security Program.
    When TSA issued a Notice of Proposed Rulemaking for last 
October, it generated a groundswell of negative reaction from 
the general aviation community, as well as from many Members of 
Congress; because, as it was written, it was unnecessarily 
burdensome, impractical, and did not reflect an adequate 
understanding of general aviation operations.
    I want to be very clear. The general aviation community 
does not oppose enhancing security. Rather, it believes the 
NPRM, as proposed, needs to be reworked with adequate input 
from stakeholders. We want to help the TSA develop a program 
that mitigates legitimate security risks by facilitating 
general aviation pilots and passengers to exercise their 
freedom to fly.
    We have made good progress. During two industry working 
group sessions in April and May, we were able to agree with TSA 
on a framework for the LASP rule. Assistant Administrator John 
Sammon has committed to building upon what the TSA has learned 
from these two sessions and to issue a second NPRM. We commend 
the hard work that Mr. Sammon and the staff within the general 
aviation office has put into reworking the NPRM and their 
willingness to consider our views.
    We also appreciate the strong support we received from 
Members of Congress, who have recognized our concerns and urged 
TSA to develop a more practical and effective approach. In 
particular, I want to thank Congressman Dent and Congressman 
Olson for introducing H.R. 3093, the General Aviation Security 
Enhancement Act of 2009, which would ensure stakeholder 
participation in the development of LASP.
    Madame Chairwoman, I would like you to know that GAMA is 
very concerned about TSA's liberal use of security directives 
to implement new requirements on operators that are not subject 
to the rulemaking requirements of the Administrative Procedures 
Act. For instance, TSA has issued a security directive 
mandating an expansion of security credential requirements for 
tens of thousands of pilots, employees at airports and aviation 
manufacturing facilities without prior input from these 
constituents or due process protection under APA.
    We recognize and we respect TSA's authority to issue 
security directives. However, we do not believe that TSA should 
use security directives to make policy, unless there is a 
compelling and immediate national security risk that warrants 
it.
    In closing, Madame Chairwoman, I wish to thank you for 
providing me the opportunity to appear and testify today on 
these important issues. I must say I feel strongly that if TSA, 
industry, and the Congress continues to work together on 
general aviation security issues, we will put in place a 
security system that is safe and effective, yet does not 
inhibit the freedom people enjoy today to privately use general 
aviation aircraft.
    Thank you again for allowing me to be here. I am happy to 
answer any questions you may have.
    [The statement of Mr. Van Tine follows:]
                  Prepared Statement of Mark Van Tine
                             July 15, 2009
                              introduction
    Chairwoman Jackson Lee, Ranking Member Dent, distinguished Members 
of the subcommittee; my name is Mark Van Tine and I am the president 
and chief executive officer of Jeppesen and the chairman of the General 
Aviation Manufacturers Association (GAMA) for 2009. Jeppesen is a 
wholly owned subsidiary of the Boeing Company and is based in 
Englewood, Colorado. For more than 75 years, Jeppesen has provided 
navigation charts, electronic databases, and other information 
solutions to general aviation and commercial airlines around the world. 
I appear here today in my capacity as the current chairman of GAMA.
    As the committee knows, general aviation (GA) is an essential part 
of our transportation system that is especially critical for 
individuals and businesses people needing to travel and move goods 
quickly and efficiently in today's just-in-time environment. GA is also 
an important contributor to the U.S. economy, supporting over 1.2 
million jobs, providing $150 billion \1\ in economic activity annually 
and, in 2008, generating over $5.9 billion \2\ in exports of 
domestically manufactured airplanes. We are one of the few remaining 
manufacturing industries that still provide a significant trade surplus 
for the United States.
---------------------------------------------------------------------------
    \1\ General Aviation Contribution to the U.S. Economy, Merge Global 
2006.
    \2\ 2008 General Aviation Statistical Databook and Industry 
Outlook, GAMA 2009.
---------------------------------------------------------------------------
                       general aviation security
    GAMA has long advocated for general aviation security to be based 
on risk analysis--measuring threat, vulnerability, and consequences. 
When higher risks are identified, appropriate countermeasures and 
security postures should be deployed in order to mitigate those risks. 
We also believe that this risk analysis should consider the security 
risks inherent with other modes of transportation.
    Since the events of September 11, 2001 the general aviation 
community has worked diligently to increase security and awareness of 
potential threats to the aviation system. Numerous voluntary and 
regulatory initiatives have been put into place by both Government and 
industry that have substantially increased security. For instance:
  <bullet> The TSA has published Security Guidelines for General 
        Aviation Airports that outline best practices for enhancing 
        security at GA airports.\3\
---------------------------------------------------------------------------
    \3\ TSA Information Publication A-001, May 2004.
---------------------------------------------------------------------------
  <bullet> The Twelve-Five Standards Security Program requires that 
        commercial operators of general aviation airplanes weighing 
        more than 12,500 pounds establish a formal security program 
        which is overseen by the TSA.
  <bullet> The TSA has established a hotline for the general aviation 
        community to report suspicious activity and the Aircraft Owners 
        and Pilots Association (AOPA) is actively promoting an airport 
        watch program for the community.
  <bullet> Non-U.S. citizens seeking flight training are subject to 
        background checks through the Alien Flight Student Program 
        (AFSP).\4\ Flight school employees are also required to undergo 
        security awareness training per 49 CFR 1522.23(d) to be able to 
        identify potential risks.
---------------------------------------------------------------------------
    \4\ Additional background about the AFSP is located at https://
www.flightschoolcandidates.gov.
---------------------------------------------------------------------------
  <bullet> GAMA has, in conjunction with the Department of Treasury, 
        published ``Guidelines for Establishing Anti-Money Laundering 
        Procedures and Practices Related to the Purchase of a General 
        Aviation Aircraft'' to assist in identification of suspicious 
        transactions in accordance with the USA PATRIOT Act.
  <bullet> Foreign airplanes flying into the United States are subject 
        to specific security procedures from both the TSA and Customs 
        and Border Protection and are actively monitored by the TSA 
        when operating into, within, or out of United States airspace.
  <bullet> Domestic aircraft are subject to the requirements of the 
        Electronic Advanced Passenger Information System when crossing 
        into the United States from an overseas location.
  <bullet> General aviation aircraft are subject to specific airspace 
        requirements within the Washington Air Defense Identification 
        Zone and its more restrictive Flight Restricted Zone (FRZ) 
        including restrictions at three Maryland Airports \5\ where 
        pilots are subject to additional background check and 
        procedural requirements. General aviation operators who wish to 
        fly into Ronald Reagan National Airport are required to comply 
        with the DCA Access Standard Security Program.
---------------------------------------------------------------------------
    \5\ College Park Airport, Washington Executive/Hyde Field, and 
Potomac Airfield.
---------------------------------------------------------------------------
    All of these initiatives have been put into place to help prevent a 
terrorist from using a general aviation airplane to attack the United 
States. At the same time, we would like to draw the attention of the 
committee to the Department of Homeland Security's Office of the 
Inspector General's \6\ May, 2009 report which concludes that ``general 
aviation presents only limited and mostly hypothetical threats to 
security'' and that ``the steps general aviation airport owners and 
managers have taken to enhance security are positive and effective.'' 
We appreciate the recognition by the IG and believe we have been a 
positive, proactive partner in addressing legitimate security threats.
---------------------------------------------------------------------------
    \6\ TSA's Role in General Aviation Security, OIG-09-69, May 2009.
---------------------------------------------------------------------------
               the large aircraft security program (lasp)
    The Large Aircraft Security Program (LASP) has received significant 
attention from the general aviation community and Members of Congress 
since published as a Notice of Proposed Rulemaking (NPRM) in October 
2008. The general aviation community does not oppose enhancing 
security; rather it believes that the NPRM proposed by the TSA was 
unnecessarily burdensome and did not reflect an adequate understanding 
of general aviation operations.
    For instance, under the NPRM, an individual who wishes to fly his 
or her own plane would have to pay a third-party contractor to undergo 
a background check before every flight. Not only is this needlessly 
redundant from a security standpoint, it could also substantially 
increase the cost of flying a plane. The proposed use of private 
contractors also raises important questions about privacy and 
protection of personal information and the ability of TSA to oversee 
this program. It is these types of concerns that generated a 
groundswell of negative reaction from general aviation operators across 
the country.
                             industry view
    The LASP proposal is the first time that TSA has attempted to 
regulate private travel. We believe strongly that the TSA should take 
pains to recognize this and ensure that LASP does not infringe on the 
ability of general aviation pilots and passengers to exercise their 
freedom to fly.
    In this regard, GAMA believes that any final rule should recognize 
that passengers who board general aviation aircraft are known to the 
operator and crew, and are made up of employees, guests, family 
members, and clients who typically have close ties to the operator of 
the aircraft. Unlike commercial operations, passengers in this context 
are not ``revenue service passengers'' and warrant a uniquely different 
consideration from a security vulnerability context. In assessing risk, 
the general aviation ``passenger,'' an individual known to the pilot, 
represents an inherent and significant risk reduction which should be 
recognized and accounted for by the TSA as it finishes drafting a final 
rule for LASP.
    Indeed, as a point of reference, the preamble to Federal Aviation 
Administration (FAA) NPRM ``Security Related Considerations in the 
Design and Operation of Transport Category Aircraft 14 CFR Parts 25 and 
121'' (i.e. above 12,500 pounds in scheduled commercial operations) the 
FAA states:

``Generally, airplanes in private use carry heads of state, business 
leaders, and ordinary citizens. In contrast to commercial passenger 
airplanes, access to airplanes in private use is limited to specific 
individuals, names, the owner and guests. For this reasons, these 
airplanes typically are not targets of onboard terrorists. [We] believe 
that applying the proposed requirements to airplanes in private use 
would not provide significant improvements in security.''\7\
---------------------------------------------------------------------------
    \7\ FAA NPRM RIN 2120-AI66, Docket No. FAA-2006-26722; Notice No. 
06-19.

    GAMA believes this basic philosophy should be the guiding principle 
throughout the development of the LASP and for any future regulations 
proposed for general aviation.
                steps taken to address concerns in lasp
    Over the past 8 months, our industry has raised concerns with the 
LASP and actively engaged with the TSA to help develop a program that 
appropriately balances legitimate security risks with the right of 
citizens to fly their own airplanes.
    GA manufacturers have testified at the five public hearings hosted 
by the TSA and GAMA submitted a formal position paper that was among 
7,000 comments to the docket during the public comment period. We have 
also provided TSA officials with opportunities to visit general 
aviation manufacturers to see the types of aircraft that would be 
subject to the LASP.
    We have made good progress. During two industry working group 
session in April and May set up by the Transportation Security Network 
Management (TSNM) office we were able to agree on a framework for the 
LASP rule. Assistant Administrator John Sammon \8\ has committed to 
build upon what the TSA has learned from these two sessions and issue a 
second NPRM that incorporates suggestions from stakeholders.
---------------------------------------------------------------------------
    \8\ John Sammon, Associate Administrator for Transportation 
Security Network Management (TSNM).
---------------------------------------------------------------------------
    The framework we have identified in our sessions with the TSA 
includes:
  <bullet> The establishment of a ``trusted pilot'' system that would 
        require pilots to meet certain requirements before operating 
        their aircraft if that aircraft falls within the TSA-defined 
        scope of LASP.
  <bullet> The trusted pilot would be responsible for conducting key 
        security functions for flights including identity verification 
        of known passengers and an established process for subjecting 
        unknown individuals to vetting through eSecure flight.
  <bullet> The establishment of a sensible restricted items list that 
        takes the place of the prohibited items list originally 
        proposed by the TSA.
    We commend the hard work that Mr. Sammon and the staff within the 
General Aviation Office has put in to reworking the NPRM and their 
willingness to consider our views. We also appreciate the strong 
support we have received from Members of Congress who have recognized 
our concerns and urged TSA to develop a more practical and effective 
approach. In particular, I want to thank Congressman Dent and 
Congressman Olson for introducing H.R. 3093, the General Aviation 
Security Enhancement Act of 2009, which would ensure stakeholder 
participation in the development of the LASP.
                    tsa's use of security directives
    The general aviation industry is very concerned about the TSA's 
liberal use of Security Directives to implement new requirements on 
operators that are not subject to the rulemaking requirements of the 
Administrative Procedures Act.
    The general aviation community strongly supports a risk-based, 
threat vulnerability approach to securing our national transportation 
system. However, we have seen the TSA repeatedly use Security Directive 
to vastly expand existing security requirements without consideration 
of the implementation challenges, operational impacts, and economic 
burdens these mandates impose on the aviation industry. Our most recent 
experience involves the expansion of security credentialing 
requirements to tens of thousands of pilots and employees at airports 
and aviation manufacturer facilities without any input from these 
constituencies or due process protections under the APA.
    GAMA strongly supported an amendment that was offered by 
Representative John Mica to the Transportation Security Administration 
(TSA) Authorization Act (H.R. 2200), which would require TSA to 
initiate a rulemaking process for Security Directives 6 months after 
implementation. Representative Mica's amendment provided appropriate 
discretion to TSA to waive the rulemaking process in the event of an 
emergency situation.
    We supported the Mica amendment because it struck the right balance 
between national security and due process. We recognize and respect 
TSA's authority to issue Security Directives. However, we do not 
believe that TSA should use Security Directives to make policy unless 
there is a compelling and immediate national security risk that 
warrants it.
    This is an issue of great concern to the general aviation community 
and we urge Congress to include the Mica amendment in the final TSA 
reauthorization bill.
                               conclusion
    In closing, Madame Chairwoman, thank you for your leadership on 
these issues and for inviting me to testify before the subcommittee. I 
feel strongly that if TSA, industry, and Congress continue to work 
together on general aviation security issues we will put in place an 
effective security system that does not inhibit the freedom people 
enjoy today to privately use general aviation aircraft.
    Thank you and I would be glad to answer any questions that you may 
have.

    Ms. Jackson Lee. Let me thank all of the witnesses for 
their testimony. I would like to remind each Member that he or 
she will have 5 minutes to question the panel. I now recognize 
myself for questions. I would like to also add just an 
additional welcome to all of the Members who have come and have 
been effective in contributing to our deliberations.
    I am hopeful that, in your opportunity to listen to the 
earlier testimony, and as stakeholders, many of you, that you 
have had a positive response to this committee's personal, or 
this committee's inquiry, about March 2009, to TSA, to ensure 
that the industry would have ample opportunity to engage.
    So I do want to pose a general question to all of you. I 
respect the different perspectives in which you have come. That 
is to answer the question whether or not you think, overall, 
whether security has improved at general aviation airports. 
Again, some will be speculating. Some will be based upon what 
you have heard.
    But I think the second question is even more important. 
That is, do you feel that security regulations are necessary 
for general aviation?
    Let me start with Ms. King.
    Ms. King. Thank you, Chairwoman Jackson Lee. In my personal 
observation around the airport, I find very noticeable 
increases in general aviation security in awareness of all of 
the people at the local--base operators, the people that sell 
gas and provide services; and an awareness of who is around the 
airports checking out the cars as they are let through the 
gate.
    One of the things that some people may not be aware of is 
that many of the security procedure that are enacted are not 
obvious, deliberately so, because the point of having good 
security is that some of it is obvious to stop the casual 
person. Some of it is less obvious.
    One of the points I would make is that, in our own 
aircraft, when we go on a transient basis to another airport, 
the first thing we do after we land, and the last thing, is to 
disable the steering on the aircraft for security. Also, it 
allows the operators there to tow the aircraft if they need to 
move it to allow for space.
    But, the steering is disabled. It is not obvious that it is 
disabled. The last thing we do before we leave is to enable it 
again. We may have the door open while we are loading luggage. 
But the airplane is still not stealable, if you will, because 
it is not steerable until we are back there permanently and 
ready to leave.
    So, many of the security procedures that have been put in 
place are not obvious to someone who is not knowledgeable. The 
security measures will vary depending on the model of the 
aircraft. That is just an example regarding our particular 
aircraft.
    Ms. Jackson Lee. Same question, just go right across and 
answer the question.
    Mr. Olislagers. Thank you, Madame Chairwoman. I think 
general aviation security, the awareness since September 11 has 
been raised significantly. As a result, I believe that general 
security at general aviation airports has increased.
    Should it be regulated? We believe that there is already a 
number of regulations in place, including the 12-5 Rule, large 
charters. So, going beyond that, with respect to the large 
aircraft security program, we believe that he industry has done 
an outstanding job regulating itself. I was part of the 
drafting of the guidelines for general aviation airport 
security. We believe at this point that that is sufficient.
    We are asking the TSA that working group is reconvened, so 
that we can take another look at it. Thank you.
    Ms. Jackson Lee. Mr. Rogalski.
    Mr. Rogalski. Since our report aired, Madame Chairwoman, we 
know two of the three airports we featured made voluntary 
security enhancements. As we mentioned Lone Star Executive in 
Montgomery County, north of Houston, a corporate tenant there 
made $100,000 in security upgrades. I spoke with the airport 
director as of yesterday. He informs me that an interior 
security fence has been installed, and a contract has been 
awarded to install a perimeter fence as well. That interior 
security fence has six locked gates.
    At Sugar Land Regional Airport, a spokesman there tells me 
90 percent of their small planes have been moved into a fully 
fenced-in area with locked gates accessible by authorized key 
card holders. So, in terms of the three airports we featured, 
we know two of the three have made those security upgrades. We 
have not received comment from the third airport, Hooks 
Airport.
    Ms. Jackson Lee. We know that you are not an aviation 
expert. But would you then suggest that regulations with 
oversight would be a responsible act?
    Mr. Rogalski. Respectfully, ma'am, as a news reporter, it 
is neither appropriate nor germane for me to offer an opinion. 
I can only report on the facts, shine a mirror up to those in 
the industry and those in your seats and let you decide the 
appropriate course of action.
    Ms. Jackson Lee. That is a fair enough response. We will 
take from what you reported as an offering of what you perceive 
to be facts. We will make our own decisions.
    Mr. Van Tine, your response.
    Mr. Van Tine. Madame Chairwoman, if you look at the 
response since 9/11, a lot of organizations, such as Aircraft 
Owners and Pilots Association; the National Business Aircraft 
Association; GAMA, who I am representing today; and the Airport 
Operators and all the general aviation organizations that 
represent the industry, I think it is clear that security is 
improved as a result of these different programs that have been 
put in place and the actions that they take.
    Improving security will be a never-ending goal and activity 
in our industry, in our world, as we go forward, which is why 
we must work closely with FAA and TSA to look at those 
practical risks. Risk mitigation comes from very accurate risk 
assessments. As an industry, we will take action to close and 
mitigate those risks where we can.
    At the same time, it is easy to come up with a myriad of 
scenarios that make it very difficult for us to make it 100 
percent safe. So, as an industry and organizations industry, we 
are committed to work with the Government to find ways to make 
it practical, and yet allow the free commerce and use of 
aircraft the way that we have for almost 100 years.
    Ms. Jackson Lee. I will come back. I will come back to you 
on my line of inquiry, Mr. Van Tine. I thank you for your 
answers.
    I recognize the Ranking Member, Mr. Dent, for 5 minutes.
    Mr. Dent. Thank you, Madame Chairwoman.
    For Mr. Olislagers, Mr. Rogalski's investigative report 
pointed out that he and a colleague were able to gain access to 
an airport, and that one had a substantial gap in the fence 
around the perimeter. You contend in your written statement 
that ``the industry sees no need for costly airport security 
measures that do not demonstrably improve security.'' Is it 
fair to say that you see airplanes, as opposed to airports, as 
the proper focus of additional security?
    Mr. Olislagers. Thank you. The security of general aviation 
airports is layered. I prided myself, when I first started to 
get into the flying business, when I was a little boy, just 
being very interested in aircraft, being able to walk onto an 
airport. The thing that people decry today is that all these 
airports are now shut down, and fathers can't take their kids 
out to the airport, you know, see the airplanes anymore.
    I think that is a very sad state in the industry. In fact, 
at Centennial Airport, which is one of the busiest general 
aviation airports in the United States, we continue to 
encourage folks to be able to get to their aircraft and even 
visitors to be able to get to the aircraft.
    With respect to security of airplanes, there is a complex 
series of things that happen in order to perpetrate anything 
with an airplane. It is just not simply of being able to access 
an aircraft, but being able to access a hangar, maybe, do 
something in that hangar.
    Most of our clients are known to our industry. We have 
lease agreements with them. We know who they are. They have 
been vetted properly. So we feel that the current regulations 
are sufficient. In fact, as Mr. Sammon had suggested, there 
should be a more aircraft-centric approach to security rather 
than an airport-centered approach.
    Mr. Dent. So you think it should be more aircraft- as 
opposed to airport-centric.
    Mr. Olislagers. Yes, sir.
    Mr. Dent. Do you believe that fencing around an airport's 
entire perimeter will have any substantial effect on general 
aviation security?
    Mr. Olislagers. No, sir. Just like locks on doors, they are 
for honest people only.
    Mr. Dent. So what do you say to Mr. Rogalski, then, 
regarding his finding about the general aviation airports' 
vulnerabilities in the Houston area?
    Mr. Olislagers. You know, reporters have come on-board at 
Centennial Airport on the ramp. That is just one part. I don't 
believe that that is necessarily a breach of security, grabbing 
the airplane, loading it perhaps with explosives, turning it 
into an IED. A lot of other things have to happen. We take a 
layered approach to security, simply getting on an airfield is 
very simple.
    Mr. Dent. Sure. Thank you.
    Mr. Van Tine, thank you too for being here. You mentioned 
that expanding existing security requirements will involve 
implementation challenges, operational impacts, and economic 
burdens on the aviation industry. Could you please elaborate on 
that statement? In particular, what is the nature, extent, and 
severity of the side effects to increased security 
requirements?
    Mr. Van Tine. Well again, we focus on the safe use of 
aircraft, but the efficient use of those aircraft. So, for 
example, when we look at the DNDO requirements and the 
suggestions they have for having gateway airports, which would 
require an additional stop for aircraft coming into the United 
States, it takes away the utilitarian benefit of the airplane 
as a time machine and a time--support the efficient use. We 
would put airplanes into locations, 100 nautical miles away 
from major metropolitan areas, unfortunately put some into the 
airports that don't have the facilities or the infrastructure 
to support these kind of aircraft.
    So, it is situations like that that we are concerned about.
    Mr. Dent. Will expanding existing security requirements 
exacerbate the already intense economic challenges businesses 
face every day, do you think?
    Mr. Van Tine. It certainly will.
    Mr. Dent. Finally, I have a minute left.
    To Ms. King, thank you for being here as well. I have to 
tell you, you know, when this issue first hit, many pilots have 
contacted me, but none more forcefully than my neighbor, you 
know, who actually, at 11 o'clock at night, came over and on 
the kitchen table laid it all out for me and said, my goodness, 
what are you doing?
    What is happening here in Washington to our industry? You 
are going to make it very difficult for us to fly and for me to 
maintain my job in corporate aviation. So he really made the 
point not very delicately. But he made it just the same.
    Could you please elaborate on and describe the differences 
between commercial and general aviation operations? Why do you 
think they are so different?
    Ms. King. Well, in a commercial operation, you are 
basically taking an airline operation or even a charter for 
hire. You are basically taking anyone who walks up with money. 
You don't know them. You don't know who they really are 
necessarily. You don't know what they really want.
    In an operation like ours, we are a small company. We have 
about 50 employees. The people we carry on our airplane, and 
what most general aviation business aircraft carry, are their 
employees and their customers, all of whom have been known to 
them for a significant period of time. In my case, my husband 
and I are also the pilots.
    Pilots are already vested with great responsibility for the 
safety and the airworthiness of their aircraft, and also really 
for the security; because when we take any person onto our 
aircraft, we are not like someone standing at a metal detector 
in the terminal. When we make the decision that we are going to 
take that person on the aircraft, we are betting our lives on 
the fact that we know those people well enough that nothing is 
going to happen; that we know our employees, we know our 
customers. We are in the airplane all together.
    Mr. Dent. You are not picking up any hitchhikers. I 
understand.
    Ms. King. We are not picking up any hitchhikers.
    Mr. Dent. I am going to yield back my time and just thank 
all of you for being here and just say I felt very encouraged 
about Mr. Sammon's comments today. What he told me in my office 
the other day, I feel very encouraged. I am looking forward to 
something positive occurring on this issue.
    Thanks, I yield back.
    Ms. Jackson Lee. Thank you very much.
    The Chairwoman will now recognize other Members for 
questions they may wish to ask the witnesses. In accordance 
with our committee rules and practice, I will recognize Members 
who were present at the start of the hearing based on seniority 
on the subcommittee, alternating between Majority and Minority. 
Those Members coming in later will be recognized in order of 
their arrival.
    Before I yield to the distinguished gentle lady from 
Washington, DC, I just want to make sure Mr. Van Tine is aware 
of the legislation that I offered, Transportation Security 
Legislation H.R. 2200, that really laid the groundwork for 
improving stakeholder input into security policy decisions made 
by TSA.
    I think it is important to note that, if we are to have the 
structure that you are speaking of, we really need to be 
careful about discussing security-sensitive information in a 
public rulemaking process. We need to be careful in restricting 
the administration's ability to issue security directives that 
address an imminent threat.
    I think we struck the right kind of balance in H.R. 2200. 
But we did give you some additional rights. I just wanted to 
make sure that was on the record. We will have an opportunity 
to discuss this shortly.
    But let me yield to the gentle lady, Ms. Norton, for 5 
minutes.
    Ms. Norton. Yes, Madame Chairwoman. Your work and the work 
of this committee is why they are at the table at all.
    The Chairwoman has constantly discussed balance, because I 
believe she, as well as I, have been on this committee since 9/
11. We lived through the worst of it. So, the last thing we 
want to do is to go throw out the baby with the bathwater.
    But the subcommittee and committee have been very, very 
critical of lack of balance and of failure to do--in fact, we 
had to, over and over again, compel homeland security to 
understand that risk and consequences and threat is what it is 
all about, as opposed to, you know, close the joint down, 
meaning the United States of America.
    Ms. King, I want to congratulate you on your 
accomplishments as a pilot and the work of your company. I am 
particularly interested in getting any real-time experience you 
may have. For example, have you flown into DCA or, in general 
aviation aircraft, into the Nation's capitol since 9/11?
    Ms. King. Since 9/11, no, not in general aviation aircraft, 
because I am not allowed to.
    Ms. Norton. Why are you not allowed to, as one of the most 
experienced pilots in the country?
    Ms. King. Because there are extremely difficult-to-meet 
rules about gateway airports and criminal background checks and 
air marshals on-board the aircraft that, frankly, take the 
flexibility and the efficiency out of using a general aviation 
aircraft for transportation. We do still, on occasion, come to 
the D.C. area. But at this point, our airports of choice are 
either Manassas or Frederick, Maryland.
    Ms. Norton. So, they have made it, even with the so-called 
open general aviation here, impossible, economically 
impossible----
    Ms. King. Economically impossible.
    Ms. Norton [continuing]. For you to come that----
    Ms. King. Technically possible, but economically not.
    Ms. Norton. Yes. Of course, notwithstanding your 
experience, the reduction in general aviation here means that 
you reflect what is happening throughout the industry.
    Could I ask all of you--thank you, Mr. Rogalski, for your 
work.
    But could I ask those in the industry to say to me, I know 
you are getting good cooperation. We heard from Mr. Sammon. I 
want you to know, you are getting that cooperation, because 
this committee has insisted upon it. This is not the goodness 
of their heart.
    So, this committee needs to know, are the relevant 
representatives of helicopter, small aircraft companies, and 
pilots at the table as we speak?
    Mr. Van Tine. So, I will answer the question from our 
perspective, and the answer is yes. They are there. The fact 
that there were 7,000 responses and input back to the NPRM. 
Again, we appreciate Mr. Sammon and the work that TSA is doing 
to allow that process to happen. We need to continue to do it. 
They are being represented and being heard now. That is 
important. We still have a lot of work to do.
    Ms. Norton. Mr. Olislagers, do you agree with that?
    Mr. Olislagers. Yes, I do agree with that. Certainly, I 
have been able to represent a lot of the general aviation 
airports in particular, the reliever airports, on behalf of the 
American Association of Airport Executives, as well as airports 
and pilots in the State of Colorado. We have seen great 
representation at all levels, as well as my own airport, where 
we have 700 based aircraft, again from the very large aircraft 
to the very small aircraft. We appreciate----
    Ms. Norton. So, I ask all of you, what about your ability 
to fly into other airports using general aviation aircraft? Are 
you able to fly? Ms. King indicated something very close to the 
Nation's capitol. Do these other airports have gateways, 
entrances with air marshals, things----
    Ms. King. No, they do not. They make----
    Ms. Norton. How about New York City?
    Ms. King. We go into Teterboro. We have been into Newark. 
We go into Macarthur on Long Island. We go into White Plains. 
They, of course, have appropriate security on the airfield and 
the operators that provide services.
    Ms. Norton. But no Gateway, no----
    Ms. King. No gateway, no air marshals, no criminal 
background checks.
    Ms. Norton. Right there in the Big Apple with all those 
skyscrapers, you were able to fly into New York City.
    Ms. King. Absolutely. They are very welcoming.
    Ms. Norton. That is the experience, I take it, of all of 
you. The problem is one peculiar to here. But you have been 
able, at least, to get in and out. I mean, get in and out of 
Houston. But it looks like nobody is watching where they should 
be.
    We learned that, of course, it is prohibitive to come into 
the Nation's capitol, even though the capitol, if you add to 
the capitol the surrounding region, you have one of the engines 
of the American economy. What is then, finally, the impact 
nationally on the industry, whether you are looking at it from 
the pilot's point of view or from the point of view of the 
manufacturers?
    I am trying to find out the industry--the result of the 
apparent, until you all got at the table, application across 
the board with very little distinction between commercial and 
general aviation. How is the industry----
    Ms. King. From a pilot training point of view, the 
regulations and particularly the prospect of more additional 
regulations that were considered when they were proposed to be 
very onerous with very little benefit, has been very 
discouraging to people who might otherwise have been interested 
in taking up pilot training. So it has been very detrimental to 
the growth of the industry. It has been detrimental to the 
growth of the pilot population. Pilot training, at the basic 
level, is of course where eventually our airline pilots come 
from.
    Ms. Norton. Okay. So, nobody wants to be a pilot anymore, 
because you can't get in the air.
    Mr. Olislagers, you are the industry. Does anybody want to 
make these planes anymore?
    Mr. Olislagers. I am actually part of the airport industry. 
Certainly for us, since 9/11, things have changed considerably, 
because we do operate these airports. I can tell you, you know, 
there are about 19,000 different landing facilities on the 
general aviation side of the house. You have seen one airport, 
you have seen one airport.
    So, it has been very difficult having personally been 
involved with the working group, writing the guidelines for 
general aviation security to really get a template going that 
covers all of the airports. I think the most important thing 
that we have been able to do, working with AOPA and then VAA 
and other organizations is just raise the bar on awareness. 
Frankly, that has been the best security measure that we have 
been able to take.
    That goes for Centennial Airport as well as some of the 
small grass fields. It is just be aware of your surroundings. I 
think that goes to the same as you are, you know, walking in a 
parking lot these days or any other threat environment.
    Ms. Norton. Finally, Mr. Van Tine.
    Mr. Van Tine. Well, these security programs have added 
overhead to the industry clearly, and one that we have 
accepted. To your question about whether we want to build 
airplanes or not, we are also challenged by the economic times 
that are in front of us. The optics that have come from 
Washington and from other such areas as through the use of, 
just particularly business aircraft.
    Certainly the misunderstanding that those situations have 
created, and how the airplane really is a general aviation 
airplane is an important tool of our economy, an important tool 
to commerce and to the businesses that use it. It is not just 
CEOs that use airplanes. In fact, some 85 percent of business 
aircraft operations do not contain, in the back of the 
airplane, the CEO or executive management, but are used for 
middle management, are used for transportation of parts, 
materials, and for the conduct of commerce.
    So we are an industry that has entrenched in many different 
directions. This is one. But again, one that we recognize our 
obligation and need to support that continued enhancement in 
security in a practical way that works on both sides of this 
issue.
    Ms. Norton. Thank you.
    Thank you, Madame Chairwoman.
    Ms. Jackson Lee. I thank the gentle lady for her 
constructive questioning.
    Now, I would like to recognize the gentleman from Texas, 
Mr. Olson, for 5 minutes.
    Mr. Olson. Thank you very much, Madame Chairwoman.
    I appreciate the second panel. You guys are thinking it 
out, learning a little bit about congressional procedure. I 
know it has been a long day for you. Thank you for giving us 
your time and expertise today.
    I want to briefly talk about, again, the Large Aircraft 
Security Program. Mr. Olislagers--and I apologize if I 
mispronounced that. But can you generally describe what has 
been required of you as executive director of a general 
aviation airport, at least how the LASP would have affected you 
as it was proposed originally; and how some of the changes are 
going to affect you?
    Mr. Olislagers. Thank you for your question. You know, 
prior to the NPRM being issued, we had a robust security 
program in place already. We had a lot of high-income 
individuals at the airport who bring in their own security. So, 
we kind of follow that line.
    At the same time, we are also host to a lot of small 
aircraft. Folks that come on the airfield with their grandkids 
and so on, want to have an open environment as well. So we try 
to strike the balance. As Ms. Norton mentioned earlier, we have 
always tried to strike that balance.
    With the NPRM, our greatest cost, which actually the TSA 
completely omitted from its cost-benefit analysis, were the law 
enforcement officer requirements that this would have imposed 
on general aviation airports at Centennial Airport.
    We estimated, at the very low end, about $300,000 for that. 
The normal operating level at the high end, $1.3 million in 
additional costs. That represents about 20 percent of my 
operating budget, which is not very large. We run a fairly lean 
operation on a 24/7 basis. So, that would have been a very 
significant hit to us.
    We had indicated, as many other airports did when we did a 
poll through the American Association of Airport Executives, 
that all these other airports would, in fact, pass those costs 
on to the aircraft operators. In our case, anywhere between $60 
to $80 per landing or takeoff, very significant.
    There are a host of other issues that come with it. But 
that was certainly the most significant one.
    Mr. Olson. It sounds like you are happy, then, with the 
progress that has been made on the Large Aircraft Security 
Program.
    Mr. Olislagers. Yes, sir. I have actually participated with 
two of the three stakeholder meetings that took place following 
the closure of the comment period. Mr. Sammon has been very 
pragmatic in his approach. We certainly look forward to seeing 
that reflected in the revised NPRM, thanks to you.
    Mr. Olson. Thank you.
    Ms. King, same question for you, ma'am.
    Ms. King. Most business aviation is in small companies like 
ours. We have about--as I say, about 50 people. The economic 
impact of the original proposal would have been very 
significant in terms of, not just directly, but considerable 
administrative obligations and reporting requirements.
    We are a small, lean company. It is very important to us to 
be efficient in order to be competitive. Every administrative 
burden and impact that we have to bear significantly decreases 
our competitiveness and our ability to operate profitably. The 
original proposal would have had substantial economic impact on 
us.
    Mr. Olson. I don't want to put words in your mouth, but it 
sounds like you are very happy with the progress that has been 
made since that original proposal.
    Ms. King. I am personally not part of the stakeholders 
meetings as an individual business owner. The organizations 
that I belong to--MBAA and AOPA and EAA--have been involved, 
and they are happy with the progress being made. My feeling is 
that aviation security is very much like aviation safety. We do 
have, in aviation, the safest mode of transportation in the 
country. But that doesn't mean that we sit back and say that is 
enough. We have done all we need to.
    Industry has partnered with the FAA and others on the issue 
of aviation safety to continually keep increasing and enhancing 
safety. That is what we look forward to doing with the TSA and 
with your committee and with the Government to partner with 
you, to continue to increase and enhance safety.
    Mr. Olson. Thank you very much. So, the answer to that is a 
great point about how it relates to safety, and how they are 
sort of analogous. I appreciate that.
    My final question is for you, Mr. Van Tine. I personally 
believe that flight and aviation is the perfect example of 
American innovation and ingenuity at its finest. I enjoyed your 
written testimony and how you talk about the freedom to fly, 
and how the LASP must not hinder that freedom. If you are not 
familiar with my background, I was a pilot in the Navy for 10 
years; had those wings of gold with P-3s. Taking off was the 
thing I enjoyed the most about it, going up to 5,000, 10,000, 
and 20,000 feet, looking down at the world, looking at the 
ocean.
    I tried to fly a little bit after I got out of the Navy, 
flew a Cessna out of Winchester, Virginia here. But it became 
pretty obvious that the costs were going to be a little 
different than with the Navy who supplied all the fuel I needed 
to go flying. But I just can't tell you how much I identify 
with that freedom to fly. Can you explain how the LASP may be 
detrimental to that freedom?
    Mr. Van Tine. Well, I think one of the examples we talked 
about, that I heard in earlier testimony, had to do with 
ranchers using aircraft to move materials and move workers. 
This is under commerce. That the LASP rule, particularly as it 
talked about prohibitive items list, which really was a carry-
over from the commercial side, would make it impossible for 
those folks to use that aircraft in rural areas.
    General aviation supports--when you look at the 19,000 
airports, landing strips, heliports around the country, many, 
many of those are located in rural areas or areas not served by 
commercial aviation. This is a vital asset to, not just to our 
commerce, but for people being able to travel, to see family, 
for recreation purposes as well as for business.
    So, LASP, if you looked at an original submission by TSA, 
when you talk about the passenger watch list, people who get on 
our airplanes are known to us. If they are not known to us, we 
have systems now that, in working with TSA, I think we ought to 
find a way to make use of the eSecure system for the private 
sector, so we can vet those that may not be known to us, but 
yet come to us recommended by a friend or by somebody that also 
will be flying with us.
    So, this is an important part of our American heritage, 
certainly an important part of our commerce. So, again, 
practical rules that mitigate security risk, but allow us to 
use these airplanes as we have had for many, many decades is 
important to us. We are making progress with TSA. Certainly, 
there still are many things to do, though.
    Mr. Olson. Good to hear. Again, we can't ever lose the 
freedom to fly, in my personal opinion.
    I want to thank all the witnesses for your time, your 
patience and your expertise today.
    Thank you very much, Madame Chairwoman. I yield back the 
rest of my time.
    Ms. Jackson Lee. I look forward to us utilizing what I 
think has been very important. Before I conclude this hearing, 
Mr. Olson, you were able to fly. The rest of us want to fly. 
So, we are grateful for your comments about the freedom of 
flying.
    There is something I think we all agree with as Americans. 
This hearing is to promote safe and secure general aviation. 
You have heard from both sides of the aisle a commitment to 
general aviation. In fact, you have heard a rather vigorous 
statement by the gentle lady from the District of Columbia 
wanting to ensure that general aviation can come to Washington, 
DC.
    I do think it is important, as I ask these few questions of 
clarification, that we try to assess, again, the line of 
questioning of Mr. Olson. I would like to hear it from the 
three industry representatives, just again--because we are 
moving forward. I hope that you will affirm that, because of 
this committee's work, that we got the attention of TSA. You 
were in very important industry meetings.
    So, I know, Ms. King, that you were not in the meetings. 
But do you feel that we don't have the next step of the written 
regulations? But have you gotten word back that TSA's new 
procedures, with the stakeholders' input, was a better 
procedure, was a better opportunity?
    Ms. King. We participated in the TSA's general public 
meeting hearings in Burbank, California. Ours was one of the 
7,000 comments that went in regarding the original NPRM. We are 
very encouraged by the fact that the TSA is rewriting or 
reworking--I am not quite sure the procedure that they follow--
that notice.
    The information that we are hearing through the 
associations that we belong to does indicate that they are 
paying attention to the stakeholders and recognizing that what 
they had done in the previous proposal was a cookie-cutter copy 
all of the commercial airline rules over. That they recognized 
that that is inappropriate.
    There are, of course, still issues to be worked out. But I 
understand that there are significant discussions underway. 
That is the extent of my knowledge.
    Ms. Jackson Lee. You feel better about the process?
    Ms. King. I do.
    Ms. Jackson Lee. Mr. Olislagers, would you comment on this 
whole idea of your thought about vulnerabilities that need to 
be addressed? We would be interested in your perception of 
whether or not we can do that together.
    Mr. Olislagers. Certainly. First of all, I would like to 
thank this committee for continuing to raise the issue, because 
I think, without it, the TSA may not have come to the table 
necessarily to provide the perspective and some of the sit-
downs that we have had with the TSA. So I want to thank you for 
your leadership on the committee and the Members.
    With respect to vulnerability assessments, TSA to date has 
not done any vulnerability assessments that I know within the 
general aviation industry. Obviously, we have done our own 
vulnerability assessments at Centennial Airport. We had the 
National Guard in. Also private sector, we did red team 
exercises. I think they are very important to understand for 
any infrastructure environment, any critical asset that should 
be done.
    My own assessment of the general aviation industry is such 
that we believe that there are a lot of other threats elsewhere 
that are far greater than the general aviation. I hope that 
those will get addressed as well. We are doing our part, at 
Centennial Airport. On behalf of the American Association of 
Airport Executives, I am assisting certainly my colleagues are 
all grappling with this issue.
    But, again, we appreciate all of your time in this as well. 
Thank you.
    Ms. Jackson Lee. Mr. Van Tine, thank you.
    Mr. Van Tine and Ms. King, I would like to ask this 
question. How much do you think general aviation can invest in 
security measures?
    Mr. Van Tine. Well, that is a difficult question to answer, 
because it depends on what those security measures need to be; 
which is again why we feel it is important that we team with 
TSA and really understand those risk assessments and then what 
are mitigating actions that will result from that.
    So, it is an industry that, you know, is highly regulated, 
and it is expensive. So, you know, clearly in this kind of 
economic environment, our tolerances are low, as are other 
industries. But, at the same time, this is an essential issue. 
We are going to do out part to find the right way, and the 
right balance between that security and the ability for the 
industry to operate.
    Ms. Jackson Lee. I think that is a cooperative expression 
of being willing to work with us on security and safety. In 
this instance, this is about security.
    Ms. King.
    Ms. King. Obviously, security is important to everyone in 
general aviation, because it is part of our whole safety 
orientation. As pilots in general aviation operators, we are 
trained from the time we first start flying to focus on risk 
management and risk assessment and mitigating risk. The 
economic impact of the additional security measures, and again, 
as Mr. Van Tine remarks, it depends on what those measures 
are--maybe disproportionate depending on the size of the 
company.
    For a company our size or smaller, it could be--depending 
again on what security measures we are talking about--it could 
be a crushing economic impact issue that makes you reconsider 
whether you can afford to use a company airplane. That would 
be, in my opinion, a tragedy, because it would mean a 
considerable decrease in efficiency and competitiveness.
    Ms. Jackson Lee. I appreciate that. I want to leave this 
hearing, so that we have the parameters that we can work with 
TSA in this committee.
    So, Mr. Olislagers, let me just suggest that there are all 
levels of suggested security procedures or implementation. Say, 
for example, an airport, a small airport, was asked to have 
signs, was asked to document their security procedures, have 
some sort of report, positive passenger cargo baggage--four 
passengers, four bags, or however many--the aircraft secured at 
night or in the daytime, community watch program in the contact 
list, and the contact list would be who do we reach in times of 
trouble. Is that onerous?
    Mr. Olislagers. Madame Chairwoman, that is not onerous. 
Those are all good business practices. Those are part of the 
best practices. During last summer, we hosted the Democratic 
National Convention. We also ramped up during that special 
event our security protocols. We stand down when we believe 
there are no specific threats.
    So, we take a layered approach to security. All the 
aforementioned items that you brought up, certainly, are part 
and parcel of a good best practices program.
    Ms. Jackson Lee. Can those of you who deal with airlines, 
the airports and airplanes, tell me the size plane by pounds--
and I use tonnage at another point, but I will use pounds--
12,000 to what, Ms. King, have you been engaged in or utilized 
in terms of aircraft?
    Ms. King. The airplane that we currently own weighs 
approximately 18,000 pounds.
    Ms. Jackson Lee. Eighteen thousand, thank you.
    Mr. Olislagers.
    Mr. Olislagers. The aircraft, we can effectively handle up 
to 100,000 pounds, although we have had Boeing 737s up to about 
160,000 pounds. So we can handle those airplanes.
    Ms. King. So, and you go down--what is the smallest?
    Mr. Olislagers. Probably J-3 Cub, a slow Piper Cub, you 
know, fabric wings, that sort of things.
    Ms. Jackson Lee. Okay.
    Mr. Olislagers. Probably less than 5,000.
    Ms. Jackson Lee. Less than 5,000.
    Mr. Van Tine.
    Mr. Van Tine. Personally, I am flying aircraft that are 
3,000 to 4,000 pounds, since I have those very small. Although, 
again, my company works with 650 airlines in all segments of 
general aviation around the world. So my exposure comes from 
working with customers. But personally operating small, very 
small, light aircraft.
    Ms. Jackson Lee. Thank you.
    Mr. Rogalski, when you did this report, did you visit with 
or look at video or work that other reporters had done on this 
same topic?
    Mr. Rogalski. No, we didn't, Madame Chairwoman.
    Ms. Jackson Lee. Do you have any knowledge about whether or 
not any other incidences occurred in terms of just other 
locations? If you didn't consult with them, do you know of any 
tapes or any other reports like this, not in Houston, but 
around?
    Mr. Rogalski. From a news perspective, one would think that 
would have been the objective of the inspector general reports. 
But when you make announced visits--as we sought comment from 
aviation security experts regarding that report, one of the 
takeaways that they got was that the OIG visits to these 
airports were announced.
    The proper analogy, according to this expert, was if you 
are a restaurant owner, and the Health Department is going to 
do a health inspection, and they call you ahead of time, by 
golly, you are going to have your kitchen spotless clean. 
Whether or not that holds true is, again, not my place to make 
a judgment. But no, I don't know of any other incidents. But 
then, again, I think it is evidence from the OIG report that 
there was no attempt to gain entry unannounced, unplanned----
    Ms. Jackson Lee. My----
    Mr. Rogalski [continuing]. To see if there was a larger 
issue, ma'am.
    Ms. Jackson Lee. I can say that my staff did find other 
media outlets who had come across some of the same 
circumstances. I wouldn't expect you were not made aware of 
them. But they existed. That was my question to the IG.
    Now, you raised a very good point, the announcement. But, 
more importantly, did they take the single question that 
happened to come from a single market trying to express a 
broader concern? Did they thoroughly look any more broader 
fashion, so that we could help all? This was not a Houston 
story. This was, in fact, an effort to secure America better. 
That is what I took from the reporting that you were able to 
do.
    Let me compliment, as I conclude, so that you can 
understand the thrust of our efforts. You can view this as a 
compliment, even though it is a stark set of circumstances.
    Ms. King, I think, teaches pilots, or is it only that you 
have a craft that people are able to secure? Do you do 
training, pilot training?
    Ms. King. We do. What we do is training pilots for the 
knowledge component. We don't actually teach in the aircraft.
    Ms. Jackson Lee. Okay. But we all are aware, certainly, of 
the facts of 9/11 as relates to general aviation. We know that 
the terrorists found a general aviation facility. We know that 
they were being trained in all innocence. We understand that 
their source of exchange was U.S. cash. We also documented that 
they were trained in their rush to take off.
    It appears that they really were not interested in getting 
any training to land. It may have been differing levels of how 
they handled that. But we know that happened.
    So, my question or my comment is look how far we have come.
    Mr. Van Tine, do you think anyone is now, we hope, at least 
monitoring how they take cash. Would you say that is occurring? 
Would you say that general aviation is very suspicious of 
anyone who wants a hybrid training takeoff and have no way of 
getting down?
    Mr. Van Tine. Absolutely.
    Ms. Jackson Lee. Would you also surmise that there is a 
little bit more documentation on students that are coming into, 
you would suspect, any training facility to be trained?
    Mr. Van Tine. Not just a little bit, but quite a bit.
    Ms. Jackson Lee. I make the point, because although that 
was a set of circumstances that none of us could have ever 
imagined, look how far you have come. You have made very 
reasonable and rational decisions that really are about 
security. We applaud you for that.
    But we live in remorse, obviously, of that whole tragedy 
which had many different factors that contributed to it. That 
is why we are here today, to ensure that we take the next leap, 
having the industry as stakeholders, recognizing it is a 
vibrant and thriving industry, and as well, recognizing that 
the media reporters help us in an instructive manner, so that 
we have the documentation, the actual documentation, that can 
help us do better. That is what this hearing was about today.
    So, I simply wanted to make that point. Mr. Van Tine has 
answered for all of you.
    But if Ms. King, if you want to say that you believe you 
have made strides, I know you were in business in 2011--nine, 
excuse 9/11, 2001, 9/11. Were you not?
    Ms. King. Yes. Flight instructors throughout the country 
are taking security training and recurrent training on a 
regular basis. The points that you have talked about, Madame 
Chairwoman, about taking cash and students who want unusual 
kinds of training--those and other points are a very heavy 
focus of that training. So there is a very, very heightened 
awareness.
    Ms. Jackson Lee. I thank you.
    Mr. Olislagers, do you want to comment?
    Mr. Olislagers. Very briefly, I think since 9/11, just as 
passengers on a commercial flight will no longer accept a 
hijackers thought, you know, that they will still survive the 
end of the flight, we have seen changes in general aviation 
and, you know, become smarter. I think that awareness issue 
needs to continue to take place.
    As I have said before, overregulation is probably not the 
answer. We have a security program at Centennial Airport that 
is probably the simplest security program we have. We reward 
people who see anything that happens on the airport that is 
unusual. It is very successful.
    No high-tech cameras can do a better job than us being 
aware. That is really, I think, the focus, certainly from our 
general aviation, and would like to continue to pursue. So, 
less regulation and more awareness.
    Ms. Jackson Lee. Well, I thank you for that final word. I 
will just add back that it will be regulation with balance. I 
think that will be a fair approach to how we move on general 
aviation.
    Allow me to thank all of the witnesses who have now 
appeared. I want to make mention of the fact that I also thank 
the Members for their valuable questions and acknowledge the 
constructive manner in which the witnesses answered the 
questions. The Members of the subcommittee may have additional 
questions for the witnesses. We ask that you respond to them 
expeditiously in writing.
    Hearing no further business, the subcommittee stands 
adjourned. Thank you again for your patience.
    [Whereupon, at 5:55 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairwoman Sheila Jackson Lee of Texas for Carlton I. 
   Mann, Assistant Inspector General for Inspections, Office of the 
           Inspector General, Department of Homeland Security
    Question 1. Mr. Mann, the OIG report talks about your discussions 
with Transportation Security Administration's (TSA) Office of 
Intelligence, which takes the lead for developing threat assessments 
for aviation. Did you feel the office was adequately staffed and has 
all of the necessary resources to be able to make threat assessments 
concerning existing or emerging threats?
    Answer. We did not collect the information you have requested 
during the course of our review, which had a different focus. 
Nevertheless, in the interest of being as helpful as possible to the 
committee, we recently contacted TSA and asked them about resource 
sufficiency. They have informed us that the Office of Intelligence 
Threat Assessment Unit is staffed sufficiently and has the necessary 
resources to make threat evaluations concerning existing and emerging 
threats.
    Question 2. Mr. Mann, the OIG report states that the terrorist 
threat to general aviation is low due to the fact that most of the 
aircraft are too small to inflict great damage. What are your thoughts 
on large general aviation aircraft that could inflict damage? Do you 
have any comments about larger general aviation aircraft and the risk 
they pose?
    Answer. Aircraft operated by corporations for executive and other 
corporate employee travel, charter services, or private citizens who 
use business jets and large turbo-prop aircraft, as well as businesses 
such as Federal Express, which use aircraft that are equivalent to 
commercial airliners, do pose unique risks because of their size, 
payload capacity, and speed. As evidenced by the terrorist attacks of 
September 11, 2001, large aircraft can cause catastrophic damage to 
structures. However, occurrences of misuse of general aviation aircraft 
in this category are practically nonexistent. According to the Aviation 
Crime Prevention Institute, thefts of all types of aircraft have 
declined since 2001, when 15 planes were stolen compared to five 
reports of aircraft thefts thus far in 2009. Of the five aircraft 
stolen this year, all were propeller-driven--four single-engine and one 
light twin-engine plane. To our knowledge, no jet aircraft have been 
reported stolen since 2005, when a man stole a Cessna Citation VII, 
belonging to a flight services company in Arkansas. The subsequent 
investigation into the theft of the Cessna revealed no terrorist 
activity or intent to cause harm.
    We believe charter services pose the most significant risk. Unlike 
corporate and private flights where the crew usually knows the 
passengers, the crew of charter flights might not have ``first-hand'' 
knowledge about those aboard the aircraft. However, TSA has enacted the 
Twelve-Five Security Program and the Private Charter Standard Security 
Program to deter the potential misuse of chartered flights. Twelve-Five 
Security Program requirements include passenger identification checks, 
fingerprint-based criminal history records checks for the flight crew, 
specific bomb and hijacking notification procedures and requirements, 
and the implementation of a TSA-approved operator security program. The 
Private Charter Standard Security Program requires operators of 
passenger charter flights using aircraft with a maximum takeoff weight 
greater 100,300 pounds, or with a passenger-seating configuration of 61 
or more passengers, among many other requirements, must ensure that all 
passengers and accessible baggage are screened prior to boarding the 
aircraft. In addition, the Private Charter Standard Security Program 
prohibits passengers from boarding a chartered flight with weapons, 
explosives, and incendiary devices. It also requires the use of metal 
detectors and X-ray systems that meet TSA standards, to screen charter 
passengers. These operators must have a security program that 
establishes all the required security components for private charter 
operations.
    As is a matter of record based on our July 15, 2009 testimony, one 
of our objectives for the TSA's Role in General Aviation inspection was 
to identify TSA security requirements for general aviation airports, 
and to identify measures taken by TSA to secure general aviation. We 
determined that TSA, even while it actively pursued all its other 
mandates, had also paid significant attention to general aviation. This 
was true both in the Office for Transportation Sector Network 
Management and in the Office of Intelligence. Various Government and 
industry studies have concluded that the risks associated with general 
aviation are relatively limited. Reports previously released by the 
General Accountability Office and the Congressional Research Service 
are consistent with this view.
  Questions From Chairwoman Sheila Jackson Lee of Texas for Mr. John 
    Sammon, Assistant Administrator, Transportation Sector Network 
           Management, Transportation Security Administration
    Question 1. Mr. Sammon, in your written testimony you discuss, to 
some extent, the collaboration between DNDO and CBP to mitigate risks 
associated with in-bound general aviation aircraft. As TSA continues to 
develop its GA security policies with the LASP and other tools, what 
will be TSA's role in the collaboration DNDO and CBP are currently 
undertaking?
    Answer. Response was not received at the time of publication.
    Question 2. What is TSA's overall strategy for addressing the 
security of general aviation airports?
    Answer. Response was not received at the time of publication.
    Question 3. Since 2004, what actions has TSA taken to strengthen 
the security of the general aviation system? To what extent have these 
actions been developed in coordination with general aviation 
stakeholders?
    Answer. Response was not received at the time of publication.
    Question 4. How does TSA plan to assess the effectiveness of its 
actions?
    Answer. Response was not received at the time of publication.
    Question 5. What additional actions does TSA plan to take to 
further strengthen this area of aviation security?
    Answer. Response was not received at the time of publication.
    Question 6. What financial, technological, and operational 
challenges do TSA and its stakeholders face in securing the general 
aviation system?
    Answer. Response was not received at the time of publication.
    Question 7. What progress has TSA made in its efforts to conduct a 
systematic analysis of security vulnerabilities at general aviation 
airports Nation-wide? How has this progress been measured?
    Answer. Response was not received at the time of publication.
    Question 8. To what extent were the general aviation security 
regulations issued in the last year based on the results of a 
systematic risk analysis?
    Answer. Response was not received at the time of publication.
    Question 9. What steps has TSA taken to systematically and 
comprehensively obtain general aviation stakeholder input in developing 
the proposed regulations to enhance general aviation security?
    Answer. Response was not received at the time of publication.
    Question 10. In the absence of a focused risk assessment for 
general aviation, is TSA justified in imposing a broad array of 
additional security regulations on the general aviation industry? What 
is the specific threat that these regulations seek to mitigate?
    Answer. Response was not received at the time of publication.
    Question 11. Conversely, if general aviation represents a 
significant threat that justifies the proposed regulations, why has it 
taken TSA 6 years to develop and implement regulations to close these 
security gaps?
    Answer. Response was not received at the time of publication.
    Question 12. What steps has TSA taken to systematically and 
comprehensively obtain general aviation stakeholder feedback on the 
quality of the agency's risk communication efforts?
    Answer. Response was not received at the time of publication.
    Question 13. What steps, if any, has TSA taken to identify and 
prioritize the need for security enhancements at general aviation 
airports? What is the estimated cost of the improvements needed to 
comply with the proposed regulations?
    Answer. Response was not received at the time of publication.
    Question 14. What, if any, general aviation security enhancement 
has TSA funded to date?
    Answer. Response was not received at the time of publication.
    Question 15. Has TSA developed any security requirements for 
domestic charters flights operated by foreign air carriers?
    If yes, which regulations are required to be met?
    If no, has TSA made a determination that private charter operations 
in the United States conducted by foreign air carriers pose no 
significant security risk to aviation and national security?
    Answer. Response was not received at the time of publication.
    Question 16. What is the likelihood of a nuclear attack occurring 
from a GA aircraft?
    Answer. Response was not received at the time of publication.
    Question 17. What will be the financial costs of intensifying the 
security measures to GA aircrafts?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Charles W. Dent of Pennsylvania for Mr. 
  John Sammon, Assistant Administrator, Transportation Sector Network 
           Management, Transportation Security Administration
    Question 1. Which general aviation stakeholders did the TSA consult 
with prior to the release of its October 2008 Large Aircraft Security 
Program (LASP) Notice of Proposed Rulemaking (NPRM), TSA-2008-0021?
    Answer. Response was not received at the time of publication.
    Question 2. How did TSA document these consultations with outside 
industry groups or stakeholders while developing the LASP NPRM?
    Answer. Response was not received at the time of publication.
    Question 3. Do you believe that the TSA's use of open forums and 
workshops since April 2009 will result in a better, more risk-based 
rulemaking? If so, will TSA endeavor to, whenever possible, use much 
more inclusive, open, and transparent approaches in future rulemakings?
    Answer. Response was not received at the time of publication.
    Question 4. Who does the Automatic Detection and Processing 
Terminal work? How does it distinguish between the scheduled, 
legitimate flight and a flight that may be deviating from its flight 
path?
    Answer. Response was not received at the time of publication.
    Question 5. In 2007, then-Secretary Chertoff required CBP and DNDO 
to scan all arriving general aviation aircraft for radiation and 
nuclear signatures. Does the Department have any programs either 
deployed or scheduled to be deployed that would require general 
aviation aircraft inspections overseas vice once the aircraft has 
landed in the United States?
    Answer. Response was not received at the time of publication.
    Question 6. We've heard from the DNDO that these foreign in-bound 
general aviation flights are of particular concern to them. Do you 
agree with the DNDO as to the extent of the threat of these aircraft to 
the United States?
    Answer. Response was not received at the time of publication.
    Question 7. If TSA really believes, as you testified, ``a critical 
aspect of TSA's regulatory approach is the process-oriented nature of 
devising mandatory security measures,'' why does the TSA have literally 
dozens of security directives issued without any opportunity for public 
notice or comment? What is the process for issuing these security 
directives? How often are security directives formally reviewed to 
identify if an actual rulemaking allowing for public comment would be 
possible?
    Answer. Response was not received at the time of publication.
 Questions From Chairwoman Sheila Jackson Lee of Texas for Dr. Charles 
   R. Gallaway, Acting Director, Domestic Nuclear Detection Office, 
                    Department of Homeland Security
    Question 1. Dr. Gallaway, according to DNDO, what approach poses 
the greatest risk for radiological and nuclear terrorist attack from a 
foreign departure point?
    Answer. Response was not received at the time of publication.
    Question 2. What are some of the advantages that terrorists might 
associate with GA aircraft when orchestrating a terrorist attack?
    Answer. Response was not received at the time of publication.
    Question 3. How does the preclearance agreement structure currently 
utilized by CBP mitigate the risk of unknown in-bound GA aircraft? How 
could the program be strengthened?
    Answer. Response was not received at the time of publication.
    Question 4. Can you tell us about the weapons that might be used to 
inflict a nuclear or radiological attack using a GA aircraft?
    Answer. Response was not received at the time of publication.
    Question 5. Domestic general aviation air carriers have complained 
that Air Canada has a competitive advantage in its charter programs 
because it is not required to screen passengers and baggage like 
domestic carriers. Please explain the Air Canada issue. Do you feel 
this is a security vulnerability? If so, what steps is TSA taking to 
address it?
    Answer. Response was not received at the time of publication.
 Questions From Ranking Member Charles W. Dent of Pennsylvania for Dr. 
   Charles R. Gallaway, Acting Director, Domestic Nuclear Detection 
                Office, Department of Homeland Security
    Question 1. How is DNDO working with TSA and CBP to address the 
high consequence by low probability WMD attack utilizing a general 
aviation aircraft?
    Answer. Response was not received at the time of publication.
    Question 2. What capabilities current deployed to the field exist 
for DHS inspectors to identify shielded radiological materials? What 
R&D projects are in the works to improve radiological detection 
capabilities that might be useful in the general aviation field?
    Answer. Response was not received at the time of publication.
Questions From Chairwoman Sheila Jackson Lee of Texas for Martha King, 
                                 Pilot
    Question 1. Mrs. King, are some security programs being 
administered by TSA for general aviation more effective than others? 
Could you tell us what programs work well in general and which need 
improvement? For example, the Airport Watch hotline or the security 
program for large charters, how effective are these programs?
    Answer. General aviation aircraft represent a significant 
investment and commitment of time and effort for general aviation 
operators. It is in their interest to keep these valuable assets 
secure. The best approach TSA can take is to provide tools to assist 
operators in discharging this responsibility that the operators have 
recognized was theirs long before the creation of TSA. The Airport 
Watch Program is an excellent example of the kind of tools that are 
helpful and effective. Since I am not a charter operator, I am not in a 
position to judge the effectiveness of the security program for charter 
operators of large aircraft.
    Question 2. Mrs. King, do you think there are some situations in 
general aviation transportation where it would be beneficial to know 
the watch list status of a passenger or do you feel that, in all 
circumstances, general aviation passengers are known to pilots and 
crew?
    Answer. It is hard to image a case in which someone would present 
an unknown person to be carried on a private flight along with valued 
personnel, who are often conducting confidential discussions and work 
on-board. In any event, making the watch list available to a trusted 
pilot would provide one more security tool should a question ever 
arise.
    Question 3. Mrs. King, I would like your opinion on how vulnerable 
general aviation is to the insider threat--either flight crew or 
airport personnel. Do we currently have enough security protocols in 
place to mitigate this risk?
    Answer. Aircraft large enough to possibly be used as a weapon are 
owned by operators who consider the aircraft and the highly valued 
personnel they carry strategically important to the well-being of their 
business. These operators carefully vet all those who will come into 
contact with the airplane or its occupants. In every case these 
companies will have a security system in place that functions 
differently than, but often exceeds the effectiveness of, of airline 
security programs. It is highly improbable that Government regulation 
would improve this process. In many cases it is likely the specificity 
in the regulation and the disclosure of plans to outsiders would result 
in the unintended consequence of degradation in security.
    Question 4. Mrs. King, what is your opinion on the international 
in-bound threat? How can the Government work to address this 
vulnerability?
    Answer. This is a subject in which I am not an expert. Having said 
that, here is my opinion:
    My observation from the occasional international travel I have 
conducted with our aircraft is that the TSA and CBP processes in place 
at our borders and overseas effectively detect and deter those that 
would do harm to our country. We are subject to passenger and aircraft 
screening at ports of entry, including radio isotope scanning. And CBP 
now requires submission of the names of our passenger and aircraft 
information prior to departing from a foreign location for the United 
States.
    International access for general aviation is as important to the 
economy of our country as access for the commercial airlines. We must 
ensure commerce and transportation remain a easily accessible for all 
businesses and travelers.
    An aircraft large enough to be a threat on an international flight 
would represent a substantial investment, and would be a valuable 
resource to its owner. It would be carefully secured by an owner with 
legitimate intent. Additionally, an organization able to purchase such 
an aircraft to commit mayhem would have many avenues available that 
might be subject to less scrutiny and be much more effective than the 
use of an aircraft. The simplest answer of making every aircraft go 
through a portal and inspection abroad would have a disastrous effect 
on the use of general aviation aircraft for commerce and travel and on 
the economy of the United States. The best answer is international 
cooperation and intelligence that follows the money.
    The risk that a general aviation aircraft might be used to carry a 
nuclear weapon is limited by the fact that any nuclear weapon that a 
general aviation aircraft could carry would have to be produced through 
a sophisticated Government program. The best solution for that problem 
would be to focus efforts on tracking the results of those programs. 
For more information on this subject, see Physics for Future Presidents 
by Richard A. Muller.
  Questions From Chairwoman Sheila Jackson Lee of Texas for Robert P. 
           Olislagers, Executive Director, Centennial Airport
    Question 1. Mr. Olislagers, tell me about how the general aviation 
industry is faring in this recession and what impact you think changes 
in the number of flight operations has on revenue and security 
programs.
    Answer. Response was not received at the time of publication.
    Question 2. Mr. Olislagers, please tell us generally how involved 
State and local governments are with providing resources for security 
at general aviation airports? How has the recession impacted State and 
local grants or programs for general aviation?
    Answer. Response was not received at the time of publication.
    Question 3. Mr. Olislagers, what is your opinion on the 
international in-bound threat? How can the Government work to address 
this vulnerability?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
